<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR 2019</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                    LEGISLATIVE BRANCH APPROPRIATIONS
                                 FOR 2019

_______________________________________________________________________

                                 HEARINGS

                                BEFORE THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              SECOND SESSION

                                __________
                                

                    SUBCOMMITTEE ON LEGISLATIVE BRANCH

                      KEVIN YODER, Kansas, Chairman
                      

  MARK E. AMODEI, Nevada                    TIM RYAN, Ohio
  DAN NEWHOUSE, Washington                  BETTY McCOLLUM, Minnesota
  JOHN R. MOOLENAAR, Michigan               DEBBIE WASSERMAN SCHULTZ, Florida
  SCOTT TAYLOR, Virginia
  

  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

                          Jennifer Panone, Clerk
                     Tim Monahan, Professional Staff

                               ___________

                                  PART 2

                   FISCAL YEAR 2019 LEGISLATIVE BRANCH
                         APPROPRIATIONS REQUESTS                  
                         
                         
                         
                                   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                _____

          Printed for the use of the Committee on Appropriations

                                _________

                    U.S. GOVERNMENT PUBLISHING OFFICE

  30-357                    WASHINGTON : 2018

                            





                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\                           NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                           MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                                    PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                             JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                           ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                                 DAVID E. PRICE, North Carolina
  KEN CALVERT, California                               LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                                    SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida                            BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania                         BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                                   TIM RYAN, Ohio
  KEVIN YODER, Kansas                                   C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                                DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska                            HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida                             CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee                     MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington                     DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                                  MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California                          GRACE MENG, New York
  ANDY HARRIS, Maryland                                 MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                                  KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                                PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  <SUP>\1\}</SUP>Chairman Emeritus 
  
  

                               Nancy Fox, Clerk and Staff Director

                                               (ii)
                                               
                                               




                            C O N T E N T S

                               __________

                               Testimony

                                                                   Page
U.S. Capitol Police..............................................     1
Government Publishing Office.....................................    27
Architect of the Capitol.........................................    57
Members of Congress and Outside Witnesses........................    85
Office of Compliance.............................................   213
Congressional Budget Office......................................   251
Government Accountability Office.................................   273
Library of Congress..............................................   323
House of Representatives.........................................   363

                           Prepared Statement

Open World Leadership Center.....................................   447

                                 (iii)
                                 
                                 
                                 
                                 


               LEGISLATIVE BRANCH APPROPRIATIONS FOR 2019

                              ----------                              

                                         Wednesday, April 11, 2018.

                      UNITED STATES CAPITOL POLICE

                               WITNESSES

MATTHEW R. VERDEROSA, CHIEF OF POLICE
STEVEN A. SUND, ASSISTANT CHIEF OF POLICE
RICHARD L. BRADDOCK, CHIEF ADMINISTRATIVE OFFICER

                     Opening Remarks Chairman Yoder

    Mr. Yoder. I call the meeting to order. Thank you, 
everybody, for coming today. It seems like just a couple of 
weeks ago, we were working on the 2018 bill, because we were, 
and now we are ready to get to work on our 2019 legislation. We 
are going to have to move quickly, given where we are in the 
calendar. So I appreciate everybody coming to the hearing this 
week. We have got two more hearings tomorrow, so it will be a 
busy week. And I know that there are a lot of hearings on the 
other 11 subcommittees going, so people may come and go because 
they have other legislative business.
    I want to thank the Chief of Police for attending today, 
along with his team, and I appreciate all of your service to 
the Capitol, to the visitors that come here, constituents, to 
the people that come to our buildings to conduct the business 
of the American people, of course, the elected Representatives, 
who have been targets of many threats over the last year and 
some of which were acted out. The work of your team at the 
shooting in Virginia last year was remarkable, and we are 
thankful for the lives that were saved because of the folks who 
work for you. So thanks for being here.
    And I thank my team. I have Jenny, Tim, and Joe in my 
office who are here with us today. We will get started on the 
2019 bill. I would like to welcome all the subcommittee members 
back.
    As we start consideration of the fiscal year 2019 budget 
request, I look forward to working together again on putting 
together a legislative branch appropriations bill that 
adequately addresses the needs of our agencies so they can 
carry out their respective missions while at the same time 
balancing fiscal restraint. We have important work before us in 
being good stewards of taxpayer dollars as they are spent on 
the legislative branch, and I am glad to formally begin our 
hearing season.
    I want this committee to work in a bipartisan and 
collaborative basis, as is the tradition of this committee, and 
I invite our members to recommend additional site visits or 
items which they believe would be important for us to achieve 
our mission in writing this upcoming bill.
    This year, as chairman, I have decided to expand the number 
of hearings we will hold. Our subcommittee will consider a 
fiscal year 2019 budget request of $4.9 billion, which is $200 
million over the fiscal year 2018 allocation. I felt it was 
important to hear from more of our agencies through in-person 
testimony in order to more thoroughly scrutinize the requests 
and help fulfill our responsibility of ensuring every taxpayer 
dollar appropriated is done so responsibly.
    Today I would like to welcome the Capitol Police back to 
the committee to hear their testimony regarding their fiscal 
year 2019 budget request. Testifying before us, we have Chief 
Matthew Verderosa. Accompanying him is Assistant Chief Steven 
Sund and Chief Administrative Officer Richard Braddock.
    I would like to take a moment again to thank all the 
officers and civilians of the Capitol Police for their service. 
Their presence allows Members and staff to freely conduct and 
safely conduct the people's work and ensures the visitors can 
safely enjoy their time on Capitol Hill.
    As mentioned, the shooting in Alexandria last year is still 
very much on all of our minds. This incident shook all of us in 
this Capitol Building. And I am pleased to hear that Special 
Agent David Bailey has returned to work and that Special Agent 
Crystal Griner continues to make strides in her recovery. They 
are both heroes and have been an inspiration to us all.
    In response to the shooting, the department identified the 
need for additional funds that could go to remediating some of 
the lessons learned and bolstering their efforts to make sure 
something like this doesn't happen again. Although a bit 
delayed, I am happy those funds were made available in the 
recently passed omnibus.
    Chief, your budget request for fiscal year 2019 is $456.4 
million. This is approximately a 7-percent increase from the 
fiscal year 2018 enacted level. I understand the Capitol Police 
is continuously asked to expand their role: from securing the 
O'Neill House Office Building to garage security to more 
prescreeners to additional dignitary protection, and the list 
goes on.
    Chief, I appreciate your leadership and efforts in trying 
to meet these additional responsibilities while at the same 
time making sure that day-to-day operations of the department 
continue. Having said that, this committee has a responsibility 
to scrutinize this request and to take a holistic approach 
across all the legislative branch agencies when determining 
where to allocate funds.
    Since sequestration, the Capitol Police annual 
appropriations have increased more than 32 percent, while most 
legislative branch agencies have only received a modest 
increase. Obviously, we have many competing priorities, but 
keeping our Capitol safe, making sure that we adequately train 
and support our officers, making sure they have the tools and 
equipment to do their jobs remains the top priority of this 
committee. And we are so thankful for the work of each and 
every one of you and the folks that report to you and work to 
keep us safe.
    We are going to come back to Ranking Member Ryan's opening 
remarks. And at this point, Chief, we will make your opening 
statement part of the record.

       Opening Statement of Chief of Police Matthew R. Verderosa

    Chief Verderosa. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate the opportunity to present the 
department's budget request for fiscal year 2019. I am joined 
today by Chief of Operations, Assistant Chief Steve Sund; Mr. 
Richard Braddock, my Chief Administrative Officer; as well as 
members of my executive team. We are also joined here today by 
Acting Inspector General Michael Bolton and USCP Fraternal 
Order of Police Chairman Gus Papathanasiou.
    First, I would like to thank the committee for its 
unwavering support of the United States Capitol Police and for 
providing the necessary funding to support our personnel and 
operations. Since I last appeared before the committee, the 
department has effectively managed an ever-increasing number of 
demonstrations and swiftly responded to critical incidents, 
civil disobedience, and has investigated numerous credible 
threats made against Members of Congress and the Capitol.
    Most notably, our mission to protect and serve was thrust 
into the national spotlight on June 14, 2017, after a gunman 
fired shots during the Republican congressional baseball team's 
practice in Alexandria, Virginia. And our own highly trained 
special agents responded swiftly and heroically, preventing a 
serious tragedy. I am happy to report that both agents are back 
to work. Though Crystal is back on a limited basis, we expect 
full recovery as well, and she should be back to full duty 
hopefully by the year anniversary of the incident.
    The Department also received its sixth consecutive 
accreditation from the Commission on Accreditation for Law 
Enforcement Agencies. We were awarded CALEA's Gold Standard 
with Excellence, the highest rating a law enforcement agency 
can receive during the evaluation process. This distinction is 
a real testament to the professionalism of our workforce and 
demonstrates that we consistently implement the best law 
enforcement practices.
    I am extremely proud of the department and our responses to 
the extraordinary events over the past year. No one could have 
predicted all that we have encountered, but our officers are 
trained to face each crisis and challenge, and we must always 
be prepared to face the unimaginable.
    Mr. Chairman, the support of the committee and the Capitol 
Police Board has contributed to our success in achieving our 
mission, as well as our ability to recognize and address the 
dynamic nature of the current threats. We are truly grateful 
for your keen understanding of the complexity of our mission 
and the challenges that we face.
    We have developed our fiscal year 2019 budget with a focus 
on continuing to equip and prepare our workforce to be agile 
and responsive to the operations of Congress, and keeping the 
U.S. Capitol complex safe and secure. Our overall fiscal year 
2019 budget request is $456.4 million and represents an 
increase of 7 percent over fiscal year 2018 enacted levels.
    As we experienced on the ballfield in Alexandria last June, 
occurrences of homegrown violent lone wolf episodes are on the 
rise. Across the world, we continue to see more and more 
terrorist organizations attack public venues. As a result, our 
officers must look at every event on the Capitol Grounds, 
whether it is a mass demonstration, a concert, traffic stops, 
or even the simple act of Members crossing the street for a 
vote, as a potential target or threat.
    Based on the increase in terrorist and domestic mass 
casualty events and upon studying the attacks displayed by 
known assailants, we continuously review our operational and 
tactical postures to ensure that we are taking every measure 
possible to maintain the security of the complex, while 
allowing the legislative process to continue to function in an 
open environment, and protecting individuals' First Amendment 
rights.
    Therefore, working in concert with the Capitol Police 
Board, the department is continuing to deploy additional 
screening of various means throughout the complex. This 
involves deploying security measures to better secure and 
screen at building access points.
    Our fiscal year 2019 budget request includes base funding 
for 1,943 sworn and 420 civilian positions and requests half-
year funding for an additional 72 sworn officers and 20 
civilian positions. These additional sworn personnel will be 
utilized to enhance the department's ability to detect, impede, 
and address the threats that currently exist and continue to 
evolve. Additionally, we are requesting one civilian position 
for the Office of Inspector General for the purposes of 
furthering their work on addressing potential cybersecurity 
threats.
    Our request includes funding for items such as protective 
travel, supplies and equipment, management systems and 
technology upgrades and other nonpersonnel needs. The funding 
for these requirements will address increases in operating 
costs, including investments in training, recruiting, and 
outfitting new employees, replacing key equipment and systems 
that are outdated and becoming obsolete, restoring annual 
levels reduced in previous fiscal years to meet the vital 
department needs.
    Mr. Chairman, the Capitol Police is the only department in 
the Nation that does what we do with such high visibility in 
the way in which we do it. Mission focus will always be the key 
focus to our ability to be successful, to serve and protect, to 
ensure employees go home safely every day. Congress relies on 
us to do our jobs so that they may do the people's work in a 
free and open manner in the people's house.
    In closing, I just want to assure the committee that the 
Capitol Police is committed to always being at the ready to 
ensure that the Capitol complex is safe and secure. We will 
continue to work closely with you and your committee staff to 
ensure that we meet the needs and the expectations of Congress 
as well as our mission in a reasonable and responsible manner.
    Again, I thank you for the opportunity to appear before you 
today, and I will be pleased to answer any questions you may 
have.
    [The prepared statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Yoder. Thank you, Chief. I appreciate your opening 
testimony.

                 Opening Remarks of Ranking Member Ryan

    I would now like to call upon my good friend from Ohio, 
Ranking Member Ryan, for his opening remarks.
    Mr. Ryan. Thank you, Mr. Chairman. I apologize for being 
late.
    I want to thank our guests here. I am going to be very 
brief and just say we are very thankful for your service. I 
think we found out last year exactly how important the mission 
is of the United States Capitol Police, and that was reflected 
in the increase in the budget. And so I look forward to hearing 
the rest of the testimony and having questions and answers, and 
would just like to thank my friend the chairman for his great 
work, and we have developed a great relationship and our staffs 
have developed a great relationship. And I very much look 
forward to hearing what you have to say and help you out the 
best we can and also talk through some of the issues we have. 
So thank you.
    I yield back.
    Mr. Yoder. The gentleman yields back.

                         RETIREMENT AGE WAIVER

    Chief, one of the things we have discussed over the last 
year or so relates to the retirement age waiver. And it is my 
understanding that the waiver has been granted now for several 
years, and there has been some discussion about making the 
waiver permanent.
    Could you explain to the committee what the age 
requirements are, how the waivers work, and what options we 
have before us as a Congress to continue that waiver or go back 
to current law or to maybe make some permanent changes?
    Chief Verderosa. Yes, sir. It is a great question. The 
Capitol Police Retirement Act requires mandatory retirement at 
age 57. We are on parity as an agency with other law 
enforcement agencies in the Federal Government. We get the same 
law enforcement retirement benefits that other agencies 
receive, and that is the ability to retire after a certain 
number of years of service, the ability to receive a Social 
Security supplement. The ability to maintain a rigorous 
workforce is the reasoning for the age 57.
    The Capitol Police Board has the ability to grant a waiver 
if it is in the public interest to extend the retirement age to 
age 60. During the fiscal year that began last year, we 
approached the Board and we asked the Board to make that waiver 
for the purpose of keeping and retaining employees while we 
endeavor to build up our ranks to cover the Board initiatives 
that we talked about over the years. It is a multiyear 
initiative for the security of House broad security, for 
scanners, prescreeners, and the like. It is a great tool. Over 
the years since the Capitol Police Retirement Act has been in 
place, the Board has waived that mandatory retirement age on 
several occasions. The last group blanket coverage was when we 
merged with the Library of Congress. Those employees were able 
to, when they came over to the Capitol Police, remain, in an 
attempt to get to the 20-year requirement for service to be 
vested.
    I believe that it is important to work for all of the best 
benefits that I can for my employees. They really do work; they 
diligently work to keep this facility safe, the complex safe. 
In raising the age, it provides us with the ability to retain 
people. My only concern really is to make sure that we don't 
jeopardize the law enforcement benefits that it took us so long 
to achieve in terms of the Office of Personel Management's 
interpretation of the retirement regulations. If we could raise 
the age, in terms of 60, without losing the parity we have with 
other law enforcement agencies in terms of retirement, I think 
it is something that is a viable option.
    Right now, we have until September 30, 2020, to waive the 
mandatory retirement age to 60 for all employees that are 
employed at this time. We also have raised the maximum hiring 
age from 37 to 40 so that we can hire recruits who may not have 
met that mark but still would be able to achieve a 20-year 
retirement. All of these initiatives go toward the purpose of 
retaining as many employees as we can until we get to the FTE 
level that would assist us in providing for all of the security 
initiatives that we talked about.
    Mr. Yoder. Well, it seems like you are certainly thinking 
through the different aspects of the money that can be saved, 
what is best for the employees, what is best for public safety, 
what is best to have a trained person there who knows their 
job, has been on the job for a long time, and knows what they 
are doing versus bringing a new person that there are training 
costs, all those factors.
    To me, it seems like having this done on a sort of case-by-
case or year-by-year basis creates a lot of uncertainty for 
your people. And so I would love to work with you guys to try 
to come up with maybe something that is a little more permanent 
so that we have some more predictability in how this would 
work.
    Chief Verderosa. Absolutely. And my counsel is going to 
reach out to OPM to work with a retirement specialist to make 
sure that any changes that would be made would be consistent 
with retaining the law enforcement benefits that we achieved 
and also achieving the goal of keeping the experienced 
workforce possibly to age 60. I am happy to work with your 
staff on these important issues.
    Mr. Yoder. Okay. Thank you.
    Mr. Ryan.

                             EVENT SECURITY

    Mr. Ryan. Thank you, Mr. Chairman.
    I want to just talk about event security. If you can tell 
us, again, given last year's situation that we all dealt with 
and the demands of us, especially in an election year and how 
busy we are these days, can you talk to us a little bit about 
any adjustments that you may have made over the course of the 
last year, lessons learned, and what we could expect coming 
into this year?
    Chief Verderosa. Certainly. We will conduct an assessment 
on events that are occurring that involve Members of Congress 
in both Houses. We will look at the threat stream, all of the 
intelligence that is available. Obviously, there are those who 
come under the radar and who are not known to law enforcement--
who may not pose an immediate known threat--however, 
nonetheless, are a serious threat. Given that, such a scenario, 
and based on additional resources provided, which are much 
appreciated, we are moving towards providing a more elaborate 
security blanket. And it is really dictated by the type of 
activity. If you have an outdoor activity, obviously, it is 
going to drive more personnel to cover. For instance, we will 
be conducting sweeps, and we will put posts in areas we believe 
that are potentially problematic or provide a level of risk to 
Members.
    We have a process in place where requests are made through 
the Sergeant at Arms Office. The Sergeant at Arms will delegate 
that task to our Protective Services Bureau. We will conduct 
the open source and any classified investigation, looking at 
threat assessment towards any type of activity that may be 
known, and then we will assess the need for personnel, based on 
time of day, venue, type of activity that is going on, 
notoriety, how much information is out there. Is this a planned 
or scheduled event? Is this a publicized event? All of those 
factors go into the analysis. Once that analysis is completed, 
we assign staffing to it. And that staffing can include not 
only dignitary protection agents, but it can include uniformed 
officers. It can include bomb technicians, SWAT team members, 
undercover officers who are looking for individuals out and 
about who may come to our attention.
    We have a holistic approach to securing events, 
particularly large-scale. Any time we move large numbers of 
Members, we will do it in an organized fashion. The smaller----
    Mr. Ryan. How has this changed? Have there been any changes 
that we can talk about at this level?
    Chief Verderosa. We are absolutely placing more emphasis on 
the local events, outdoor events, where we are deploying more 
personnel and equipment in order to provide a safe environment 
for you to operate in, whatever the issue is, whether it is a 
ball game, whether it is a rally, or whether it is an organized 
event.
    Certainly, for large-scale events here on the Capitol 
Grounds, we have a structure in place that we employ. We are 
going to change some of our parameters, in terms of our summer 
concert series and open air events. We deploy an all-hands-on-
deck, all-capability type response for large gatherings here on 
the Capitol Grounds as well.
    You will see, there will be some things that you do see and 
some things that you don't see, in terms of undercover 
officers. We leverage technology by using our camera system. We 
leverage all of those things that I can talk about in open and 
some of the things that we talk about that I can talk about in 
a closed environment to ensure that we have a holistic 
approach.
    We absolutely are looking at the types of meetings and 
types of events that occur, particularly groups of Members. We 
are also applying a very deep focus on events in home 
districts. We work very closely with Members' staff and the law 
enforcement liaisons, to ensure that we have law enforcement 
coverage that can be arranged out of D.C. when you are at 
events in your home district.

                PARTNERSHIPS WITH LOCAL LAW ENFORCEMENT

    Mr. Ryan. And how is the interfacing going with local law 
enforcement, whether it is here, in the district or at a 
retreat that we do? Do you feel like that is as adequate?
    Chief Verderosa. Yes, sir. We get outstanding commitment 
from our partners in law enforcement. Here in D.C., it is 
really no question. We have a great working relationship with 
the Metropolitan Police Department, with the FBI, the Secret 
Service, Federal Protective Service, Amtrak Police.
    I have never seen in my 33 years--and I have talked 
extensively with the Assistant Chief about this, who has great 
experience from the Metropolitan Police point of view. I have 
never seen a better working relationship between threat 
information, any type of intelligence gathering, or any other 
type of information that comes forward.
    We all realize that there is no small event anymore. They 
are all major events. You have to apply a level of security to 
all public events. It is the times. It is the way we are today. 
This is the state that we are in.
    Outside the D.C. region, we get tremendous support from the 
local entities, the local police authorities, whether it is 
city, government, State police, whether it be a university 
police department. We share the information that we gather. We 
will make an assessment on all of these events. We will assess 
them. We will share the information with the law enforcement 
liaisons in your offices. We will share it with the local law 
enforcement.
    If we deem, based on the information that we have gathered, 
that it is going to be problematic or there is going to be 
disruption, we may provide additional resources. We may deploy 
our own personnel as well. It is really dependent on the type 
of event, the particular circumstance. Last year, we did over 
400 liaisons for Members, both House and Senate, in terms of 
outside events, outside of D.C., coordination activities.
    We welcome the requests from the Member offices. Part of 
the funding that we received in 2018 goes toward personnel that 
do those types of liaisons and those types of investigations.
    Mr. Ryan. Thank you.
    I yield back, Mr. Chairman.
    Mr. Yoder. Mr. Amodei.

                   SCREENING TECHNOLOGY ADVANCEMENTS

    Mr. Amodei. Thanks, Mr. Chairman.
    Good to see you, Chief.
    Something that I wanted to ask your folks, obviously 
offline, but I think the special event that you folks do that 
is probably the largest is the one you do every day, and that 
is the one at the entrances to garages and buildings. And so, 
since I have been here, which seems like about a hundred years, 
but not that long, it seems to me that we are still kind of 
doing the same stuff with the same technology and that sort of 
thing, and maybe that is the state of the art. But as you go in 
and out many times and watch your folks working and you are 
sitting there, and some days, it is like, hey, it is all, you 
know, beer and horseshoes, at least for me, not for you guys, 
but other times, it is like it is a big sale and the place is 
jammed. I would just like to, offline maybe, visit with whoever 
the appropriate folks are in your staff and say: Hey, what is 
the newest and the best in terms of allowing your folks to 
still do the job that they are doing? But if there are advances 
in technology or something like that and it just kind of boils 
down to we have been doing it this way for a while--maybe it is 
still the best way, but especially as we continue to go through 
the challenges for those people in the Cannon Building and as 
the Architect folks, you know, matriculate around the campus 
and create those new flows and problems and capacities, just 
something I would like to--schedule that if anybody else wants 
to listen and just kind of like say: Hey, if there are any new 
thoughts or any new mousetraps out there?
    And, with that, I yield back.
    Mr. Yoder. Chief.
    Chief Verderosa. Thank you. I appreciate the feedback. I 
agree with you. I think it always deserves a fresh look. We do 
have some proposals that I am working on with the Board that 
will not be in this fiscal year or likely the next, though in 
probably 2021, perhaps 2020, depending on the timing, we are 
going to bring forward some concepts that will change the 
dynamic for visitor screening, in terms of venue and how we go 
about it.
    I think what we do currently meets the requirements for 
what is being tasked. We do have some potential changes or 
additions, augmentation for the Capitol Visitor Center. If we 
have some funding left over, if we have any end-of-year money, 
we may be enhancing some of the secondary stream; Visitor 
Center first, and then we would look to the ancillary buildings 
as well.
    Mr. Amodei. Great, thank you.

             METRO SAFETY, K-9 BUDGET AND RETIREMENT WAIVER

    Mr. Yoder. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. I have got three 
things. I want to follow up on Metro safety and security. We 
talked about it a couple of times, and we have got the three 
stations around here. A lot of traffic. Members use them. Staff 
use them, and, of course, our constituents who are visiting our 
Capitol are using them.
    We talked about communication and response capabilities, 
and you have talked about some of the enhancements that are 
going to take place at Capitol South, and some more 
communication capabilities in the cars and platforms at the 
other Metro stations. If you could give us a brief update on 
that.
    And then one of the things that I had asked you to think 
about possibly is to offer, working with Metro for staff, what 
do you do if the train stops? What do you do if you smell 
smoke? I mean, we have got a lot of people that are on the 
trains regularly, that I know some of them have been involved 
in a couple of instances where they have had to deboard trains. 
You know, even how to open a door. They don't let you practice 
opening up the airplane door, even when you are on the ground, 
but we do do things for school bus safety. We encourage people 
to do fire drills and things in schools, and even in some of 
the larger businesses, they will do drills every once in a 
while. So that is one thing. And I will just put them all out 
there together.
    The second one is I don't have--and I know you would 
provide it if I asked for it, but we don't have a big breakdown 
of what is going on with your K-9 budget. And you have 
increased a lot of K-9. And K-9 have retirement just like 
everybody else does and the new force of dogs and everything 
coming in.
    So can you tell us how you are, you know, moving forward 
with your K-9 budget? And I know, being on a city council, our 
K-9 officers received a slightly different stipend, because 
they had responsibilities after work with maintaining the dogs.
    And then the third one I have goes back to what you and the 
chair were talking about earlier about the waiver. I think 
there are certain jobs and certain assignments in that where, 
you know, certain officers working until age 60, you know, 
great. Sometimes things happen with bodies. People don't 
realize how much equipment you carry around or if you have 
spent years sitting in a car, what that does to your back and 
your hips and everything like that. So I just want to make 
sure--and I am sure you are, it sounds like it--that you are 
talking and having great communication with the rank and file 
on how that works. And I think going up to age 40 if you are 
going to go to age 60 also maybe makes sense with people coming 
out of the military, retiring around here and doing that with 
expertise.
    So if you could just kind of touch on those three things.
    Thank you, Mr. Chair.
    Chief Verderosa. Yes. Thank you, ma'am. Starting with the 
last, if I may, I agree we do need to examine the age 60 
retirement. I understand the pitfalls of getting older. I feel 
it every day myself. We do have physical fitness. You know, 
Congress has generously provided us with assets, provide 
opportunities for our officers to work out before work and 
after work, during their lunch hour. We are partnering with Mr. 
Kiko, the CAO of the House, on a wellness program, and we have 
a number of initiatives that we are looking at to benefit our 
employees as well.
    I do agree that it is important and I always felt that the 
37 year final hiring date did, in terms, eliminate some of the 
ability to bring military folks on who have 20 years in the 
military from age 18 and retire at age 38. I think this is a 
great benefit to bring on military folks who have the 
leadership and the dedication and a proven track record, to add 
them to our ranks.
    We also are looking to, through the 2018 money, civilianize 
a number of positions. I would also encourage vets to come in 
and work some of those, including Wounded Warriors, to fill 
some of these interior operational positions, whether it is a 
radio dispatcher or it is a command center technician. They are 
critical roles, but they certainly can be staffed with vets and 
with folks with a military background.
    In terms of our K-9s, fiscal year 2018 funding had 56 dogs 
that were allotted K-9 units as well as the equipment that goes 
along with that. We are in the process of training I believe it 
is five K-9 handlers at this time to replace some retirements.
    We had funding to replace some of our dogs. What we don't 
want to do is have the large-scale big-ticket item. We try to 
life cycle. Each dog is different, though. It is dependent on 
the health of the animal, the work ethic of the animal, the 
attention span. We generally get about 10 years of service out 
of the dogs. Sometimes it is less, because they get injured 
just like people get injured. They break bones. They tear ACLs 
and that kind of thing. That limits our ability. But we are 
monitoring the replacement schedule and the deployment schedule 
of the dogs. We recently went to a different vendor. We like 
the quality of the canines that we are getting. I think it was 
a great move.
    The K-9 officers do get a higher level of pay, with the 
responsibility that is relevant to what they do. It is probably 
one of the most coveted positions in the department. They love 
their K-9 partners. The best way to say it is that we could not 
do our job without our K-9 partners. They are a force 
multiplier. For instance, last year in 2017, we accomplished 
170,000 K-9 sweeps--if we were to rely on officers to do what 
those dogs do, we would grind this institution to a halt for 
security reasons. We place a great emphasis in our K-9 corps. 
They are a very proud unit, and we really do get sort of bang 
for the buck, in terms of our ability to multiply our abilities 
with the K-9 partners. It is difficult training, but when K-9 
handlers complete their training, they are well on the way to 
being able to communicate with that dog. And it is a true 
testament to their dedication.
    Ms. McCollum. The Metro?
    Chief Verderosa. We have worked very closely with the Metro 
and with Amtrak as well in terms of our ability to scale, to 
have drills on platforms, to train our personnel in the 
procedures that are necessary when you respond down to a 
platform. We have also had tabletop exercises. On June 1st, 
there is a large-scale exercise that we are going to actually 
have deployment on, in terms of the Metro tunnel near Capitol 
South, the Amtrak tunnel on Capitol South.
    Ms. McCollum. Okay.
    Chief Verderosa. We are well on the way to having that. And 
we have actually engaged in some of the training. Based on some 
of the recommendations from the last meeting we had, we had 
brought in Metro, and they did actually staff training and put 
out information out to the community. They held staff training 
in the CVC, to train staff who ride Metro, some of the various 
responses to Metro emergencies. Metro came in. We worked with 
their Emergency Management Division to provide two different 
training sessions for staff.
    Ms. McCollum. I hope they come in on a regular basis and do 
that.
    Thank you very much, Mr. Chairman.
    Mr. Yoder. Mr. Newhouse.

                  SAFETY MEASURES AT DISTRICT OFFICES

    Mr. Newhouse. Gentlemen, thank you for being here with us. 
Mr. Chairman, thank you for having this hearing.
    Most Members don't get an opportunity to personally thank 
the Chief and Assistant Chief. So thank you, gentlemen, for 
being here, and not only to talk about the budget and the 
necessary, perhaps, changes that we make there to benefit the 
work you do, but also express our appreciation to the fine work 
that the whole force does.
    We see on a daily basis every morning when we come to work, 
sometimes--usually--smiling faces that greet us and make sure 
that not only the public is safe, but we are too. So thank you 
very much for everything you do.
    I know in my district--I don't know that it is a whole lot 
different than others--we have had incidents, individuals that 
needed maybe more attention than we would have liked to have 
had to give them. I had an incident in my district office where 
a rock was thrown through a window. So let me just say I very 
much appreciate. My experiences have been that you have worked 
very well with local law enforcement agencies to help us feel 
secure and safe in our district offices as well.
    So a couple different things I would like to talk about 
with you. I just wanted to, you know, with this increased 
activity not only here in the Nation's Capital but around the 
country talk about some of the measures, the safety measures 
that you have been able to put into place when you yourselves 
can't have a physical presence in the district. That is a huge 
challenge. We have a big country.
    I am also guessing that--very similar--all of our district 
offices have had increased levels of security put into place 
over the last year. And if you could talk a little bit about 
your interaction with the Architect of the Capitol in making 
those and improving those security upgrades, I would appreciate 
that.
    And then something that--you know, we feel pretty secure 
here in Washington, D.C., most of the time. I think our 
district staffs are a little more vulnerable. So maybe if you 
could talk about any opportunities for increased amounts of 
training that might be available for those folks that work so 
hard on our behalf in our home States.
    Chief Verderosa. Certainly, sir. And I appreciate the 
backup. I know that my troops are very proud to serve. The 
mission is very clear to us, and they take extreme pride in 
what they do every day. In terms of what we do in district 
offices, we can, through the Sergeant at Arms Office, provide 
assessments for district locations, provide security 
recommendations. We actually conduct the assessment. I believe 
the Sergeant at Arms Office actually would direct that to 
occur. I believe it starts with the Sergeant at Arms Office. I 
would have to defer to his office on that.
    We can provide your staff with security awareness training 
and that is well-received. We have actually had 46 deployments, 
some of those of which are DPD agents or Threat Assessment 
Agents will go, either electronically reach your offices, your 
district, or we can also travel and provide this service. We 
talk about the issues, whether it is an unwanted guest or 
whether it is security of the venue itself or what happens when 
you have threatening correspondence.
    We also deal directly, in terms of threat investigations, 
with your district staff. If your office contacts us, any one 
of your offices contacts us, we will work to decipher in terms 
of what the threat is. We will make an assessment to determine 
whether or not it is an immediate threat where we need to get 
protection to you or your staff. Obviously, if you have an 
unwanted guest, we want you to dial 911, the local.
    We work very closely with the local authorities in terms of 
these investigations. When our threat investigations--and we 
did about 3,800 of these last year--take place, we will 
coordinate through our FBI task forces, and we will either 
deploy or we will have an FBI agent investigate that matter. 
They are all joint investigations. Depending on the 
circumstances, depending on the emergent need of the response, 
we will deploy personnel and we will--our position is that we 
will present all cases to the U.S. Attorney's Office where we 
can establish that a crime has been committed.
    And it may not be a technical threat. It may be some other 
type of--it could be harassment, stalking. It could be any type 
of violation. Our agents are very well-versed in the 
prosecution levels and thresholds. We will work very closely 
with your staff in trying to either preserve evidence or obtain 
interviews in order to establish probable cause.
    I don't want to miss any part of your question. We can 
conduct the assessments through the Sergeant at Arms approval, 
and we can also--again, if you would like to arrange for any--
and this goes for all Members, both House and Senate--security 
awareness training, we are happy to do it. It actually helps 
us. When something does happen, it helps us. It helps your 
staff know what we are looking for ahead of time. And we can do 
that over the telephone or by video teleconferencing all of 
your groups together and do it all at once or, like I said, we 
can deploy and do several, depending on the areas and how many 
Members want to get involved.
    Mr. Newhouse. Good. I appreciate that.
    Chief Verderosa. Happy to do that.
    Mr. Newhouse. Appreciate that. I think I have noticed in 
the last couple of days a new crop of officers. It could be my 
imagination, but there seem to be some new faces around.

             TRAINING BACKFILLING ATTRITION AND RETIREMENT

    Chief Verderosa. Yes, sir.
    Mr. Newhouse. Which is great. I just wanted to ask about 
your training programs, your ability to meet the attrition, 
retirements, if there are any issues that you face, challenges 
there that we should talk about that we should be aware of?
    Chief Verderosa. Yes. We have had three graduations in the 
last 6 or 7 weeks, all part of the----
    Mr. Newhouse. So it wasn't my imagination.
    Chief Verderosa. No, it is not. Once they complete their 26 
weeks of training, they go into what we call police officer 
training. It used to be called field training. They are out 
with an experienced officer for 8 weeks, and they are being 
observed. They are being taught to convey what is taught in the 
academy in a very sterile environment into the real world. And 
they are under the auspices of an experienced officer who are 
trained to evaluate, again, and make recommendations and take 
corrective action through their supervisors.
    It is a well-received program. It is interactive. And it 
really gets the student, the recruit officer--well, they are 
sworn officers, but they are under somebody's wing for a while. 
We find that once we get them that 8 weeks of training, they 
have really been indoctrinated to how we do business.
    I know that sometimes it looks like we may have excessive 
people on certain posts. They are generally the more junior, 
younger, if I can say that, officers, and they are learning. 
And, frankly, it is a great learning experience for them, 
because they are here; they are assigned during the peak 
periods. They are assigned during the day shift and the early 
evening shift so that they really do get the full experience of 
what is going on on Capitol Hill.
    Mr. Newhouse. You throw them into the deep end.
    Chief Verderosa. Absolutely, with no water wings on their 
arms. But, you know, they are never by themselves. They are 
always with an experienced officer. They are well-trained. And 
frankly, they can always notch a new recruit back if they get 
transferred to an evening or a midnight tour, but you really 
get the full breadth of a vote on the House side, a committee 
hearing in the Senate, or a head of state arrival in the 
Capitol. And these are things we want them to experience so 
they can gain the knowledge base.
    Mr. Newhouse. And you are able to meet those needs?
    Chief Verderosa. Absolutely. Mr. Braddock's team has done 
an outstanding job in recruiting, hiring, training, deploying 
personnel. You know, it ebbs and flows. We get very good 
candidates. We get an awful lot of candidates. We have some 
hiccups every now and then in the quality of the student, but I 
think that, by and large, when our students complete the 
training program and they experience their field training they 
are highly trained. I have seen the curriculum. I have seen the 
training. I have seen the quality of the instructors. We have 
police officers who can operate in any environment in this 
country. I am glad that we don't have recruiters here from 
other places trying to grab them, because they really are 
highly trained and do an outstanding job. I am very proud of 
the troops. The quality of our officers is a testament to the 
staff that I have working for me, both in operations and in the 
training and recruiting arena. They do an outstanding job. They 
really do identify the best candidates.
    Mr. Newhouse. Well, thank you. I appreciate it, Mr. 
Chairman. Thank you for your almost 200-year tradition carrying 
on the Capitol Police force.
    Chief Verderosa. I appreciate that.
    Mr. Newhouse. I appreciate it.
    Mr. Yoder. Thank you.

               AMMUNITION AND WEAPONS REPLACEMENT BUDGET

    Chief, I want to ask you about your budget request for 
ammunition and weapons replacement. You requested $6.7 million, 
including new weapons for DPD. And I note that there was an MP7 
weapons training initiative that started more than a year ago, 
so I just wanted to ask a few questions about that.
    How many of your 180 DPD agents have completed MP7 weapons 
training? What percentage of DPD agents will complete MP7 
weapons training by the end of the current fiscal year? And 
should we be concerned, do you have concerns with the amount of 
time that has passed since the first MP7 was received by 
Capitol Police and the number of agents that have been trained 
to date?
    Chief Verderosa. Thank you. Great question. We have 
decided, before we deploy the MP7, it should be noted that we 
do have the ability to deploy another weapon, the M4, the 
assault rifle. We have that ability today, and we deploy that 
when necessary.
    The MP7 is a pilot program that the Board has directed us 
to engage in, in terms of providing a weapon that meets the 
needs that sort of bridges the gap between a true assault rifle 
and a handgun. We have today--Steve, do you have the numbers?
    Assistant Chief Sund. The last eight right now. So that 
would be a total of 15 once they finish training.
    Chief Verderosa. We have 15 trained currently, and I 
believe we are going to have another training program soon. All 
DPD agents on at least one of the teams that will be outfitted 
with this weapon have been trained to become familiar with the 
weapon, even though they may not be trained to actually carry 
the weapon.
    A new weapons system takes time to procure. Some of the 
funding for additional weapons was in the 2018 money, which I 
believe we began the process for. We just received a shipment 
of ammunition, 30,000 rounds, enough to train another class.
    I am confident that we have the ability to provide the type 
of weapon needed to cover our DPD agents. Based on direction 
from the Board, we are starting with a smaller pilot on one 
particular detail. We will expand that program to other details 
as we gain more information and more familiarity.
    There are also issues--you have to train people on how to 
deploy it while you are carrying it. There are a number of 
issues that we want to make sure that the officers that have to 
carry these weapons can carry it safely, properly, and 
safeguard it in the proper manner.
    Mr. Yoder. I think that is ultimately the genesis of the 
question, which is, there is a request for additional new 
weapons for DPD. And the time to get folks trained, does that 
justify the amount of weapons you have asked for? Can people be 
trained to use all these weapons? Do you have enough staff, you 
know, of officers that can be trained in time for this budget 
request?
    Chief Verderosa. I believe so. We will be able to train 
more as we get more ammunition. And the problem for the 
training--probably the biggest impediment is taking people 
offline to put them in a school. It takes away the opportunity 
to work in the field.
    Now, we have a graduating class of new special agents 
should be occurring in the next couple of weeks. We have 
another class slated for later in the year of DPD agents. And 
we may have the ability to have a third class in the 
intervening time. The second class I mentioned is slated for 
the end of the fiscal year. We may be able to have a class in 
the summer period.
    What happens with that is there are so many people--the 
eligibility for DPD is the officers have to be off of their 
probationary period. It is tied to the tenure of the officers 
that are available to go to DPD. For each process, we can train 
12 to 14 people. The reason we only train that number is that 
it takes a significant amount of people to run the school, and 
it takes a certain amount of people offline. But what they do 
tactically, you can't teach 30 people at a time. You have to 
teach them incrementally, with the size of the team and the 
ability it gives. Otherwise, it would take twice the time to 
run the number of people. We could run multiple schools, but 
then we get into having enough agents work the field and also 
put on the school.
    I think we have a good plan. I think we have a good plan 
for the future for DPD, building up its ranks. I think we have 
a good plan for future rotation through the Dignitary 
Protection Division, and I think we have an excellent plan for 
the firearms training. Again, the Board wants to ensure that 
any time we employ a new platform, a weapons platform, that it 
is done incrementally, it is done appropriately, and it is done 
with the correct level of training to safely deploy that 
weapon.

                         INCREASES IN OVERTIME

    Mr. Yoder. I want to turn your attention to general expense 
when it relates to our employees and the topic of overtime, 
something we look at every year. I know you look at it very 
closely. I know it is an expense that is necessary in many 
cases when we have security needs, and the right staff, the 
right place; you just have to do what you have to do.
    But overtime funding has increased 41 percent since fiscal 
year 2013. Hours have gone up approximately 230,000 in the last 
5 years. Can you walk the committee through the overtime 
increases, what is causing them, and if you have concerns about 
that and what you are doing to address that and what we can do 
to help you address that?
    Chief Verderosa. Sure. It is a great question. There is 
always a balance between hiring FTE staff and using overtime. 
We allot a significant number of hours for unscheduled overtime 
for all of the various types of events.
    I can tell you last year has been significant for 
unscheduled events. We have had multitudes of demonstration 
activity, civil disobedience arrests within the buildings. We 
have had a significant number of demonstrations outside that 
require--permitted activities that require us to provide a 
level of coverage to maintain order. Sometimes you have 
competing interests that we have to put a police line between.
    Overtime and mission set--and I guess I should say from the 
outset, the staffing requirements that we have asked for in our 
budget request, are for new mission. We are staffed in the 
field at about 80 percent on all of the sections. Overtime is 
managed on a unit-by-unit basis. Each unit is staffed at about 
80 percent of where they should be, and we fill the gap with 
overtime.
    There is scheduled overtime and unscheduled overtime. 
Scheduled overtime is things that we know about, things, events 
that are going to occur: the concert series, State of the 
Union, the Inauguration every 4 years, national conventions 
where we provide coverage for Members of Congress. Those things 
we can calibrate, we can calculate, and we can formulate.
    What really drives overtime--particularly over the last 
year, has been the increased mission sets required for the 
regular day-to-day coverage of security matters. We have done a 
few things to counter that. For instance, we have a 
demonstration where we are going to have 150 people arrested. 
That requires a lot of personnel. We bring people in, based on 
what we know, so that we can cover those types of events, 
because our goal is always to provide the Congress with the 
ability to do their work free of disruption and free of 
disorder.
    There is a level of service I think that Members expect 
from a professional police department, and I think we provide 
that. Tactics have changed from some of these groups that come 
up. We have to respond sometimes with a hundred different 
officers in an hour or simultaneously, and we want you to be 
able to do your work in your offices, and we will cover those 
types of events. The frequency of the events drives overtime. 
Though, when we do engage in civil disobedience arrests, we 
have been able to streamline that process to the point where it 
is very manageable, particularly with events where we use our 
cite and release policy. Normally it would take 3 hours to 
process an arrest, we can release hundreds of people within an 
hour.
    I think we balance the costs with efficiencies. The 
Assistant Chief and Mr. Braddock monitor the overtime flow 
daily. We monitor what the usage is. We monitor leave. We have 
contractual obligations that allow us to work people within a 
certain parameter. We never work anybody more than a double 
shift. We never work more than 64 hours in a pay period of 
overtime.
    We assign the work. Officers are able to trade that 
overtime slot, if possible, to someone who wants to work if 
they don't want to work it. They have the ability to sort of 
control their own fate once they are drafted to work overtime.
    Now, there are events that require us to manage very 
directly. For instance, we may have civil disobedience going on 
in the House Chamber where there is a big vote. We may hold 
over day shift for an hour to be able to manage those arrests. 
If it dissipates, we let people go. We manage it to the hour. 
We manage it hands-on. All of my commanders are roll-up-your-
sleeves commanders. They are out in the field. They are 
managing day-to-day, and they are out there with the troops. We 
manage it. We look at it. At a point where it becomes necessary 
to ask for more personnel, we would certainly come forward and 
do that.
    Mr. Yoder. Yes, Chief, that is my question, I think 
ultimately is, if this is an issue of we just have a lot more 
sporadic spontaneous events and things that are impossible to 
have people just sitting around waiting for, because one week 
we may have 10, the next week we may have nothing, right? That 
is basically the issue. That makes sense.
    The question is, is there a general need for more officers 
that would help reduce that at all? Is that part of the 
equation at all?
    Chief Verderosa. I think, as we look at increasing 
necessity to cover, we certainly have more requests to cover 
committees. We have more requests to cover events that occur. 
The officers that we are requesting in the fiscal year 2019 
request, are for the new mission. We will look at the trends. 
We will continue to look at the trends to determine whether or 
not there is a need to increase our staffing to cover routine--
--
    Mr. Yoder. Particularly if it saves us money, right?
    Chief Verderosa. Right.
    Mr. Yoder. I mean, if it is a net savings. I think that is 
something that the committee needs to look at. If it is going 
to cost us more money because we are going to have more 
personnel and we are still going to have about the same number 
of overtime hours, then that doesn't really help us for that 
topic.
    Chief Verderosa. Right. It is a delicate balance. I know 
that our Inspector General recently looked at our overtime. It 
validated what was confirmed several years ago, that we are 
short a number of FTEs. I don't know that we are at the point 
at this point where we would increase our staffing in lieu of 
overtime, but we will look at that very closely and work very 
closely with your staff to look at that.
    Mr. Yoder. Okay, great. Thanks.
    Mr. Ryan.

                         PRESCREENING STRATEGY

    Mr. Ryan. Thank you, Mr. Chairman.
    Chief, I want to get your take on the prescreeners. So 
obviously a very important part, you start talking about the 
Metro. You start talking about increasing the range in which we 
can understand what is happening out there. And there has been 
some reports that maybe the prescreeners aren't out and about 
like we would want them to be, especially when it is cold and 
rainy, and generally nobody wants to be outside at that point.
    What are we doing to assure the Members and the people 
working on the campus that that strategy that we have is being 
implemented properly and that is getting done?
    Chief Verderosa. Yes, sir. The prescreeners are there.
    Mr. Ryan. Do we have a mechanism that is monitoring that, I 
guess would be the direct question?
    Chief Verderosa. Absolutely. We have--and I will talk about 
the inclement weather in a moment. The reason we have the 
prescreeners, so everyone sort of has the same level playing 
field, the same baselines, they provide us with an effective 
visible physical presence at some of our most vulnerable 
places.
    Over the years, since 1995, we have had a number of studies 
that called for having prescreeners. It certainly works very 
well here at the Capitol itself. We are pushing the envelope 
out to the office buildings so that we have eyes and ears out. 
The goal is for them to, one, prevent things from happening, 
but provide that visible physical presence. They are eyes and 
ears. They give us the ability to quickly lock down a door, if 
necessary. They have the ability to remotely lock down a door 
in a couple places here on the Hill. They have the technology. 
We are testing a pilot in two places to be able to lock down 
multiple doors at the same time. The goal is always to push the 
threat as far away as possible and to screen people. 
Ultimately, you don't want to screen people inside the 
building, which we do out of necessity, or in the office 
building. The CVC model is a perfect example of how well that 
could work when you push the screening outside sort of the 
envelope, the building, and you have the appropriate sort of 
infrastructure.
    The buildings are historic buildings. They were never 
designed for the equipment that we have installed. The goal and 
the security model for each access point is to have prescreener 
and overwatch. I think for a long time we haven't been able to 
risk mitigate that, but I think--and the Board agrees and this 
is one of our initiatives--to have eyes outside and then have 
the overwatch while the officers are screening, it really 
closes a vulnerability.
    The secondary benefit is it helps us manage the lines. I 
know that lines are always an issue, particularly in the spring 
when we have a lot of people coming to the Hill, whether it is 
a tourist group, a school group, people lobbying. It gives us 
the ability to help manage the lines, to move people. Sometimes 
they don't want to move because they don't want to break up 
from their group, but at least we have the ability to provide 
them information.
    Now, if an officer isn't as attentive as they should be, 
that is certainly a supervisory problem. The supervisors, the 
first-line supervisors are responsible for monitoring the 
awareness and attentiveness and complacency at every level. I 
have authorized officers who are on prescreener posts in 
extreme weather who step inside the door who should be 
maintaining their vigilance and looking out at the threat. The 
threat is outside. It is coming from the outside. If they are 
not doing that, then that is a supervisory issue, and we can 
address that. But the goal is to have the eyes looking out so 
that they can take action, if necessary, to prevent a possible 
tragedy.
    I think that it also provides a level of comfort I think to 
the staff and for visitors when they see a visible presence, 
and I think the value of that can't be understated either.
    I hope that addresses your question.
    Mr. Ryan. Yes. I would like to talk maybe a little bit more 
about that in a closed setting. Thank you.
    Mr. Yoder. Mr. Amodei.
    Mr. Amodei. Nothing, Mr. Chairman.
    Mr. Yoder. Well, if there are no further questions, then, 
Chief and your team, thank you for your testimony today. Thanks 
for your work on behalf of the Capitol and our constituents and 
the many Members that serve in this body that are counting on 
you to keep them safe. We want to make sure you have the 
resources necessary and that your employees have the means to 
do their job. We will continue to look forward to working with 
you.
    I want to acknowledge our guests that have joined us, the 
Open World Leadership Center, and guests from Tajikistan. Thank 
you for joining us today. We appreciate the delegation from 
Tajikistan joining us for today's hearing, and hopefully you 
can take back some pointers on how to conduct an efficiently 
run meeting and the spirit of bipartisanship that reigns here.
    I invite my Legislative Branch Subcommittee members to meet 
with our guests briefly at the conclusion of the hearing. Thank 
you for your appearance today. We will continue to work with 
you as we proceed with this year's budget process.
    The subcommittee stands in recess until tomorrow, April 
12th, at 10 a.m., at which time we will receive testimony from 
the Government Publishing Office. Meeting adjourned.

                                          Thursday, April 12, 2018.

                      GOVERNMENT PUBLISHING OFFICE

                               WITNESSES

ANDREW M. SHERMAN, ACTING DEPUTY DIRECTOR, GOVERNMENT PUBLISHING OFFICE
HERB JACKSON, CHIEF ADMINISTRATIVE OFFICER, GOVERNMENT PUBLISHING 
    OFFICE
LYLE GREEN, MANAGING DIRECTOR, OFFICIAL JOURNALS OF GOVERNMENT, 
    GOVERNMENT PUBLISHING OFFICE
    Mr. Yoder. Good morning, everybody. I call the subcommittee 
to order.
    Thank you everyone attending this hearing this morning. We 
are conducting our second hearing of the 2019 appropriations 
process for the Legislative Branch Subcommittee.
    I am joined by Ranking Member Tim Ryan from Ohio, and other 
committee members will be coming and going as they are able. We 
have a lot of hearings this week in a lot of different 
subcommittees. So they will hopefully come and go when they are 
able to.
    This morning, we are having a hearing on the Government 
Publishing Office. I would like to thank the Acting Deputy 
Director, Mr. Sherman, for joining us today.
    I understand this is your 38th year at the Publishing 
Office. And your other witness this morning is Herbert Jackson, 
Chief Administrative Officer.
    You have been with the agency for?
    Mr. Jackson. Thirty-eight years.
    Mr. Yoder. Thirty-eight, as well.
    And then bringing up the rear, kind of one of the new kids 
on the block, Lyle Green, Managing Director, Official Journals 
of Government, who has only been there 27 years.
    GPO has not been up to testify in recent years. We felt it 
was important to hear from them directly regarding your fiscal 
year 2019 budget request, part of our effort to continue our 
work to ensure that we are spending taxpayer dollars wisely.

                          GPO'S BUDGET REQUEST

    The Government Publishing Office has the important mission 
of keeping America informed. GPO does that by providing 
permanent public access to Federal Government information at no 
charge to the public through its Federal Depository Library 
program, which partners with over 1,140 libraries nationwide, 
and govinfo.
    They produce and distribute products and services for all 
three branches of the Federal Government, including U.S. 
passports and official publications of Congress and the White 
House, and operate distribution centers to fulfill orders for 
government publications.
    So this is an agency that many haven't heard of, but 
probably have utilized over the years in one way or another.
    The fiscal year 2019 budget request is $117 million, which 
is $68,000 below current levels. GPO's appropriations have been 
flat since fiscal year 2016 and have declined 21 percent since 
fiscal year 2010. We often hear the cliche, ``We have to do 
more with less,'' but GPO has been a true example of doing just 
that, doing more with less resources.
    Their continued transition to digital technologies and 
products has increased productivity while also maintaining 
tight financial controls on overhead costs, coupled with a 
buyout for employees in fiscal year 2015, has made it possible 
for GPO's lower funding request.
    So, gentlemen, thank you for coming to the committee today.
    And I would like to yield to my good friend, the gentleman 
and scholar from Ohio, Mr. Ryan.
    Mr. Ryan. Thank you, Mr. Chairman. I appreciate it. And I 
will be very brief.
    You have done a lot of the heavy lifting in terms of GPO's 
coordination with this committee over the years and we really 
appreciate it. We want to say thank you to you for being so 
responsive, coming up and talking with us here at the 
committee.
    I would also like to commend you, as the chairman 
mentioned, about your approach to the annual budget. Even 
though the cost of each full-time equivalent and employee and 
other prices are going up, and even though you know we have a 
budget deal that is helping to begin to dig our way out of 
sequestration, you are asking for almost the exact same amount 
of money you were given in 2016, 2017, and 2018; a slight cut, 
in fact, as the chairman mentioned.
    You are not only making our jobs easier, you are proving 
that sometimes the government can keep costs down by leveraging 
new technologies and innovative ways of managing your 
situation.
    So we are very thankful, Mr. Chairman.
    I look forward to your testimony. Thank you.
    Mr. Yoder. Mr. Sherman, your complete statement will be 
made part of the official record, probably something you will 
print at some point and publish.
    Mr. Sherman. I hope so, sir. We look forward to it.
    Mr. Yoder. But feel free to summarize your remarks at this 
time for the committee.
    Mr. Sherman. Thank you very much, Mr. Chairman.
    Chairman Yoder, Ranking Member Ryan, and members of the 
subcommittee, thank you for inviting me to be here this morning 
to discuss the GPO's appropriations request for fiscal year 
2019.
    With me at the table, as you have said, are GPO's Chief 
Administrative Officer Herb Jackson and the Managing Director 
of GPO's Official Journals of Government Business Unit, Lyle 
Green. Lyle is responsible for day-to-day liaison with both 
Houses of Congress to make sure your printing and other 
publishing requirements are met as you need them.
    GPO is responsible for publishing congressional 
publications and for making them known to the public. Our 
mission derives from the requirement in Article I, paragraph 5 
of the Constitution, which says that, ``Each house of Congress 
shall keep a Journal of its Proceedings, and from time to time 
publish the same.''
    The Government Printing Office, as we used to be called, 
was established to carry out that publishing mission on 
Congress' behalf. For most of our history we did this by 
printing and distributing congressional publications.
    For the past quarter century, however, we have deployed 
digital technologies to carry out our mission. As a result, we 
are now named the Government Publishing Office, where printing 
is just one of the many publishing technologies we use.
    Today, for the House and the Senate, we produce 
congressional documents, the daily Congressional Record, bills, 
reports, hearings, committee prints, and other documents in 
digital and print, providing official information in the forms 
and formats that Congress needs to carry out its constitutional 
legislative mission while providing public access to these 
documents nationwide.
    Our use of modern publishing technologies has significantly 
reduced the costs of GPO's operations. Computerized typesetting 
and related technologies have cut the costs of congressional 
publishing by more than 70 percent since 1980.
    Digital dissemination through the web has reduced the cost 
of disseminating congressional and other government 
information, while expanding public access exponentially. Last 
year, our online service provided access to more than 2.2 
million titles. The service averaged more than 45 million 
document retrievals a month and more than half a billion 
annually.
    We have just 1,740 staff now, fewer than at any time in the 
past century. When Herb and I started, we had over 6,000. We 
are an agency that is compressing its size, not growing its 
size. Yet our productivity as a result of the digital 
technology and other equipment upgrades that we have made in 
the last 5 years continues to increase.
    As a result, our total appropriations request of $117 
million for fiscal year 2019 is the lowest in the last 15 
years. That is measured in current dollars.
    For our congressional publishing account we are requesting 
$79 million for fiscal year 2019. Funding for this account has 
been flat since fiscal year 2014, the last 5 years.
    For the public information programs of the Superintendent 
of Documents we are asking for $32 million to expand our 
efforts to bring more digital products into the Federal 
Depository Library program, whose libraries average 
approximately three per congressional district nationwide.
    For our Business Operations Revolving Fund, we are seeking 
$6 million to continue development of our online system, called 
govinfo, and pay for necessary cybersecurity measures.
    Before ending, Mr. Chairman, I just want to say that the 
men and women of the GPO are some of the hardest working, most 
dedicated employees that you have in the legislative branch. 
Regardless of the demands of the legislative schedule and 
regardless of the conditions under which they have to work, 
whether there is a snowstorm, an earthquake, a government 
shutdown, or other conditions, they will be there to support 
you in carrying out your work. That was what we were created to 
do, and it remains our most important mission.
    So, Mr. Chairman and Ranking Member Ryan, with that, thank 
you so much for letting me speak to you. And I would be happy 
now to answer any questions you may have.
    [The prepared statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Yoder. Well, thank you, Mr. Sherman. If your colleagues 
have anything to add at any time, feel free to chime in. I want 
to make this sort of a little bit of a casual format.

                        MODERNIZATION OF THE GPO

    Mr. Yoder. I first kind of maybe want to ask a broad 
question about the mission and where you see the department 
heading in the next 10 to 20 to 30 years. Certainly in your 38 
years and 27 years you have seen very significant changes at 
the publishing office. When did it change from printing to 
publishing?
    Mr. Sherman. In 2014.
    Mr. Yoder. 2014. Okay. So that is obviously a symbolic 
change, but it also indicates the changing nature of the agency 
and how you operate. I am guessing when you started the concept 
of a digital publishing was not something that was in your 
vernacular. I assume it is now in the Style Manual, which is a 
good read, by the way. It is going to be a must read for my 
legislative staff here coming up.
    You have reduced workforce from 6,000 to 1,740, which I am 
sure in some ways has been painful for folks that had been 
there, and as jobs become less necessary that changes how 
employees fit in our current economy. We are having to focus 
our own on retraining and getting people retooled for the jobs 
of the modern economy.
    Where do you see the future of this heading? What do see 
the role of the publishing office? Continuing to go more 
digital? How are you innovating and keeping up with the 
innovations that are out there? Are there apps for phones and 
those sorts of things? Where do you think our best investment 
would be to get the best ROI for taxpayers? Where would we want 
to place dollars that might help you innovate which would help 
us save net savings?
    Mr. Sherman. Thank you, Mr. Chairman. That is an excellent 
question. When Herb and I started at the GPO, type was set by 
machines called linotype machines and monotype machines. This 
is the way type was set across America in both government and 
the commercial sector for 80-some-odd years. Those machines 
were invented in the early 1900s, late 19th century.
    We had more than 1,000 people alone involved in what is 
called composing: operating the linotype machines, setting the 
type for pages, and proofreading.
    What we did was we adopted, like the rest of the industry, 
computerized typesetting, which immediately began reducing the 
need for so much staff. You could be much more productive with 
computerized typesetting than linotype machines.
    For GPO this was an evolutionary process, and what we did 
was we retrained staff who formerly used the older equipment to 
use the newer equipment. And that has been our style all along. 
We don't have occupational dislocation. We don't let people go 
because technology has changed. We attrit. That is how we get 
the employment reductions. But we use a lot of retraining to 
get people involved in newer technologies.
    The appropriation for congressional printing in those days, 
1980, let's say, was about $90 million in 1980 dollars. That is 
the equivalent of almost $300 million today. And as you can 
see, our request is for $79 million, a reduction of 70-some-odd 
percent. That reflects increased productivity and it reflects 
fewer staff required to carry out these tasks.
    We still publish as much material for Congress as we used 
to. By that I mean, the Congressional Record remains a 
significant publication, and you all are still producing bills, 
reports, hearings, and other documents, but the technologies we 
are using are much more productive. And that is where the 
investment needs to keep going.
    We have a system of financing at GPO which is totally 
directed and pointed in that direction, investing in GPO's 
future. We have increased the book value of GPO's plant and 
equipment almost 100 percent over the last 5 years by the 
investments we have made in new equipment and technology.
    We will continue trending towards more and more utilization 
of digital. And I am sure that digital itself will continue to 
evolve in many different ways, some ways that we know nothing 
about now, just as in 1980 we had no idea of apps or 
smartphones.
    But we have to stay on top of that because that is what the 
public expects. That is how we ensure public access to the 
information about what Congress is doing and how you are doing 
your jobs. That is how we keep the public informed about what 
you do.

                         IMPACT ON TRANSPARENCY

    Mr. Yoder. Well, I think that is maybe the clear benefit, 
beyond the taxpayer savings, is that we create more 
transparency, because with govinfo and other opportunities you 
can reach people that you wouldn't reach in a printing format. 
But anywhere in the world, the country can get the information 
they need immediately. So it provides a better service at a 
cheaper rate.
    Mr. Sherman. With respect to that, if I could just add one 
thing.
    Several years ago in the House a group was set up called 
the Bulk Data Task Force, the Legislative Branch Bulk Data Task 
Force. Actually, it was set up through the impetus of this 
committee and the Office of the Clerk, and it continues to 
operate under the leadership of the Deputy Clerk of the House, 
Bob Reeves.
    It is a group that comprises not only the GPO and elements 
of the House, but staff from the Library of Congress, from the 
Congressional Research Service. People from the Senate 
Secretary's Office are also involved.
    And this group has come up with a lot of novel and 
innovative projects. It has been a sort of a hothouse for new 
ideas that can be developed and implemented to push Congress 
forward in the field of transparency.
    We have done a lot of projects with the task force, we have 
a lot operating right now, and they will last into the future. 
And they are not terribly expensive. The Speaker's Office, by 
the way, both Mr. Boehner at the time it started and Mr. Ryan 
now, have been totally supportive of this effort. And with 
their support, the efforts of this group have reached new 
levels of transparency and openness in congressional 
information for the public.

                          CHANGES TO TITLE 44

    Mr. Yoder. Well, sounds like a worthy endeavor.
    I want to ask you a little bit about the changes to Title 
44. The House Admin Committee is working on revisions of 
chapter 19, which focuses on the Federal Depository Library 
program.
    As we know, the program was created to make the Federal 
Government publications available to the public at no cost. The 
House Admin bill greatly expands the electronic distribution of 
documents, which would allow more libraries to participate and 
provides the flexibility of not having to have shelf space for 
the hard copies.
    What impacts would these proposed revisions have on GPO's 
appropriations requirements?
    Mr. Sherman. Thank you. We were part of this process. This 
bill grew out of hearings that were held throughout the year 
last year on modernizing Title 44. We have felt throughout that 
process that the Depository Library program, whose organic 
legislation dates to 1962, needed a significant amount of 
updating.
    As a practical matter, we have made that program responsive 
to electronic and digital measures over the last 25 years, but 
the statute needed to catch up with modern practice. And that 
is what this bill does. It recognizes statutorily that digital 
is an important component of the program and provides us with 
certain tools to work with Federal agencies to ensure that more 
digital information is brought into the program on a systematic 
basis.
    It does envision an expanded role for GPO in some areas 
that we anticipate will require additional staff and additional 
IT systems, but I think that that will be done on an 
evolutionary basis. We are not going to be able to go zero to 
60 all of a sudden. What we will in fact be doing is building 
on certain services that we already have operating.
    Our request for fiscal year 2019 seeks an increase in 
funding for the public information programs of the 
Superintendent of Documents to be more aggressive in collecting 
digital data from the executive branch. So it is kind of a 
downpayment on that already.
    I think with ongoing savings in the congressional 
publishing appropriation, it is quite likely that we could see 
a stable appropriation with increases for public information 
programs for the Superintendent of Documents and offsetting 
decreases in congressional publishing.
    Mr. Yoder. Mr. Ryan.

                         BUILDING SPACE AT GPO

    Mr. Ryan. Thank you, Mr. Chairman.
    I am having a bit of nostalgia here. I was an intern in 
1995, and my job was to get the Congressional Records tied up 
in a bow and go put them on everyone's desk. So as a Member, I 
am glad that no one has to do that anymore.
    I have got a couple of questions. They are kind of more 
about the real estate, some of the real estate issues. We have 
talked about the Books for the Blind Program. Can you give us 
an update on where we are with that?
    Mr. Sherman. Yes, sir. We were asked by the staff of this 
committee a month or two ago to look into whether available 
space could be prepared for the NLS. We think it is possible at 
GPO. We have got certain space currently occupied by binding 
equipment which could be relocated out of where it is, and we 
could make some other housing changes for some of our staff on 
both the fourth and fifth floors of our building.
    We are talking about a package of space that is the 
equivalent of 50,000 to 60,000 square feet. The Architect of 
the Capitol has been over with some of the NLS staff and has 
already looked at the space. And as I understand it, there is 
report language about the development of a feasibility plan for 
this.
    We are in the process of making a major acquisition of new 
press equipment to print the Congressional Record and the 
Federal Register, as well as congressional calendars. The 
current equipment we have consists of three enormous newspaper 
presses that we bought in 1995, at a time when we were printing 
about 20,000 copies of the Record at night and 35,000 copies of 
the Register at night.
    We need to get smaller, more flexible ink jet machines 
because the print runs for these publications are tending 
towards less than 2,000 now.
    Once we make that acquisition and install the smaller 
equipment, we will get rid of this larger equipment, and that 
will provide more space that we can move existing binding 
systems into and free up space for the NLS. So we are happy to 
work with the AOC and the LOC on this project.

                           GPO'S DATA CENTERS

    Mr. Ryan. Great. We appreciate that.
    The other issue is the future location of primary and 
backup data centers.
    Mr. Sherman. We actually anticipated this several years ago 
by moving our primary data center outside the building to the 
Legislative Branch ACF. We still have a data center in our 
building that we believe we could reduce by about 50 percent 
and relocate that as well.
    We still need, as I understand the House still needs, some 
access to a data center on site, but the footprint of that can 
be substantially reduced. Herb and I have already talked to our 
CIO about coming up with a plan for us. He will be visiting the 
Redstone Turner site later this month, and we are going to come 
up with a plan to carry this out.
    Mr. Ryan. How close does it have to be?
    Mr. Sherman. The amount of material that we would reduce in 
our current building here, we would move to an alternate 
location.
    Mr. Ryan. A lot of what we deal with, with regard to 
protecting our systems deals with cyber and cybersecurity. Is 
there any issue within the GPO?
    Mr. Sherman. Yes, sir. Anybody who doesn't worry about it 
doesn't know what they are doing. We expend a great deal of 
money on cybersecurity. We are members of the Legislative 
Branch Cybersecurity Working Group, as well as the Legislative 
Branch CIO Council, and the Legislative Branch Chief 
Information Security Officer Council.
    The budget that we just got approved through the omnibus 
has $2 million for cybersecurity, which we will spend, and we 
are asking for another million in the fiscal year 2019 budget. 
We have close ties with the Department of Homeland Security and 
the relevant law enforcement agencies to help us police our 
cybersecurity. It is something that we always are very 
cognizant of. We don't want to brag about it, because it is a 
continually evolving field.
    Mr. Ryan. Right. Only as good as your next shot, right?
    Mr. Sherman. Yes, sir.
    Mr. Ryan. Well, keep us abreast of any needs you may have 
with that.
    Mr. Sherman. Yes, sir.
    Mr. Ryan. I yield back.

                           GPO AND PASSPORTS

    Mr. Yoder. Talk to the committee about passports. What does 
the future of passports look like?
    Mr. Sherman. Yes, sir. Since 1926, GPO has been producing 
passports for the State Department. Until 1985, that was a 
modest line of business for us. They were hand-bound and we 
produced maybe 3 or 4 million a year.
    Starting in 2007, the passports that we produce began to be 
manufactured in compliance with International Civil Aeronautics 
Organization, or ICAO, standards. This is a U.N. Organization 
where the signatory nations agree to have certain features in 
their passports to improve interoperability in crossing each 
other's borders.
    Passports since then have had an electronic chip in them 
and an antenna array implanted in the cover which carries 
personal data, the same as the data that is printed on the 
personal page.
    We produce blank passports for the State Department. The 
State Department personalizes them with the information that is 
adjudicated from applicants for passports.
    Last year, we produced about 22 million passports. It is 
not a modest line of business anymore. It is a high-tech, 
automated process with a significant secure IT component to it. 
And we manage a secure supply chain as well as provide other 
forms of security to it.
    We are in the process right now of getting ready to produce 
what is called the Next Generation passport. This passport, for 
the personalized page, will have a polycarbonate card sewn into 
the binding of the book. To personalize it, the State 
Department will laser engrave the information on that card. 
This is an advanced anticounterfeiting device.
    We are continually working with the State Department on 
security features for the passport. Over the last 5 years, we 
have spent about $100 million, which we have recovered through 
fees we charge to the State Department for passport production, 
in capital investments for the equipment to produce this line 
of work.
    We have reconstructed our facility substantially to do 
that. We would be happy to have you over to show you what we 
have and what we do. We have passport operations not only here 
in Washington, D.C., but in southwest Mississippi at the 
Stennis Space Center.
    By the way, this program is not based on appropriated 
funds.
    Mr. Yoder. Yes, how is that funded?
    Mr. Sherman. We charge the State Department a fee for every 
passport we make. It is approximately $15 a passport.
    Mr. Yoder. And that will continue with the NextGen 
passports?
    Mr. Sherman. Yes, sir.
    Mr. Yoder. The same fee or same at least----
    Mr. Sherman. We anticipate that it will increase.
    Mr. Yoder. We will pay for it one way or another, I guess.
    Mr. Sherman. GPO's price is currently $15. The fee paid to 
get a passport includes other costs which are not our costs.

                    GPO'S ONLINE INFORMATION SYSTEM

    Mr. Yoder. We discussed earlier in the hearing the 
digitization of records, in particular govinfo, which I 
understand has moved out of beta this past December. What is 
the status of your plan to replace the Federal Digital System 
with the new information access system govinfo?
    Mr. Sherman. That is a good question. Govinfo is the third 
iteration of our online information services, which started in 
1994. We have been putting the Congressional Record and 
congressional documents online for the public for about 25 
years now.
    The first system was called GPO Access. That ran for many 
years. It was modernized with the Federal Digital System, which 
debuted in 2009, and now that system itself has become dated.
    And we have upgraded our systems completely with govinfo, 
which is mobile friendly and has a number of interesting search 
features. For example, if you search on a congressional bill, 
it will show you not only the bill, but if it has been enacted, 
the law, the debate that was associated with it, and any 
regulations that might have been issued pursuant to it. It is 
much more modern than FDsys.
    And this shows you how quickly things change in the digital 
world. FDsys was up and operating for well, approximately, it 
will be close to 10 years. But after that, the system had to be 
refreshed and rebuilt. We will move FDsys out of operation by 
the end of this calendar year and govinfo will become our 
system of record.
    Mr. Yoder. By the end of the year?
    Mr. Sherman. Yes, sir.
    Mr. Yoder. And how long do you see its lifespan?
    Mr. Sherman. We are hoping for a good 5 years. But, again, 
it depends on how rapidly technology keeps changing.
    Mr. Yoder. And what are the modernizations of govinfo off 
of the current system, the FDsys?
    Mr. Sherman. The amount of content continues to expand. The 
searchability is much improved. The retrieval has features like 
the one I just described. It is mobile friendly. FDsys was not.
    So we don't have to build apps anymore, and we were in that 
business for a while. The United States Budget is an app which 
you can read on your phone. We don't need to do that anymore 
because govinfo is gauged directly for that technology.
    Depending on how quickly things keep changing, what other 
features pop up, it is really anybody's guess.
    Mr. Yoder. Mr. Ryan.
    Mr. Ryan. I am good, Mr. Chairman.
    Thank you so much for your time.
    Mr. Yoder. Gentlemen, thanks for your testimony. I think it 
is good to have GPO come before the committee and continue to 
conduct good oversight and ensure that we are making GPO 
successful carrying out its mission and doing so in the most 
cost-effective manner.
    Mr. Sherman. Mr. Chairman, Mr. Ryan, we appreciate your 
support. We work very closely with the staffs of this committee 
and have nothing but good things to say about them. And we look 
forward to continuing to work with you on this budget.
    Actually we would love to have you down for a tour.
    Mr. Yoder. Let's do that.
    Mr. Sherman. It is an interesting place to see. It is a 
great Washington institution.
    Mr. Yoder. Let's do that.
    Thanks for your work. Thanks for your leadership. Thank you 
for your appearance today. We will continue to work with you.
    The subcommittee stands in recess until 2 p.m. today, at 
which time it will receive testimony from the Architect of the 
Capitol.
    [Questions for the record follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        

                                          Thursday, April 12, 2018.

                        ARCHITECT OF THE CAPITOL

                                WITNESS

HON. STEPHEN T. AYERS, ARCHITECT OF THE CAPITOL

                            Chairman Remarks

    Mr. Yoder. Good afternoon, everybody. I call the House 
Legislative Branch Subcommittee back to order. We were in this 
morning at 10:00 a.m. for a hearing with the Government 
Publishing Office, and this afternoon we have the Architect of 
the Capitol.
    Today I would like to welcome Stephen Ayers, the 11th 
Architect of the Capitol. We will hear testimony regarding the 
Architect of the Capitol's fiscal year 2019 budget.
    Since he last appeared before this subcommittee, the AOC 
has made significant progress with several initiatives. They 
include preservation products across the campus at the Capitol, 
Supreme Court, Russell Senate Office Building, and Botanic 
Garden. Additionally, work on the west wing of the Cannon House 
Office Building is more than 50-percent complete, with the goal 
of 100-percent completion by this year's congressional 
transition. Furthermore, conservation of the Capitol's Brumidi 
Corridors was completed. I look forward to hearing about these 
projects.
    These projects, along with several others, were done by the 
AOC while also maintaining its day-to-day services and 
operations, which include welcoming over 3 million visitors to 
the Capitol Visitor Center and the Botanic Garden. It is safe 
to say the AOC had a busy year, and I commend the organization 
for its hard work.
    The larger, ongoing, multiphase projects included in this 
request are the Cannon House Office Building renewal, which is 
a $752.7 million project, of which is $62 million is included 
in this year's request. Also included is a request for $32.7 
million for the final phase of the Rayburn Interior Garage 
Rehabilitation Project, a project that will total $131 million. 
And, finally, in the request is $22.6 million for cooling tower 
renovations at the Capitol Power Plant, with that project's 
total cost estimated at $232.6 million.
    Over the last year, I have had the opportunity to learn 
more about these projects and appreciate the site visits the 
AOC has hosted. Anytime I get to wear a hardhat, that is a good 
time.
    Mr. Ayers, I look forward to continuing to work with you 
and your team as the subcommittee puts together the fiscal year 
2019 legislative branch appropriation bill. So welcome to the 
committee.
    Mr. Ayers. Thank you, Chairman Yoder.
    Mr. Yoder. And, at this point, I would like to yield to my 
good friend, the Honorable Tim Ryan.

                         Ranking Member Remarks

    Mr. Ryan. Thank you, Mr. Chairman.
    We appreciate your time and effort. We have had some great 
tours.
    And we know that the omnibus we just passed, you received 
$712 million, a 15-percent increase over fiscal year 2017. And 
in your request for fiscal year 2019, you asked for $720.2 
million, which is a 1.1-percent increase. Your budget is 
heavily project-based, so your request can go up or down 
depending on what work happens to be needed in a particular 
year. But even taking that into account, the increase you are 
requesting today is fairly modest. I hope we can get you the 
resources you need for 2019.
    And of the project dollars you are requesting, I notice 
that 49 percent of it is classified as deferred maintenance, 
meaning around half of the work is just to catch up with the 
needs of our buildings and infrastructure that has passed the 
end of its useful life. And I think that is very telling, and 
it is a good indication of how we approached investments in our 
country generally under sequestration. I am pleased that with 
the budget caps deal we struck earlier this year we are 
starting to dig ourselves out of that hole.
    And your organization's responsibilities are extremely far-
ranging, from security infrastructure to daycare centers, to 
power plants and gardens, and we have a lot to talk about, so I 
will save the rest of my comments for the round of questions.
    Thank you, Mr. Chairman, for your scholarly leadership. And 
I yield back the balance of my time.
    Mr. Yoder. Thank you, Mr. Ryan.

                 Summary Statement of Stephen T. Ayers

    Mr. Ayers, your complete statement will be made part of the 
record, but feel free to summarize your remarks for the 
committee at this time.
    Mr. Ayers. Thank you, Chairman Yoder, Ranking Member Ryan 
and members of the subcommittee. I appreciate the opportunity 
to present the Architect of the Capitol's budget request for 
fiscal year 2019.
    First, I would like to thank the subcommittee for your 
support of our needs in the fiscal year 2018 omnibus. The 
projects and initiatives that you were able to fund in that 
bill I know will be important to our collective success moving 
forward. This funding will also assist our more than 2,100 
talented employees with reducing the constraints that have been 
put upon them in recent years, impeding their ability to get 
their jobs done.
    We take pride in our mission to serve the Congress and the 
Supreme Court and preserve America's Capitol, as well as 
inspiring memorable experiences for those that visit here, I am 
pleased to tell you that I am incredibly happy with our 
accomplishments over the last year.
    As the chairman noted, we successfully completed the 
conservation of the Capitol's Brumidi Corridors this year. 
Several major projects across the campus reached milestones, 
including the stone preservation projects at the United States 
Capitol, the United States Supreme Court, the Russell Senate 
Office Building, and the United States Botanic Garden 
Conservatory.
    Also, the major equipment needed for the cogeneration 
system at the Capitol Power Plant has been installed, and 
testing is underway. And I know you will be interested to know 
we are going have a first fire of that piece of equipment this 
summer. So that will be a fun event for us, and we look forward 
to celebrating that.
    Unfortunately, our annual costs continue to rise and our 
work is often backlogged. Our request of $720 million 
represents the resources we need to support our infrastructure 
and fulfill our mission day to day.
    Our ability to retain sufficient people to keep up with 
increased security demands is important. Reducing our risk of 
infrastructure failures that lead to larger and more costly 
repairs is equally as essential.
    Additionally, with annual visitation growing by 12.5 
percent last year, another 8 percent this year, trending on top 
of that 12-percent increase last year, resources and people are 
needed to continue to provide first-rate customer service, 
first-rate visitor engagement to your constituents.
    We must bolster our common central services that improve 
our agency effectiveness and decrease the operating costs for 
all of our jurisdictions. These services include the AOC's 
specialized construction, project management, historic 
preservation, cybersecurity, safety, information technology 
support functions, just to name a few. Inadequate funding for 
these services is critical in the successful delivery of our 
construction projects each year.
    For 2019, our agency's risk-based prioritization process 
identified $173 million of projects that are primed and ready 
for 2019 funding. Of this, about $49 million of them are 
requests for projects that were requested in 2018 but were 
unable to be funded. This includes the north-exit stair 
improvement project at the Library of Congress' Jefferson 
Building, which would address a citation that we have received 
from the Office of Compliance.
    In the House, we are seeking funding for the final phase of 
the four-phase Rayburn garage interior rehabilitation.
    We also continue to prioritize security upgrades across the 
Capitol campus, with the ongoing effort to replace vehicle 
barriers and kiosks that have reached the end of their intended 
life.
    Additionally, for a third year, we are pursuing funding to 
begin the replacement of critical infrastructure at the 
Alternate Computer Facility, which is an important component of 
maintaining reliable IT operations for the Congress.
    While to an untrained eye our buildings look to be in great 
condition, delays in our annual preventive maintenance 
initiatives and the continued phasing of some of our major 
projects are concerning to us. Funding the needs as we have 
identified them in our 2019 budget will ensure that 
stakeholders and visitors to Capitol Hill experience the great 
grandeur of these historic treasures that we experience every 
day.
    Thank you, Mr. Chairman. I would be happy to answer any 
questions you may have.
    [The prepared statement of Stephen T. Ayers follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
                           CHILD CARE CENTER

    Mr. Yoder. Great. Thanks for your testimony, sir.
    A few quick questions to get us started.
    Could you brief us on the childcare center?
    That is a project that we started last year, so, you know, 
we have funded phase 1 and 2 of that project. Ultimately, that 
project will house 232 children, up from the current amount of 
70, which, of course, there is a long waitlist, we all know, on 
Capitol Hill.
    The old joke is you have to register your child before you 
are even married or before you are even pregnant. And so we are 
hoping to alleviate some of that backlog, make the Capitol a 
more family-friendly place, allowing working parents to 
continue to work here with convenient and affordable childcare.
    So is everything still on track for construction to be 
completed by November 15th of this year, with an opening in 
January of 2019?
    Mr. Ayers. We are scheduled mid-November to be complete, 
and that leaves 6 weeks for the House Chief Administrative 
Officer to outfit it with furniture and supplies and to do some 
training with the folks that will work there. So we are working 
towards that date.
    Obviously, this is a pretty high-risk project for us. You 
know, we developed a cost estimate and provided that $15 
million estimate before we had design documents even started. 
We are putting forth a great deal of effort to manage it day to 
day, to keep costs under control.
    We are pretty comfortable with that November date. We are a 
little less comfortable with the number, but we are working 
hard to keep costs as contained as we possibly can.
    Mr. Yoder. ``On time and under budget'' I think is the 
motto over at the Architect's office, right?
    Mr. Ayers. It is, yes. And we do a good job at that, don't 
we?
    Mr. Yoder. So we hope you are true to form on this project.
    So this will be phase one, correct?
    Mr. Ayers. Correct.
    Mr. Yoder. And then phase two would open up about a year 
later?
    Mr. Ayers. That is correct.
    Mr. Yoder. Okay. And all resources for that project have 
been appropriated at this point?
    Mr. Ayers. That is correct, yes.
    Mr. Yoder. In terms of what we budgeted.
    Mr. Ayers. Yes.

                  CANNON HOUSE OFFICE BUILDING REMOVAL

    Mr. Yoder. Hopefully we live under that. Okay?
    Let's turn to the Cannon House office project for a second. 
To date, $502.9 million of that projected budget of $752.7 
million has been provided. For fiscal year, you are requesting 
$62 million more in no-year funds for the project.
    How much has AOC already obligated for the project to date 
out of the $502 million, that we have provided? Why is 62 the 
number? Can you kind of work through the math on when that 
would be needed?
    What amount of prior-year funding is still currently 
available for the AOC's use on the project? And is the project 
on track to be completed on time in its projected $753 million 
budget?
    Mr. Ayers. First, thank you for that extra little bit of 
money. It is 752-point-something, so that is a few extra 
hundred thousand dollars. I do appreciate you rounding up.
    That project continues to be running incredibly smoothly 
for us. It is on time. We are under budget. We are coming up, 
this November, on an important milestone. We will begin the 
phase-one move back in and the phase-two move-outs. We will 
start that, of course, on December 1st, and all of that will 
happen during the month of December.
    We do have $502 million appropriated for that, with another 
about $250 million yet to go to finish that project. We have 
mapped out what is the minimum amount of funding we need to 
have each year in the appropriations cycle to enable us to 
award each phase on time, and that turns out to be $62 million.
    It is important that we appropriate that every single year 
through the end of this project, and that will enable us to 
finish it on phase four in 2024.
    Mr. Yoder. So your plan would be a $62 million request for 
4 more years.
    Mr. Ayers. Correct, approximately $62 million a year to 
equal $250 million.
    Mr. Yoder. Okay. Each year, $62 million, to get to your 
roughly $250 million, in additional resources necessary.
    Mr. Ayers. Yes, $250 million total.
    Mr. Yoder. Got it.
    And the entire project will be completed in 2024?
    Mr. Ayers. It is 2024.
    Mr. Yoder. Okay. And for those who are in Cannon, Members 
who ask us, so phase one, what areas will be reopening? So some 
of the fifth floor?
    Mr. Ayers. Yes, that is correct, Mr. Chairman. The entire 
west wing is under construction now. All of that will open back 
up, the entire west wing----
    Mr. Yoder. The Rotunda will be back open.
    Mr. Ayers. Brand-new fifth floor.
    Mr. Yoder. Okay.
    Mr. Ayers. All of that will open up.
    Mr. Yoder. Right.
    Mr. Ayers. As we will move Members back in. The north wing, 
along Independence Avenue, is phase two. All will move out in 
December.
    Mr. Yoder. Got it.
    Mr. Ayers. For the folks that are moving back in, we have 
identified 21 Members, I think, that are eligible to move back 
into phase one on the New Jersey Avenue side. We have been in 
touch with them. About a dozen of them have expressed interest 
to move back in, so we are working with them now. And they have 
return rights to their previous suite.
    Mr. Yoder. Oh, they do. So you can go back to your suite 
that you had before you were moved out.
    Mr. Ayers. If you were in that suite for the full 114th 
Congress, you do have return rights to that suite.
    Mr. Yoder. Got it. Okay.
    Mr. Ayers. There are 21 of those, and 12 have expressed 
interest so far.
    Mr. Yoder. Okay. Well, I look forward to taking a tour 
later this year and getting an idea of how the progress is 
coming. Okay?
    Mr. Ayers. Great.
    Mr. Yoder. Mr. Ryan.
    Mr. Ryan. Thanks, Mr. Chairman.

                                PARKING

    First, let me just say thank you for all your work on the 
childcare center. I think, other than food, we hear most about 
the challenges for our staff with regard to childcare, so this 
has been a huge priority for those of us on this committee.
    And I know that the chairman talked to you a little bit 
about that. Can you talk to us a little bit about the parking? 
I know there are some unresolved issues there. And when we have 
toured it, the couple times we have been down there, that is my 
concern too, getting people in and out of there and what the 
parking looks like. So if you could maybe share a little bit 
about where your head is on that.
    Mr. Ayers. I would be happy to.
    I think the decision point was whether we drop off and pick 
up on C Street or D Street, and we have made the decision that 
D Street is the best place to drop off. So we will be dropping 
off and picking up for the childcare center on D Street.
    And we think taking both sides of that street for parking 
is appropriate. Today, there are 36, at least, parallel-parking 
slots along that street.
    We are hiring a consultant to help us design what 
interventions we need in that street--improved crosswalks, 
traffic calming and slowing devices in the street, perhaps some 
curb bump-outs, maybe slanted parking. Through the design 
process, we will figure that out and incorporate that into the 
project.
    Mr. Ryan. And everybody is going to be coming in at the 
same time, obviously, or right around the same window. What 
negative impacts do you see in the blocks around that? That is 
a pretty active area in the morning. How bad is it going to be?
    Mr. Ayers. I certainly can't sit here and tell you there is 
not going to be any impact, with 232 children in there. That is 
potentially 232 drop-offs and pickups. It may not be that many, 
but potentially that many.
    I think it is incumbent upon us to set up a process whereby 
we can get them in and out fast so that each drop-off is a 
pretty quick turnaround.

                            ENERGY REDUCTION

    Mr. Ryan. And hope the dads aren't dropping off, because we 
forget stuff all the time, and you have to put the hazards on 
and get out. It is a mess. But, anyway, I am having a little 
therapy session here.
    The other issue was the green buildings. We have a lot of 
money, a lot construction, and a lot of renovation. Can you 
share with us what you are doing with regard to using the 
latest technologies? Solar panels being a more obvious example 
of what we are able to do to save money in the long run. We 
talk about these upfront costs, but saving the taxpayer money 
in the long run. So if you could talk a little bit about that.
    Mr. Ayers. I would be happy to.
    The Energy Independence and Security Act required us to 
reduce our energy intensity by 30 percent. We achieved that 
goal in 2015, which was the end of that legislation. That same 
year, we established a new goal for ourselves, thinking that we 
could get another 20 percent out of our inventory of buildings. 
So we think 10 years from then, in 2025, we will be able to 
reach a 50-percent reduction in our energy intensity.
    To get the 30 percent in 2015, the biggest thing we did 
were the three ESPCs, energy savings performance contracts. And 
that is where private investment came in. Investors and private 
contractors renovated the House office buildings, the Capitol, 
and the Senate with nearly $100 million of investments, and we 
pay that back through proven energy savings. And that really is 
the biggest thing that enabled us to reach that 30-percent 
goal.
    The 20 percent more, the two biggest things that are going 
to be most important there are the cogeneration system at the 
Capitol Power Plant--when that comes on line, we are going to 
save significant energy by that. And the three energy savings 
and performance contracts were so successful for us we decided 
to do a fourth one at the Library of Congress buildings. And we 
have modeled that, and it is going to save considerable energy 
for us as well.
    The rest are some behavioral changes that we think our 
building occupants can make; some technology improvements, by 
changing some of our mechanical systems from pneumatically 
controlled to electronically/digitally controlled. Those kinds 
of investments, we think, are necessary.
    But we are pretty confident that we are going to be able to 
get 50 percent out of our buildings by 2025.
    Mr. Ryan. That is fantastic. Thank you. I appreciate that.
    I yield back, Mr. Chairman.
    Mr. Yoder. Mr. Taylor.

                             CYBER SECURITY

    Mr. Taylor. I just have a couple questions, and you have 
answered a few. Thank you. Appreciate it.
    On cybersecurity systems, can you explain what the standard 
services are on monitoring of the daily cyber attacks? I know 
that the last time we had a meeting we had a ton of them that 
were coming in. Have you seen an uptick in them? And are there 
any new, emerging threats? And is this the reason that you guys 
asked for increased funding to harden the network systems?
    Mr. Ayers. Thank you, Congressman Taylor.
    Congress put together a Legislative Branch Cybersecurity 
Working Group, and coming out of that group were a series of 
recommendations for all of the agencies in the Legislative 
Branch to put forth. And we have requested money in our budget, 
$1.8 million, to accommodate some of those improvements and 
some of those hardening initiatives.
    Prior to that, for us today, our steady state today is we 
feel pretty comfortable with our cybersecurity posture. We 
certainly haven't seen any significant attacks on any of the 
Architect of the Capitol's systems. We routinely test our 
system through penetration testing. We do phishing testing with 
our employees, and people are doing a pretty good job at it.
    We are not overly concerned about our systems today but 
recognize there are some things that we could do to continue to 
harden them.

                          LEGISLATIVE LANGUAGE

    Mr. Taylor. Can you speak to the language for the transfer 
authority of the AOC Office of Security programs? You know, why 
the request and a justification of it.
    Mr. Ayers. Yes. Thank you.
    Over the last several years, we have had a number of 
security project requests in our budget and requests that we 
are simply not able to fund. We don't have the bandwidth to 
fund them. But some of our clients come to us with money, and 
we are able to accommodate that if they can pay for a variety 
of projects.
    This legislation would enable us to easily transfer money 
from the Capitol Police to us to do a security project they 
want to do, or from the House or Senate Sergeant-at-Arms to us 
to execute a security project that they want to do.
    It is very cumbersome for us to do that now, transfer that 
money. It actually takes five or six transfers of the money 
before it gets to us to enable us to do it. So it is simply 
reducing some of the bureaucracy, enabling us to receive money 
from other agencies to execute their work.
    Mr. Taylor. Thank you.
    Thank you, Mr. Chairman.
    Mr. Ayers. You are welcome.
    Mr. Yoder. Ms. McCollum.

                        HOUSE RECYCLING PROGRAM

    Ms. McCollum. Thank you, Mr. Chair.
    And I just want to again commend all the workmanship, all 
the work that you did outside of the United States Capitol. 
People who are returning here after maybe seeing all the 
scaffolding or not being here for 15 or 20 years are just 
constantly in awe of the way that the building looks.
    Mr. Ayers. Thank you.
    Ms. McCollum. So I just simply have to remember, in making 
these investments, which was the right thing to do structurally 
for the building, but also it enhances our national treasure 
and our face forward to our constituents and visitors from all 
over the world.
    In talking about green buildings, I have two kind of small 
things to kind of bring up. But at the same time, we kind of 
sometimes function as a city council for a lot of the people 
that we work with, both staff and Members.
    You mention temperature control. And I will put these two 
issues together. It is so cold in our office in Rayburn at 
times I have staff wearing jackets, using blankets. They have 
brought in heating pads. And I have been known to wear gloves, 
sitting at my desk. So I hope when you are looking at the 
temperature control that someone can get back to us kind of 
what is going on. We are not the only office that talks about 
this in the elevator.
    Then the other thing for green. People still haven't 
figured out how to recycle yet, right? Even some of the younger 
generation that grew up with all the commercials and that on 
there. So you went through a big push in recycling.
    At the same time, the recycling in the offices, all the 
smaller bins were replaced with bigger bins. I have limited 
office and traffic space. I have been trying to actually get 
people--you would be happy with me, Mr. Ryan--to get up from 
their desk on occasion from sitting all day and walk over and 
recycle something or to throw something out, rather than have 
all the maintenance and the collection on that.
    Could you kind of explain to me--I understand what you are 
trying to do with recycling, and I want you to know I really 
appreciate it. But what prompted this change? And what kind of 
expertise or help did you have? Because I don't know if you 
consulted any Members and staff on it.
    If you could answer those two.
    And then, Mr. Chair, I have two other small items.
    Mr. Ayers. I would be happy to.
    I am sorry to hear you are cold in your office, and we will 
work to take care of that. It is indicative of old buildings 
where we are simply unable to control the mechanical systems in 
the building. It was the exact same way in the Cannon building.
    Ms. McCollum. Yeah.
    Mr. Ayers. And we are really looking forward to the reduced 
number of service calls that we get, sending out technicians to 
make adjustments, once the Cannon building comes back on line. 
But we will certainly look into yours and see if we can remedy 
that.
    I think the good news, the big picture for me in the 
recycling program is that our goal this year was to recycle 40 
percent of office waste coming out of Members' offices across 
the Capitol campus, and we actually achieved a 44-percent 
recycling rate----
    Ms. McCollum. Great.
    Mr. Ayers [continuing]. Despite changing containers and 
other things.
    And we also had a recycling rate of 90 or 91 percent of 
construction debris, and we achieved 93 percent this year.
    And our new goal, moving forward, is to bump up our 
recycling rate, I think, to about 50 percent for office wastes. 
All of that is a landfill diversion technique. The rest of that 
waste that is not recycled goes to a waste-to-energy facility 
that is burned and turned into energy. So that is the big 
picture.
    I must admit I am not exactly familiar with the recycling 
program in your office and why we changed----
    Ms. McCollum. Oh, it is in all of our offices.
    Mr. Ayers [continuing]. Why we changed the bins--in the 
House of Representatives I mean--from one size bin to a 
different size bin. But I will figure all of that out, and we 
will come talk to you about that.
    Ms. McCollum. Well, we are not looking to--I saw one of my 
colleagues shaking her head when I was talking about--we are 
not looking to purchase anything new. I have just hung on to 
everything small that I can in my office, to the best of my----
    Mr. Ayers. Space is at such a premium in the House of 
Representatives, you are right.

                  CAPITAL VISITOR CENTER TUNNEL REPAIR

    Ms. McCollum. So one question that I am being asked a lot, 
and I know you have people working on it, is: Where the new 
part of the visitor center abuts the tunnel portion that goes 
walking towards Longworth or Rayburn, there is a water issue 
and a problem with that. Is that just trying to meet new 
buildings with old buildings? Because I don't want to give 
misinformation out to anybody, and I said I would ask you.
    Mr. Ayers. Well, I think that tunnel is 60 or 70 years old, 
and it probably needs to be dug up and re-waterproofed. That is 
the big picture. And we are trying to hold on as long as 
possible without doing that, because that would dig up the road 
and the grounds between the Capitol and the Cannon/Longworth 
building.
    It is old, and it leaks. And we are using some techniques 
to try to stave off that leaking from inside. So we will find 
the cracks that are leaking and we will inject products in 
those cracks to try to prevent it from leaking. I think we are 
going to get several more years out of it. It doesn't look that 
great, but I think it is better than digging it up at the 
moment.

                  MEMBERS REPRESENTATIONAL ALLOWANCES

    Ms. McCollum. And then, Mr. Chair, not so much a question 
for the Architect of the Capitol, but Ms. Wasserman Schultz was 
present back a couple years ago when some of us made a 
suggestion, and I would ask the chair while we have the 
Architect of the Capitol here to maybe speak to it.
    Members often return money from their accounts. It goes 
back into the U.S. Treasury. It does not go down to pay debt or 
deficit, as some Members often think it does. And some of us 
had an idea at one time that the money that would be returned 
from Members who didn't use all of their allotment go to the 
Architect of the Capitol for the very thing of energy 
efficiency, having more funds available for making the Cannon 
project move along faster, or something that comes up with a 
security need. Because those funds would be helpful not only, I 
think, to the Architect but speeding things up for Members and 
also for all our visitors and guests who are coming into our 
office.
    If this committee were to decide to work to have an account 
like that, you wouldn't necessarily know, sir, what it was 
going to be or how it could be used. It would be kind of like, 
as my grandmother would say, extra purse change. It would be 
significant.
    But if you had something like that, do you have some 
projects that would be shovel-ready or things ready to go, that 
you could use it either for a window emplacement, heating, air 
conditioning, cooling? Would something like that be of help to 
you to reduce energy costs and to speed up some of the repairs 
that you need to make?
    Mr. Ayers. There is no question about that, Ms. McCollum. 
If you look in our budget, we have a list of recommended 
projects. We also have another list behind that of projects 
that we have deferred because they just don't rise up in 
priority to the budget bandwidth we think is available.
    So we have projects in all categories that are shovel-ready 
and ultimately need to be done and need to be funded.
    Ms. McCollum. And it would save money, in some respects.
    So, Mr. Chair, I know that that is us talking to our 
respective caucuses and doing some Member education. But I 
think what we would save in the long run would be saving 
taxpayers money in the long run by doing this and getting 
through the list.
    Thank you, Mr. Chair. I yield back.
    Mr. Yoder. Thank you. And, Ms. McCollum, I note that in the 
Architect's budget they ask for $22 million for cooling tower 
renovations. We had money in the previous year's budget, and so 
maybe a better thermostat could go along with that or 
something.
    I don't know if I want to keep replacing these cooling 
towers if it is freezing out my colleagues.
    Ms. McCollum. Mr. Chair, I am from Minnesota, so when I 
tell you it is cold, it is cold.
    Mr. Yoder. All right. Well, there you go.
    Mr. Moolenaar.
    Mr. Moolenaar. Thank you, Mr. Chairman.
    And good to see you again.
    Mr. Ayers. Thank you.

                         LEAD IN WATER TESTING

    Mr. Moolenaar. Thank you for being here today.
    My office is in the Cannon building, and one of the 
questions I get periodically is--I know it was about a year ago 
that lead was discovered in the drinking water. And people ask, 
you know, what is the status. Is that changing? Are there 
improvements? I have to believe there is a cost of supplying 
water in dispensers and bottles right now. Is there a plan to 
improve the drinking water?
    Mr. Ayers. There is. The most important part about the 
Cannon building project is we are taking out all of the wiring, 
all of the ductwork, all of the piping, and everything that is 
behind the walls and in the mechanical rooms, and that building 
gets completely replaced. So it is really an infrastructure 
upgrade to the bulling.
    And so, as we turn over phase one, all of the piping and 
all of the ductwork and electrical systems, mechanical and 
plumbing systems will all be new. All of that will obviously be 
lead-free. And so, if we make a decision to turn the water back 
on on this west side, certainly all of that will be lead-free.

                            ELEVATOR SIGNAGE

    Mr. Moolenaar. Okay. All right. Thank you.
    And then this is just a thing I have noticed. I am somewhat 
directionally challenged, so I rely on directions quite a bit 
when I am walking around. And one of the things, when you go 
into the elevators--and, you know, again, I am in the Cannon 
building. If I go to a different building, the Rayburn 
building, sometimes I am trying to figure out, okay, which 
level do I get off at. You know, some of those plates are very 
small, where you are trying to figure out which button you are 
going to push. And I noticed there were some new plates that 
looked like they were larger font, and somebody is, you know, 
trying to help improve the signage, I guess, on the elevators.
    Is that something you are working on? Because I have to 
believe, if I am, you know, having trouble with that, visitors 
to the Capitol or people who are trying to find their way 
around the House office buildings have to be experiencing that 
as well.
    Mr. Ayers. I think that is a great observation. And as I am 
sitting here thinking, I have noticed the same thing, but I 
haven't done anything about it. Obviously, I should have, 
because that is at least two of us and there is probably 
another 30 in the room that have experienced the same small 
lettering on those little plates by the elevator buttons.
    Mr. Moolenaar. Okay.
    Mr. Ayers. So we will get to work on that.
    Mr. Moolenaar. Thank you.
    Mr. Ayers. You are welcome.
    Mr. Yoder. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Mr. Ayers, nice to see you.
    Mr. Ayers. Thank you.

           HOUSE HISTORIC BUILDINGS REVITALIZATION TRUST FUND

    Ms. Wasserman Schultz. I have some questions about the 
House Historic Buildings Revitalization Trust Fund. How much is 
in the trust fund at the moment?
    Mr. Ayers. There is $55 million in the trust fund at the 
moment.
    Ms. Wasserman Schultz. And we are in the posture now where 
we are just continuing to bank funds; you are not drawing it 
down.
    Mr. Ayers. That is correct.
    Ms. Wasserman Schultz. So you are continuing to put it in--
okay.
    Mr. Ayers. Yes.
    Ms. Wasserman Schultz. So you have the $62 million that you 
are requesting each year until Cannon is finished. We at the 
moment have $55 million in the trust fund.
    And then Cannon will be done in 2024, you mentioned?
    Mr. Ayers. Yes.
    Ms. Wasserman Schultz. And then is Longworth or Rayburn 
next?
    Mr. Ayers. Well, we haven't made that decision yet.
    By the end of the Cannon building, I think we will have 
about $115 million to $120 million in the trust fund by the 
time we finish Cannon.
    We have talked a little bit in the past about our modeling 
of what Longworth or Rayburn might cost us in the future. And 
so we have recently began the process to secure a consultant 
that is going to help us figure that out.
    Ms. Wasserman Schultz. Figure out how much the projected 
cost of Longworth or Rayburn would be?
    Mr. Ayers. Well, they are going to----
    Ms. Wasserman Schultz. Or see what you need in the trust 
fund to augment what we appropriated?
    Mr. Ayers. Yes, both of those, plus help us determine how 
we can best go about doing something like the Rayburn building.
    When we last looked at the Rayburn building, it was a 
several-billion-dollar project. We are not poised to do, nor is 
the Congress poised to fund, a project like that. So we have to 
find a different way to go about that project and break it 
down, perhaps into smaller pieces or do different mechanical 
systems at a time, whether we do it horizontally by floors or 
whether we do it by wing. We need some help figuring that out.
    Ms. Wasserman Schultz. So you are making the points that I 
would like to make, because, regardless of any which way we 
figure it out, it is going to be extremely expensive.
    Mr. Ayers. Yes.
    Ms. Wasserman Schultz. And Rayburn is rated ``poor.'' 
Longworth is rated ``fair.'' Presumably we would have to start 
on Rayburn first because it is deteriorating faster. And we 
don't want to end up in a situation like we have in Cannon, 
where you have lead in the drinking water or any other issues 
like that.
    So, Mr. Chairman, when we initially envisioned and created 
the Historic Buildings Revitalization Trust Fund, the idea was 
that we would put $30 million to $70 million in each year. We 
have been banking $17 million in 2010. We dropped it--I mean, 
excuse me, $17 million in 2017. We dropped it to $10 million in 
2018.
    Over 10 years, I mean, the Architect projected we would 
have about $115 million. And if it is over a billion to do 
Rayburn, even pieces at a time, we are really going to have to 
step up the amount of funds that we bank. Because you just 
questioned the $62 million that we are going to have to 
appropriate separately from what is in the trust fund every 
year until it is done, and that was why we envisioned the trust 
fund.
    Because, when we went through finishing the CVC, there were 
insane cost overruns, and it took so much longer than was 
projected because we are dealing with older buildings. So there 
is absolutely, even if these projects go swimmingly well--and 
this one appears to have done so--there are cost overruns and 
there are change orders and it takes longer than you expect, 
because once they get behind those walls in old buildings, they 
find things that they didn't expect because they don't know 
they are back there.
    So I would just strongly--while I appreciate that we put at 
least $10 million in in fiscal year 2018, we really need to 
seriously take a look at and consult with the Architect on, 
realistically, what we are going to need to bank so that we 
aren't--I mean, this is a little bit, you know? And so the 
percentage--you know, this is the smallest bill. And, you know, 
these projects can consume, you know, almost, you know, a 
tremendous percentage of our overall budget. And then we don't 
want to be in a situation where we are shortchanging the other 
needs that we have in the legislative branch. So I just wanted 
to make that point.

                            TREE MANAGEMENT

    And then if I can just ask the Architect one additional 
question.
    Last year, we had an AOC employee, Matt McClanahan, 
tragically pass away after a large tree fell on him. May he 
rest in peace.
    And I wanted to ask you, Mr. Ayers, does the AOC have a 
process for identifying problem physical elements on the 
Capitol Grounds? And did you conduct a review of this tragic 
incident, and what recommendations, if any, came from that 
review? And how are you working towards implementing those 
recommendations?
    Mr. Ayers. We did conduct a complete review of that 
incident and issued a report on that. And we worked closely 
with the Office of Compliance, hand-in-glove, along the way. I 
am sure they will issue a report soon, as well, on that.
    Our report gave us six recommendations. I have seen a draft 
of the Office of Compliance report. There is another four 
recommendations. Many of them overlap.
    Essentially, it comes down to having a good process where 
you evaluate all of those assets every single year; you 
document that. And that is not something that we were doing a 
good job at then. We have since rectified that.
    We have also, I would say, revised our standards. Today, we 
don't allow any high-hazard tree anywhere on Capitol Grounds to 
remain, and we will take that down. In the past, we may have 
had some high-hazard trees that were not in public areas that 
we might keep on and try to keep alive for a period of time. So 
we have changed our standards a bit.
    Another one of the important elements was to make some 
changes to ensure the long-term health of the trees on the 
Capitol campus by not doing any construction or having events 
that are under the trees. Doing that compacts the soil under 
the trees and is detrimental to their health. So we have made 
changes there and are working with people like Capital Concerts 
that are incredibly agile in what they do, and they are working 
with us to remove some of their infrastructure from under the 
trees at various events.
    They felt we were a little light on resources, so you will 
see an arborist and an urban forester request in our 2019 
budget. That will bring us from six certified arborists up to 
eight certified arborists.
    That was about it.

                        HOUSE RECYCLING PROGRAM

    Ms. Wasserman Schultz. Okay.
    Do you mind if I ask one more question? And then I am done.
    Just to follow up on what Ms. McCollum was asking you about 
the garbage pails. So it used to be--my office is in Longworth. 
It used to be that the recycling bin that took plastic had an 
orange bag in it. And so you knew the orange-bagged bin was 
where you placed your recyclable plastic. And then there was a 
paper--everything else was a paper bin.
    Now, for some reason, at least in my office, every one of 
those recycling bins has an orange plastic bag. In our office--
and I don't know if I am the only one in Longworth--they all 
have orange plastic bags. So there is no--I mean, I don't know 
whether we can--we don't know whether we can mix all the 
recyclables, paper and plastic, or you still need to put 
plastic in one and paper in the other.
    But do you--I assume you don't know why that change was 
made?
    Mr. Ayers. I don't know why that change was made, but----
    Ms. Wasserman Schultz. And if there could be some more 
clear direction on what to do with our recyclables if all the 
bags are orange, then that would be helpful.
    Mr. Ayers. I would be happy to do that.
    Ms. Wasserman Schultz. Thank you.
    Mr. Ayers. Sure.
    Mr. Yoder. Mr. Amodei.
    Mr. Amodei. Thank you.

                      TOUR OF U.S. CAPITOL GROUNDS

    So the only thing I would add is to thank you for the fact 
that you have been more than forthcoming in terms of making 
your different folks available for getting familiar with what 
is going on. More on the yard work people, and I will probably 
want to do another lap this year----
    Mr. Ayers. Excellent.
    Mr. Amodei [continuing]. Once whoever is in charge of the 
weather does a better job than they have been doing so far this 
year.
    And, other than that, I might want to talk with you about 
what you are doing with that wood after you cut it down on 
those hazard trees.
    Thank you, Mr. Chairman. I yield back.
    Mr. Yoder. The gentleman yields back.
    Does anyone have any further questions?
    Well, I think, at that, Mr. Architect, we are going to give 
you a reprieve and allow you to get back to work.
    Mr. Ayers. Thank you.
    Mr. Yoder. I appreciate your appearance today. We will 
continue to work with you as we proceed with this year's budget 
process.
    The subcommittee stands in recess until April 17 at 10:00 
a.m., at which time we will receive testimony from Members of 
Congress and outside witnesses. Meeting adjourned.
    [Questions for the record follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                           Tuesday, April 17, 2018.

                    OFFICE OF TECHNOLOGY ASSESSMENT

                                WITNESS

HON. MARK TAKANO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Yoder. Good morning, everyone. Welcome to the 
Legislative Branch Appropriations Subcommittee. We are in the 
process of working on our 2019 appropriations legislation. 
Having just completed our 2018 work a few weeks ago, we are 
right into 2019, and I have had a number of hearings. This is I 
think our fourth hearing so far of this process, and we will 
have a number of other additional hearings this week. This is a 
very busy couple of weeks for the Appropriations Committee. So 
there will be Members that will have conflicts at other 
hearings. So, of course, they are working somewhere and will 
attend when they are able to.
    We are here this morning to hear testimony from fellow 
Members of Congress as well as outside witnesses that submitted 
testimony relating to items within the jurisdiction of the 
Legislative Branch Subcommittee. This year's response was 
actually significantly higher than last year's, which I am 
pleased to see, and I speculate this is due in part because 
Ranking Member Ryan and I listened closely to the testimony we 
heard last year with an open mind and were actually able to 
move forward on a number of items that were the result of these 
open hearings that we had last year. One of them was making the 
Congressional Research Service reports available to the public 
for the first time, something that I am very proud of that was 
accomplished under this committee's work, as well as I was glad 
that the Tom Lantos Human Rights Commission, which does good 
work, has dedicated funding now to help further expand their 
bandwidth as a result of this hearing we had last year. And I 
look forward to hearing from this year's witnesses and welcome 
all of you here this morning to our hearing.
    Due to the number of witnesses we have here today, there 
will be four panels of outside witnesses. Additionally, we will 
fit in Members of Congress that wish to testify as they arrive. 
In an effort to be respectful of everyone's time and to ensure 
that we hear from all of today's witnesses, I ask those 
testifying to keep their remarks under 5 minutes, as your full 
written testimony will be entered as part of the record.
    I would like at this point to welcome to the committee my 
friend from California, Mr. Takano, who will be testifying 
about the Office of Technology Assessment funding.
    Actually, before that, I want to turn it over to my friend, 
Mr. Ryan, for his opening statement. My apologies.
    Mr. Ryan. I think Mr. Takano's comments are going to be 
more interesting than mine, but thank you. We have got a great 
opportunity today, as we did last year, to hear a lot about 
what is going on and the ideas that are out there, and I look 
forward to it. I appreciate the committee doing this.
    I yield back.
    Mr. Yoder. Mr. Takano, the committee is yours.
    Mr. Takano. Thank you, Mr. Chairman. I enjoy a great 
relationship with both you and the ranking member; you as the 
bipartisan co-chair of the Congressional Deaf Caucus and with 
Congressman Ryan, the ranking member, as one of the co-chairs 
of the Congressional Maker Caucus.
    Congressman Yoder and Ranking Member Ryan and members of 
this committee, thank you for the opportunity to testify this 
morning, and I am here to express my strong support for 
restoring funding to the Office of Technology Assessment, 
commonly known as the OTA.
    The foundation for good policymaking is accurate and 
objective analysis, and for more than two decades, the OTA set 
that foundation by providing relevant, unbiased, technical, and 
scientific assessments for Members of Congress and staff.
    But, in 1995, the OTA was defunded, stripping Congress of a 
valuable resource to understand emerging technologies as well 
as the nuances of the legislative process. In its absence, the 
need for the OTA has only grown.
    Last week's hearings on Facebook's data security practices 
exemplified the increasingly complex, technical issues that 
this Congress and future Congresses will be responsible for 
addressing.
    Now, if we are going to be effective policymakers in the 
digital age, we must develop a better understanding of the 
technologies that are transforming our daily lives. Existing 
sources of research and information, including the Government 
Accountability Office and the Congressional Research Service, 
provide excellent support to Members and staff, but no entity 
has both the capacity and the expertise to provide indepth 
analysis of complex technical issues.
    A relative modest investment in the OTA will not only fill 
a critical void, it will also save us money. In the last year 
that it operated, the OTA's budget was $23 million, but its 
studies on the synthetic fuels corporation saved taxpayers tens 
of billions of dollars.
    Perhaps most importantly, the OTA is an intentionally 
bipartisan organization. Before it was defunded, it was 
governed by a director and a technology assessment board. The 
director was nonvoting, and the board was comprised of six 
Members from the Senate and six Members from the House, split 
evenly between the majority and the minority.
    This bipartisan governance ensures that studies remained 
unbiased and looked into the issues of relevance for both 
parties. Now, members of Congress bring a great deal of 
experience and expertise on a number of issues, but we must 
acknowledge our blind spots. When it comes to the policy 
challenges presented by new technology, we are not seeing all 
of the relevant issues. With that in mind, I urge you to 
support funding for the Office of Technology Assessment.
    Thank you. I yield back.
    [The prepared statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Yoder. Mr. Takano, thanks for your testimony this 
morning.
    Can you tell the committee how you see the OTA, their 
unique perspective, and what they are capable of doing that you 
don't believe the GAO or CRS is able to do? Why do we need to 
create this additional entity, and what can it do that those 
other entities can't?
    Mr. Takano. Well, no agency has stepped in to fill the void 
since OTA was abruptly defunded in 1995. CRS provides excellent 
support to Members and staff, but they do not complete the same 
type of forward-looking, thorough analysis with prescriptive 
policy suggestions.
    Now, OTA staff were experts in their fields, but they also 
understood Congress and the policymaking process. The National 
Academies are a vital Federal resource, but their studies take 
time and funding, and those studies are targeted to a much 
wider audience. So there is really no entity that really 
specifically is Congress' tool, and it is important to have 
Congress--Congress needs its own advisers that are seen as 
unbiased, that are not industry, that are not from the 
administration, and that specifically understand how Congress 
operates.
    Mr. Yoder. Mr. Ryan.
    Mr. Ryan. I just want to say thanks for bringing this issue 
up. I think you are right: We did see last week how much this 
body lacks an understanding of technology, social media, the 
business model that a lot of these companies are running. So I 
want to say thanks.
    Is there a particular amount? I didn't see it in here. I 
know you said it was a $23 million request the last year it 
operated.
    Mr. Takano. We are asking for $2.5 million, which is I 
think----
    Mr. Ryan. 2.5?
    Mr. Takano. Which is a modest investment just, again, to 
get the office back underway.
    Let me just say that I want to bring up one other topic. 
You might recall just a couple of years ago this issue of 
encryption and whether Congress should intervene more in terms 
of whether companies like Apple should--we should regulate how 
much they encrypt their phones.
    Who are we going to turn to for some unbiased advice? We 
can't rely on Apple. We can't necessarily rely on the FBI, in 
terms of how they might slant this policy question. That is a 
perfect example of how, for a body of 435 Members, what source 
are we going to turn to for an unbiased evaluation of, say, 
encryption issues.
    So I think it is well past overdue that Congress look at 
funding anew an agency that really has never died; it was just 
defunded. So $2.5 million I think is a modest beginning, but it 
is an important beginning.
    Mr. Ryan. I appreciate that. I think we should get a better 
understanding, Mr. Chairman, of exactly what CRS is doing and 
just kind of understand that better as we evaluate this.
    So I appreciate you bringing it up.
    Mr. Takano. Thanks.
    Mr. Yoder. Thanks for coming to the committee this morning, 
Mr. Takano.
    Mr. Takano. Thank you.

                   TOM LANTOS HUMAN RIGHTS COMMISSION


                               WITNESSES

HON. RANDY HULTGREN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
HON. JAMES P. McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Yoder. Gentlemen, welcome back to the committee. I note 
that you were some of our witnesses last year when we had our 
first open hearing and had a number of topics that we worked on 
based on those hearings. One of them was your support and 
advocacy for the Tom Lantos Human Rights Commission.
    I think we were able to make some progress in our bill. I 
would like to certainly hear how that is going. We will have 
your written remarks in the record. So you are welcome to 
utilize those remarks as much or as little as you like, and we 
extend you whatever courtesies you would like to testify before 
the committee of Mr. Ryan and myself.
    I know you guys are a good duo, so I will let you guys take 
it from here, however you want to proceed.
    So welcome back, Representative Hultgren and Representative 
McGovern, to the committee.
    Mr. Hultgren. Thank you, Chairman Yoder. Thank you, Ranking 
Member Ryan. I appreciate all that you have done for us and 
always so grateful. Co-chairman McGovern just does a great job 
on this, and we really work together well. I thank you for the 
opportunity to be able to be here. I want to start by thanking 
the subcommittee for the report language it issued subsequent 
to reviewing our testimony in this matter last year, as you 
mentioned, Mr. Chairman.
    My request today builds on that favorable decision; that 
is, I ask for inclusion of language in the fiscal year 2019 
Legislative Branch Appropriations bill to provide $230,000 for 
salaries and expenses for professional staff for the Tom Lantos 
Human Rights Commission, an official bipartisan body of the 
House of Representatives.
    As Congress' premier human rights oversight body, the 
Commission is committed to promoting and advocating 
internationally recognized human rights norms. I believe the 
commission continues to fulfill its mission with distinction, 
having conducted more than 15 hearings and almost as many 
briefings during the 115th Congress.
    These hearings and briefings cause foreign governments to 
pay close attention to the concerns of Congress and serve as an 
important platform for civil society to keep Congress apprised 
of human rights conditions around the world.
    Additionally, the Commission develops congressional 
strategies to promote, defend, and advocate internationally 
recognized human rights norms; raises awareness amongst 
Members, their staff, and public regarding human rights 
violations and developments; provides Members and staff with 
expert human rights advice and information; advocates on behalf 
of individuals whose human rights have been violated; and works 
closely with the President, executive branch officials, and 
internationally recognized human rights entities in promoting 
human rights initiatives in Congress.
    In carrying out its broad, global mandate, the Commission 
has done its work and served as bipartisan members through a 
rotating patchwork of temporary fellows and volunteers. What 
has been missing historically, however, is funding for 
professional staff.
    Until this year, no funds have been specifically dedicated 
or allocated to the Commission for this purpose. Our purpose 
today is to seek to ensure that funding is available for fiscal 
year 2019 and, more generally, to regularize the funding stream 
for the Commission.
    Our modest request of $230,000, which I know is supported 
by my colleagues, my good friend and distinguished co-chairman 
of the Commission, Jim McGovern, will allow us as co-chairs to 
hire or maintain dedicated full-time personnel, thus greatly 
increasing the effectiveness and expertise of the Commission, 
as well as amplifying Congress' important voice on human rights 
and foreign policy.
    Thus, I would respectfully suggest adding a new provision 
to the legislative branch appropriations bill to finance 
salaries and expenses for professional staff for the Tom Lantos 
Human Rights Commission in the amount of $230,000 for fiscal 
year 2019. Again, these funds would be administered through the 
House Foreign Affairs Committee in keeping with the 
Commission's establishment resolution.
    I am deeply grateful for this opportunity to speak with you 
today, and I want to thank you so much for your consideration 
of this request and the progress that has already been made on 
this.
    With that, thank you, and I yield back.
    [The prepared statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Yoder. Mr. McGovern.
    Mr. McGovern. Thank you, Mr. Chairman and Mr. Ranking 
Member.
    I agree with him. Without repeating everything he just 
said, I mean, we have a modest request for $230,000. We 
appreciate the subcommittee's report language and your 
recognition of the incredible work that the Tom Lantos Human 
Rights Commission does.
    It is a bipartisan commission. I am honored to serve with 
Mr. Hultgren. We have participation by Democrats and 
Republicans, all focused on the issue of promoting human 
rights. We were happy that the House Administration came up 
with some funds for this year out of their reserve. The problem 
is the money has to be used by the end of the year, and we 
don't know whether or not it will continue next year or the 
year after.
    So, as Mr. Hultgren said, we are looking for some certainty 
so we can hire professional staff and we can keep them and we 
can continue our work.
    I think some people might have concerns that funding this 
through Leg Branch could somehow open the floodgates for 
funding requests from House caucuses, but I don't think this 
should be the case because the Commission is not an affinity 
group nor is it a caucus. It does not appear on House 
Administration's list of congressional membership 
organizations. This is because the Commission is established 
under the rules of the House as a unique and independent 
entity. It was created by the 110th Congress pursuant to House 
Resolution 1451 adopted unanimously in September of 2008. Its 
authorization has been renewed by every Congress since, most 
recently in the House rules for the 115th Congress.
    Again, I think everybody recognizes the importance of the 
Commission, but I think what we need is to have some sort of a 
carve-out here so we can operate. As I said, we can't depend on 
the House Administration reserve funds. The House Foreign 
Affairs Committee doesn't want to be the entity to oversee us.
    So, anyway, I want to just conclude by saying we would very 
much appreciate if you could help us with this.
    Mr. Yoder. Gentlemen, I appreciate your testimony today, 
and I certainly think all of us in Congress appreciate your 
work on the Commission. I have heard nothing but positive 
comments and support.
    I think the issue you have highlighted in particular, Mr. 
McGovern, that we wrestle with is whether to create a specific 
line item or whether to have it directed under other entities.
    Mr. McGovern. I hope I gave you enough cover.
    Mr. Yoder. Why is it so critical that the committee give a 
specific line? How will that help you do your work?
    Mr. McGovern. Well, my colleague may have an answer here as 
well, but look, we don't have any certainty. We do a lot of 
work in this Commission. We have some great staff. We need to 
keep them. We can't just run this on a volunteer basis. Quite 
frankly, this is a full-time job.
    Again, we are grateful to House Administration for coming 
up with some money that they found in their reserves, but, you 
know--and it is great we have some money to pay people this 
year, but I can't tell anybody that we will have money to pay 
them next year.
    And so I think, for continuity and for certainty and for us 
to be able to do the work that everybody appreciates, I think a 
separate line item would be helpful.
    Mr. Hultgren. Just quickly for me, again, I am amazed at 
the stuff we have been able to get done without having funding, 
where it really has been by fellows, by volunteers. But I just 
think there is so much more that needs to be done. There has 
never been more challenges to human rights, I think, ever in my 
lifetime than right now. We have some amazing people who are 
dedicated to these issues.
    The reality is too many of these human rights challenges 
aren't done in a year. They might be decades that we are 
working on it. So we need people who are committed to this who 
can plan for their own families and see that this is something 
that brings us together, that is bipartisan, and the challenge 
is taking that step and seeing that this is unique. It doesn't 
open up opportunities for any anyone else. There is nothing 
else, I don't think, like the Tom Lantos Human Rights 
Commission, even in the name. But, again, the history of this 
from the very beginning was bipartisan. So this will allow the 
Commission to continue to be effective, increase effectiveness, 
and then also just have that longevity where I think there are 
entities out there that just kind of I think hope we are just 
going to go away and kind of put up with us raising these 
issues thinking that, well, maybe they won't be the same group 
speaking up next year. We want to make sure that doesn't 
happen, that we are that continued strong voice for those 
people who don't feel like they have got a voice right now.
    Mr. Yoder. Mr. Ryan.
    Mr. Ryan. I just say thank you. I appreciate the work of 
the Commission. I think you both touched on it. I don't think 
there has ever been a time in the world's history where we have 
had so many challenges with regard to human rights. I think for 
the United States Congress to have a voice in highlighting 
these issues is really, really important. So thank you for 
carrying the mantel on this.
    One question I have, I think we have underutilized the 
Congress--I don't think I am alone in that sentiment--in 
pushing out our values to the world through our travel, through 
our visits to these countries. Is there anything that the 
Commission does with Member travel that helps coordinate trips 
that maybe we are going to go on anyway to give us an 
opportunity to highlight?
    I think that would be a very valuable tool for us to have. 
As we are going out and about in the world--we go to the 
military bases, we go to the conflict zones--is there an 
opportunity for the staff or staffing to help maybe put a finer 
point on our use of our own time and resources to continue to 
highlight this as Members are around and about?
    Mr. Hultgren. I think it is a great point. I do think it 
has happened a little bit, where we have done some of that 
coordination, but I think it can be so much more, just, again. 
With just a really modest request of $230,000, that would help 
us I think to have that broader view of where people are 
traveling to and making sure they have got the information and 
speaking up for people who are imprisoned there for abuses that 
are happening.
    Mr. Ryan. That would mean a lot.
    Mr. Hultgren. Some of that is happening, but usually it is 
the Members who are coming to get that information, rather than 
us being a little bit more proactive of finding where people 
are traveling to and getting them that information.
    Mr. McGovern. We provide Members who are traveling with, 
you know, information on human rights defenders, on the human 
rights situation in countries, suggested people for them to 
visit, suggested topics for them to raise with our embassy and 
with foreign governments. So we do that.
    We don't have--the staff cannot travel anywhere, because 
there is no budget for them to travel. That would be helpful 
because they could accompany some of these delegations, and 
they could be more useful. But we would like to expand that. 
The whole purpose of the Commission is to raise the issue of 
human rights, not just having hearings, but to get people 
information so they can be better advocates.
    We have launched this Prisoners of Conscience Campaign 
where we have actively sought out Members to adopt prisoners of 
conscience so they take their case on and highlight what is 
happening to these individuals. But we would like to do more of 
that.
    Mr. Ryan. Great.
    Thank you, Mr. Chairman.
    Mr. Yoder. Gentlemen, thank you for taking the time to come 
to testify this morning.
                              ----------                              --
--------

                                           Tuesday, April 17, 2018.

                       INTELLIGENCE AND SECURITY


                               WITNESSES

KEL McCLANAHAN, EXECUTIVE DIRECTOR, NATIONAL SECURITY COUNSELORS
MANDY SMITHBERGER, DIRECTOR OF THE CENTER FOR DEFENSE INFORMATION
SAMANTHA FEINSTEIN, GOVERNMENT ACCOUNTABILITY PROJECT
    Mr. Yoder. Okay. As part of our open hearing effort this 
morning, we are going to take testimony from a number of 
members of the public who have issues they would like to bring 
before Congress and they would like to have this committee 
consider.
    We have broken those witnesses down in four different 
panels, and we will start now with panel number one. So I would 
call forward Kel McClanahan, Mandy Smithberger, and Samantha 
Feinstein.
    Good morning. Welcome to the committee. Thank you for 
taking the time to testify this morning and share your insights 
on the topics that you are bringing forward. We have grouped 
the panels based upon subject area. So I think the first panel 
will be related to intelligence and security. Certainly, the 
floor is yours when you want to testify on topics you bring 
forward.
    I think we are going to begin with Mr. McClanahan. We will 
have your testimony in the record. So to the extent you can 
summarize it, that would be great, as we have a number of folks 
coming to testify this morning. I appreciate your time.
    Mr. McClanahan.
    Mr. McClanahan. Thank you for having me here. I am the 
Executive Director of National Security Counselors. This is a 
nonprofit law firm that deals with, as the name would suggest, 
national security law matters. We tend to represent people like 
intelligence community employees, intelligence community 
contractors, and the like.
    I am here to testify today about something that should be a 
bit of a noncontroversial issue: the idea that GAO should be 
able to investigate the entire executive branch when it is 
asked to.
    The problem is a large segment of the Federal bureaucracy 
is considering itself exempt from GAO purview, and that would 
be the intelligence community. This has been going on for many, 
many years. I have the testimony of previous OMB members--
sorry, previous GAO officials who have been complaining about 
this for decades.
    In 2001, a high-ranking GAO official announced that they 
had not investigated the CIA since the early sixties because, 
quote, ``We discontinued such work because the CIA was not 
providing us with sufficient access to information to perform 
our mission,'' and that they, quote, ``made a conscience 
decision not further pursue the issue,'' and that they even had 
to resort to subterfuge in order to get any information from 
the CIA, saying: We are most successful at getting access to 
CIA information when we request threat assessments and the CIA 
does not perceive our audits as oversight of its activities.
    That right there is the problem: anything that hints of 
oversight is rebuffed.
    Fast forward a few years later and you have another GAO 
official saying that: We foresee no major change in limits on 
our access without substantial support from Congress, the 
requestor of the vast majority of our work.
    That is why I am here today: to ask you to provide the 
substantial support from Congress that they have been asking 
for.
    So, why is this? It seems that it wouldn't happen. But back 
in 1988, the Office of Legal Counsel at DOJ came out with this 
remarkable opinion that said two really noteworthy things. The 
first was that, because GAO was supposed to investigate 
programs or activities the government carries out under 
existing law, intelligence was exempt from that because it was 
the executive discharged of its constitutional foreign policy 
responsibilities, not its statutory responsibilities; 
therefore, it is not law, and, therefore, GAO cannot do 
anything.
    Then it followed that up and said: Even if GAO could have 
investigated it, it no longer could, because when the 
intelligence oversight committees were created, the Congress 
knowingly intended to strip GAO of authority by giving 
exclusive dominion over intelligence oversight to those two 
committees.
    So what happened then?
    Well, Congress tried to fix this several times but most 
notably in 2010 when the House passed a version of the fiscal 
year 2010 Intelligence Authorization Act that basically said 
that the DNI shall cooperate with GAO. And OMB threatened a 
veto. It cited to the OLC opinion from 1988, and then-Acting 
Comptroller General Gene Dodaro wrote a letter that thoroughly 
refuted this and even said that the IC's resistance has greatly 
impeded GAO's work for the Intelligence Committees and also 
jeopardized some of GAO's work for some other committees of 
jurisdiction, including Armed Services, Appropriations, 
Judiciary, and Foreign Relations, among others.
    But Congress, for its part, gave the executive branch a 
chance to do the right thing. They passed a law that ordered 
the DNI to issue a directive governing GAO access. And the DNI 
issued Intelligence Committee Directive 114 that says the 
intelligence agencies shall only cooperate with GAO on matters 
that don't fall within the purview of the congressional 
intelligence oversight committees, which is basically nothing.
    So, we are right back where we started. And why is this a 
problem?
    A few reasons. Most notably, logistics and expertise. GAO 
is an agency. It has a tremendous number of workers. In 2009, 9 
years ago, 199 GAO staffers had top secret clearances. Ninety-
six had sensitive compartmented information clearances. In 
2018, when I checked yesterday, there were a total of 35 Senate 
Select Committee on Intelligence staffers and a total of 37 
House Permanent Select Committee on Intelligence staffers. So 
more staffers at GAO had SCI clearance than the entire staff of 
both oversight committees. That is just the math.
    GAO has expertise. It was designed to investigate agencies. 
It was designed to audit agencies to look for things that were 
problems: waste, fraud, and abuse, and whatnot. With all due 
respect to even the most brilliant oversight committee, that is 
not comparable experience.
    The main reason that this hasn't gotten anywhere is that, 
in 2001, they told you: We made a conscience decision not to 
further pursue the issue.
    I understand that Mr. Dodaro is coming to testify this 
afternoon. If you were to ask him, how many times has the 
executive branch rebuffed attempts to conduct audits, he would 
probably say none. And the answer and the reason for that is 
because they don't even ask. And that is a problem.
    [The prepared statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Yoder. Mr. McClanahan, thank you for your testimony. 
That is an issue that has not been raised before this committee 
during my tenure. So it is something that we are certainly 
going to have to study a little further. Certainly, you raise 
something that I think we have not considered in recent years. 
It is interesting that Leon Panetta was one who pursued this 
matter and then, of course, later led the CIA.
    Do you know what sort of budgetary impact this would have 
if the GAO took on this responsibility, was allowed to take on 
this responsibility? Do we have an idea of the scope of work 
they would need to entertain and how many people? I am sure 
they can't just absorb this within their current workload.
    Mr. McClanahan. To my understanding--and I would defer to 
my colleagues who might know more about the inner workings of 
the GAO on this--GAO takes a finite number of investigations. 
How they choose that is their own internal deliberations. This 
isn't asking them to take on new ones; it is just opening up 
the universe of investigations they can take on.
    So, if they can only take on 500 investigations a year, 
they still can only take on 500 investigations a year, but now 
some of this can pertain to the intelligence community.
    Mr. Yoder. Mr. Ryan.
    Mr. Ryan. It is a very interesting issue, one that I have 
not heard of either. So I appreciate you coming and bringing 
this to our attention.
    I do a lot of work on my Defense Appropriations 
Subcommittee around in this world, and I think, given 
everything that we have experienced going back to 9/11, the war 
in Iraq, we can go back further than that obviously, but in 
modern history, this is a very interesting idea, and I 
appreciate you bringing it to the committee's attention.
    Mr. Yoder. It merits further discussion.
    Mr. Ryan. Yes. Absolutely. Thank you.
    Mr. Yoder. Thank you, Mr. McClanahan.
    Now we are going to move to Ms. Smithberger, the Director 
of the Center for Defense Information.
    Ms. Smithberger. Thank you so much for having me today.
    I just want to associate myself with Mr. McClanahan's 
testimony and just also point out I think as far as the 
workload goes, something to take into consideration, a lot of 
GAO's work, there are other bodies that can do it because it is 
unclassified, but GAO would have a unique opportunity to do 
oversight in this area that I think would be worth your 
consideration.
    Mr. Yoder. I will mark you down as a supporter, as well.
    Ms. Smithberger. Yes. Thank you.
    Thank you for allowing me to testify on behalf of Demand 
Progress and the Project on Government Oversight about ways to 
strengthen congressional oversight of our national security 
spending and operations.
    The Church Committee and Pike Committee famously identified 
abuses in the intelligence community. In response, Congress 
implemented a number of important reforms like the 
establishment of the Select Intelligence Committees and 
expanding Congress' access to classified information. Since 
then, at the behest of the executive branch, Congress has 
limited its own access to classified information. At the same 
time, the number of employees and contractors who have security 
clearances has expanded significantly--we have nearly 4 million 
people holding clearances--and spending has also increased. So 
the need for Congress' oversight is more important than ever.
    Congress has not come close to keeping pace to maintain its 
own capacity to conduct oversight. Specifically, we would like 
for the committee to consider allowing each member of the House 
Permanent Select Committee on Intelligence, the House Defense 
Appropriations Subcommittee, and the House Armed Services 
Committee, some of the key committees for conducting oversight 
over national security and intelligence operations, to receive 
a TS/SCI clearance. This reform has broad, bipartisan support 
and would strengthen oversight.
    I appreciate that you all are appropriators, and this is 
where money really counts. We believe that the costs are going 
to be relatively marginal, given the importance of the work. 
For instance, most of these offices will already have a staffer 
with a top secret clearance, and the investigation used to 
determine whether they should have received that clearance is 
likely going to be able to be reused for a TS/SCI clearance.
    I think in a number of instances, offices already have 
staff members who have had TS/SCI clearances and it would be a 
matter of, quote/unquote, ``turning it on.'' I know that I had 
a TS/SCI clearance before I came to Congress, but then once I 
came into a personal office, I no longer had it. But that 
investigation was already completed.
    In the worst-case scenario, let's assume that none of these 
offices have anyone with a top secret clearance and that there 
needs to be the investigations conducted. We believe the cost 
would be about $500,000 over 5 years, or $100,000 a year.
    We also appreciate that Congress and the executive branch 
are concerned about expanding access to classified information. 
We think that, again, it is important, though, for Congress to 
be able to effectively conduct oversight for you all to be able 
to look into these matters, but moreover, we would urge the 
committee to support more robust counterintelligence training.
    We think that if staff members understand what happens when 
you mishandle classified information, when you leak classified 
information, particularly the harms to sources and methods, 
that they will treat the seriousness of this information and 
this work in a way that they will safeguard it. I will also 
note that we are much more aware of breaches coming from the 
executive branch than we are from Congress.
    Finally, I would say my group, the Project on Government 
Oversight, rarely argues for spending more money, but in this 
instance, we urge you to invest in fulfilling your 
constitutional duties.
    Thank you, and I look forward to your questions.
    [The prepared statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Mr. Yoder. Thank you for your testimony, Ms. Smithberger.
    You said the Senate does allow the TS/SCI for their staff.
    Ms. Smithberger. Right. They have those designees 
specifically for Senate Intelligence.
    Mr. Yoder. And the House has never done that?
    Ms. Smithberger. Correct.
    Mr. Yoder. Do you know what the reasoning has been, what 
the difference is?
    Ms. Smithberger. I think the House doesn't stand up for its 
own oversight powers like they should, to be honest.
    Mr. Yoder. Now you are playing to the crowd. I see what you 
are doing. It is time to stand up.
    Ms. Smithberger. I think, one, there are reasons why there 
is reluctance to expand access to clearances and this 
information, and I understand that, but I think the Senate has 
demonstrated that this kind of system can be handled 
responsibly. I think it has really resulted in being able to 
have more robust oversight.
    One of the great things about committees is the diversity 
of the points of views of Members. If they have their own 
personal staffer who can pursue issues of interest, I think 
there are a lot of oversight opportunities that are being 
missed. I think there is a lot in IT spending, for example. As 
we were talking about, Cambridge Analytica, propaganda, I think 
a lot of this information is essential for staff to know to be 
able to puncture the propaganda efforts of other foreign 
countries to know what our real interests are and to make 
better policy decisions.
    Mr. Yoder. What concerns should Congress have about adding 
all of these new clearances, though? Wouldn't one of the 
drawbacks be potential for leaks of this information?
    Ms. Smithberger. Oh, that is certainly a concern, but that 
is why I think it is important to have more robust training and 
retraining to make sure that people are properly handling this 
information. We have found that staff are very responsible for 
this information.
    We would also point out that, unlike in the executive 
branch, congressional staffers don't even have any 
whistleblower protections to be able to give this information 
out to others. And so there would be severe consequences for 
anyone who mishandled this information.
    Mr. Yoder. I think we are going to hear some testimony on 
that, as well.
    Mr. McClanahan. I have some information on that, if you 
wish to hear.
    Mr. Yoder. Let's continue on with our testimony. We can 
come back to that if we want additional information.
    Mr. Ryan.
    Mr. Ryan. I am good.
    Mr. Yoder. Thank you for your testimony, Ms. Smithberger.
    Now we are going to move onto Ms. Feinstein with the 
Government Accountability Project. Thank you and welcome to the 
committee.
    Ms. Feinstein. Chairman Yoder, Ranking Member Ryan, thank 
you for the opportunity to speak with you today.
    My name is Samantha Feinstein. I am the international 
legislative and policy analyst at the Government Accountability 
Project, and I respectfully request that the House of 
Representatives establish a whistleblower resource center in 
fiscal year 2019 appropriations.
    Under the False Claims Act, whistleblowers have helped 
return an average of $3 billion to $5 billion a year to the 
United States Government. As such, whistleblowers play a vital 
role in our democracy, but they are often going against a 
bureaucratic giant. As such, they risk everything when they 
make a disclosure, and it takes a great amount of courage to 
come forward. Our hope is that establishing a whistleblower 
resource center would help handle whistleblower claims 
responsibly.
    The Government Accountability Project has helped an average 
of 8,000 whistleblowers over the last 40 years, and 7,000 of 
them have sought our informal advice on how to maximize their 
impact and minimize their pain.
    We know from experience that working with Congress can 
provide a vital lifeline. They are the best allies for 
whistleblowers. For instance, Franz Gayl exposed that the 
Marines for a year and a half during the Iraq war didn't send 
mine-resistant vehicles to Iraq and Afghanistan. They had about 
1,000 of them. After congressional intervention, they sent the 
vehicles to Iraq. Unfortunately, 1,000 lives died needlessly 
while they were sitting on bureaucratic red tape. Once the 
vehicles were deployed or shipped to Iraq, the fatalities went 
down from 60 percent to 5 percent from land mine-related 
accidents.
    Unfortunately, for a whistleblower, going to Congress can 
also be the highest risk for them. One common mistake that 
congressional staffers make--often in good faith while trying 
to help them--is, you know, first reaction, question the 
agency. Sometimes, in questioning the agency, staffers will 
send evidence provided by the whistleblower that can expose 
identifiable information about the whistleblower and open them 
up to vulnerability.
    Another common mistake is limiting the confidentiality to 
identity protection but not figuring out what other identifying 
information about the whistleblower in advance would protect 
them and accidentally exposing that. For instance, in hard-
hitting questions during testimony, some of that information 
could come about.
    A third common mistake is going to the media and law 
enforcement with evidence. Sometimes they don't have the 
knowledge about the confidentiality of the whistleblower, and 
they can also open the whistleblower up to exposure and danger. 
When this happens, the agency will increase their retaliation 
because they see them as a danger to the agency, and it could 
make things a lot worse for the whistleblower, and this has a 
chilling effect.
    So establishing a whistleblower resource center can help 
with training and providing resources for Congress on how to 
communicate with whistleblowers. These are avoidable mistakes, 
and we think that the center will help address that problem.
    Another goal of the center is to facilitate communications 
between whistleblowers and the appropriate congressional 
offices and committees for their matter, based on the subject 
of their claim. The whistleblower resource center wouldn't 
necessarily investigate the claim. That would fall within the 
offices and the committees to do that, but they would be a 
resource for them.
    Moreover, in conclusion, whistleblowers are extremely 
important to our democracy, and this would provide a safe 
channel for them and a secure way of submitting evidence. If 
there is a secure mechanism for providing information to 
Congress to the resource center, we think this could provide 
the vital lifeline for communications between whistleblowers 
and Congress.
    Thank you.
    [The prepared statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Yoder. So the way I understand your proposal, this 
entity would not do the investigation; it would just provide 
resources for potential whistleblowers to understand the 
process, their rights, how to direct their complaint so that it 
doesn't get lost. Is that sort of how you envision this?
    Ms. Feinstein. That is exactly correct: so that it doesn't 
get lost and/or mishandled.
    Mr. Yoder. Mishandled. I know we have some resources in the 
Office of Government Reform Committee's Blow the Whistle 
service. How would this differ from that?
    Ms. Feinstein. Well, the resource center would provide a 
secure mechanism for communicating, which I think is really 
important, and we recommend that the whistleblower resource 
center be established as an independent apolitical entity so 
that there is no risk or interference for--or, at least to 
mitigate the risk for interference from politics.
    Mr. Yoder. So we keep both entities or would your entity 
sort of remove the OGR Blow the Whistle service out into its 
own separate entity?
    Ms. Feinstein. I don't think it should duplicate existing 
efforts or replace existing efforts.
    Mr. Yoder. I think independence is part of your proposal, 
the value of your proposal.
    Ms. Feinstein. Exactly. Independence, security, provision 
of resources, facilitating communications. But I think it could 
work with other entities that support whistleblowers. The 
Office of Congressional Oversight is another one that provides 
education and training. I think it is important not to 
duplicate existing efforts.
    Mr. Yoder. Mr. Ryan.
    Mr. Ryan. First, I want to say thank you. You are doing 
amazing work. I think one of the things we rely on in Congress 
in this country that we have kind of gotten away from is the 
citizenship aspect of how this whole country needs to go down. 
I just want to say thank you to each of you who probably live 
and breathe this work every day. It is very meaningful to you, 
and it is very meaningful to us. I just want you to know we 
appreciate you taking the time out of schedules, as busy as you 
are, to come here and continue to advocate for this. So thank 
you.
    A question on the whistleblower thing. Is this something we 
could roll into the Office of Compliance? Have you thought 
about that? Obviously, that office has gotten a lot of 
attention over the last 6 months to a year. Is this something 
that would fit in there? I know you mentioned it being 
independent. If you could just share your thoughts on that.
    Ms. Feinstein. That is exactly our line of thinking. I 
think the independence aspect of this is going to be just the 
thing to get the risk for whistleblowers to be way down from 
what it is now, but I also think it is incredibly important to 
work with the Office of Congressional Oversight. They do really 
great work as well, so I think it would complement what they 
do. There is always the possibility to consider modifying the 
idea. That is not our recommendation.
    Mr. Ryan. When you say ``whistleblower,'' what do you mean 
by that? We all have different versions of what that may mean. 
What are the issues that you think would be relevant in this 
office? You open it up. We staff it up. What kind of issues are 
we going to hear about that you think aren't being heard about 
right now?
    Ms. Feinstein. That is a great question.
    Mr. Ryan. Thank you. I didn't even get my staff to write 
that one for me. I did that all on my own.
    Ms. Feinstein. Awesome. That is a terrific question. 
Whistleblowers expose waste, fraud, abuse, and mismanagement. 
They come from various industries, from farming to agriculture 
to health to the intelligence community, national security.
    I think that there needs to be a resource center that can 
direct various types of disclosures and various types of 
protected speech that falls within the general framework of 
waste, fraud, and abuse.
    Mr. Ryan. Do you see this coming mostly from committee 
staff, with regard to Capitol Hill, or personal staff? The 
whistleblower. I am just thinking of the detailed knowledge of 
programming. A lot of that, in my mind, would come out of a lot 
of our committee staff.
    Ms. Feinstein. Exactly. So what I envision the 
whistleblower resource center doing is providing the list of 
all of the appropriate committees that they may contact and the 
appropriate offices. Because if the office has the right 
jurisdiction and the right amount of leverage, they can make 
more of a difference than just acting on their legal rights 
alone.
    So they wouldn't necessarily stipulate which committee they 
must contact or which office they must contact. There are 
certain committees that are dedicated to protecting 
whistleblower rights. So that is a natural first ally for 
whistleblowers for navigating the process.
    Mr. Ryan. Thank you.
    Ms. Feinstein. Thank you.
    Mr. Yoder. Okay. Ms. Feinstein, I appreciate your testimony 
today. Ms. Smithberger and Mr. McClanahan, thank you. I know 
Mr. Ryan and I and the Congress have benefited by your time 
today and your testimony. I know we will be looking very 
closely at these proposals, and hopefully we can move forward 
on some of these things.
    Thank you for being here. I appreciate it.
                              ----------                              --
--------

                                           Tuesday, April 17, 2018.

                          LIBRARY OF CONGRESS


                               WITNESSES

JOHN PARE, NATIONAL FEDERATION OF THE BLIND
GREG LAMBERT, PRESIDENT, THE AMERICAN ASSOCIATION OF LAW LIBRARIES
KEVIN KOSAR, VICE PRESIDENT OF POLICY, R STREET INSTITUTE
    Mr. Yoder. We will call forward the second panel, which 
will be dealing with topics on the Library of Congress. I call 
forward John Pare, Greg Lambert, and Kevin Kosar.
    Gentlemen, welcome to the committee. Thank you for taking 
the time to testify today. I will note that your testimony will 
be placed in the record. So, to the extent that you can 
summarize your comments, we look forward to hearing your 
thoughts and having a little dialogue and moving forward.
    With that, I will start with John Pare with the National 
Federation of the Blind.
    Mr. Pare. Thank you.
    Chairman Yoder and Ranking Member Ryan, thank you very much 
for this opportunity to testify today before the committee. As 
you heard, my name is John Pare. I am the executive director 
for advocacy and policy at the National Federation of the 
Blind. I am here today to testify on behalf of the NFB. The 
National Federation of the Blind is the largest organization of 
blind people in the United States. We have over 50,000 members, 
with affiliates in all 50 States, the District of Columbia, and 
Puerto Rico.
    I want to thank the committee for your terrific support of 
the National Library Service for the blind and physically 
handicapped. NLS serves 450,000 patrons, has 85,000 audio books 
and 62,000 hardcopy braille books.
    NLS was the first service that I began using when I started 
losing my eyesight 25 years ago, and I still use it to this 
very day. The most recent book that I have read on NLS is ``Hue 
1968'' by Mark Bowden, a book about the Vietnam war and the TET 
offensive, and I highly recommend it.
    When one begins to lose his or her eyesight, we can feel 
isolated, uninformed, and disconnected from everyday society. 
NLS allows blind people to obtain the information we need in an 
accessible format. On behalf of all blind Americans, I want to 
thank you for this educational, informative, and entertaining 
service.
    Next, I want to comment on the importance of refreshable 
braille displays, also known as E-readers. Braille is essential 
for literacy, and refreshable braille displays make braille 
more efficient, practicable, and compact.
    A 2016 GAO report entitled ``Library Services for Those 
with Disabilities'' ' said that NLS could save up to $10 
million per year by moving primarily to electronic braille 
distribution and servicing hardcopy braille requests on an on-
demand basis. This means that we could better serve our 
patrons--or NLS could better serve its patrons for less money.
    This transition would require a one-time additional 
appropriation of approximately $5 million so that NLS could buy 
the initial inventory of refreshable braille displays. We urge 
you to support this request when NLS makes it, which we expect 
to be in fiscal 2020.
    The National Federation of the Blind strongly supports the 
relocation of the National Library Service to a more prominent 
location near the Library of Congress. Such a location would 
promote the collaboration between NLS and other government 
agencies, would allow blind patrons to visit the NLS using mass 
transit, and would help educate the general public about the 
true capabilities of blind people.
    I want to thank the committee for including funding for an 
audible newspaper service. Obtaining time-sensitive information 
in an accessible format is especially difficult, and NLS does 
an excellent job in this area.
    Increased literacy is a stepping stone to education, which 
is the foundation of employment, which in turn is critical for 
the all blind Americans to achieve their full potential.
    The NLS has been an important factor in my life, as well as 
the lives of tens of thousands of blind Americans. I want to 
thank you for your terrific support of this important library 
service.
    Thank you.
    [The prepared statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Mr. Yoder. Mr. Pare, thank you for your testimony today. I 
think you will find this committee is very supportive of the 
programs that you are supporting and testifying about today. I 
for one have the School for the Blind in my district in Kansas 
and have seen firsthand the value of the E-reader technology 
and the need for resources to support these programs that local 
communities don't have the ability to do, so I know this is a 
Federal question.
    We did include report language in our 2017 omnibus bill 
that supported the E-reader program, and we have directed the 
NLS to conduct a pilot program with the goal of identifying 
which E-reader technology to invest in specifically. Results of 
the program are yet to be shared with the committee. Do you 
have insight into that pilot program or a recommendation on 
which type of E-reader NLS should purchase?
    Mr. Pare. We thought your recommendation was good, the 
report language was good, and that NLS should continue its 
study. We know it is doing a good job.
    Mr. Yoder. You are looking forward to those results, as 
well.
    Mr. Pare. Yes, yes.
    Mr. Yoder. Great.
    Mr. Ryan.
    Mr. Ryan. I just want to say thank you for coming here, 
carrying the flag. We appreciate all you do. I think the 
chairman and I both feel rewarded to support this program and 
support the blind folks in our community and giving them 
opportunity. That is really what this is about: it is about 
opportunity to live a fulfilling life and grow and educate 
yourself. I think you are a great representative of what we are 
trying to do. So thank you for being here.
    Mr. Pare. Thank you.
    Mr. Ryan. We will continue to support you the best we can.
    Thank you.
    Mr. Yoder. I concur with the ranking member's remarks. As 
we work on our 2019 appropriations allocation, certainly your 
comments will be valuable to us in the process.
    Thank you, sir.
    Next, we are going to turn to Greg Lambert, president of 
the American Association of Law Libraries.
    Mr. Lambert. Chairman Yoder and Ranking Member Ryan, thank 
you for the opportunity to testify in support of the 
legislative branch appropriations for fiscal year 2019.
    In my time today, I would you like to focus on the 
necessity of adequate funding for the Government Publishing 
Office, or GPO, and the Library of Congress.
    First, the funding for the GPO.
    The GPO produces, authenticates, disseminate, and preserves 
government information in multiple formats from all three 
branches of the government. These are complex and demanding 
responsibilities that are essential to the information 
lifecycle and help promote government transparency.
    GPO administers the Federal Depository Library Program, or 
the FDLP, under its public information program account. 
Approximately 200 law libraries participate in the FDLP, 
including academic, State, court, county, and government law 
libraries.
    Law libraries rely on the GPO for distribution of specific 
tangible materials, especially core titles in print, as well as 
to official authentic material online through the GPO's govinfo 
website.
    On March 15, the bipartisan FDLP Modernization Act of 2018, 
H.R. 5305, was introduced in the House with the support of the 
American Association of Law Libraries, the American Library 
Association, and the Association of Research Libraries.
    The bill will update the FDLP for the digital age. It will 
strengthen the Superintendent of Documents' responsibility to 
authenticate and preserve government information and improve 
oversight and increase transparency by adding reporting 
requirements.
    Grantmaking authority for the GPO was not included in the 
final FDLP Modernization Act, as introduced. However, we are 
pleased to request that the subcommittee direct GPO to continue 
to study the creation of a grantmaking program to support the 
services of Federal depository libraries in providing permanent 
public access to public information.
    Next, I would like to address the Library of Congress.
    As the largest library in the world, the Library of 
Congress provides leadership on many critical issues, including 
digitization and preservation, access to legal and scholarly 
information and copyright. The Library's fiscal year 2019 
request includes $1.8 million to strengthen the capacity of the 
Law Library of Congress.
    The Law Library is the world leader in providing access to 
reliable legal materials in print and electronic formats, and 
it must have adequate funding to meet the needs of Congress, 
the Supreme Court, and other court judges, attorneys, and the 
public.
    The Law Librarian must also be able to function with some 
autonomy within the Library of Congress, as she is the leader 
of the de facto National Law Library.
    It is critical that the Law Library be adequately staffed 
with experts who have appropriate foreign, legal, and language 
knowledge to answer complex legal questions and to meet 
increasing demand for foreign language and foreign law 
initiatives, including the maintenance and preservation of 
materials.
    We strongly support the Law Library's digitization 
strategy, which will provide access to public domain U.S. legal 
and legislative materials and unique foreign law materials not 
subject to copyright restrictions and not otherwise available 
free of charge.
    Finally, I would like to address a couple of other funding 
requests. Now that access to the CRS reports is law, we ask the 
subcommittee to consider other priorities that would enable 
legislative branch agencies to provide greater access to 
government information.
    One way to do this is by ensuring access to reports that 
are mandated by Congress but not publicly available in any 
systematic, comprehensive way. The Access to Congressionally 
Mandated Reports Act, or the ACMRA, H.R. 4631, would direct GPO 
to maintain a central repository for agency reports submitted 
to Congress. We are pleased that the Committee on House 
Administration reported the bill on April 12 and are hopeful 
that it will pass the House.
    We also urge the subcommittee to formally establish the 
Congressional Bulk Data Task Force on a permanent basis. The 
task force has been successful bringing various players within 
the government together to improve access to legal information 
and modernize legislative data.
    In conclusion, thank you for the opportunity to testify to 
the subcommittee on behalf of the GPO and the Library of 
Congress. We urge you to approve as close to full funding as 
possible for these agencies, and I will be happy to answer any 
questions you have.
    [The prepared statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr. Yoder. Mr. Lambert, thank you for your testimony today. 
As someone who has spent a fair amount of time in his life in 
law libraries, anything you can do to make things easier to 
find would be welcome.
    But I think you will find that this committee has been very 
supportive of creating additional access and transparency for 
the public to find the resources the government produces.
    And I don't think you make a good point when sort of 
discussing we can, you know, make these reports public, we can 
have them there, but if they are not easily findable, it can be 
very confusing, I think, to members of the public to even know 
what is out there, much less be able to find what is out there.
    Mr. Lambert. Correct. And that is our--one of our goals is 
to make sure that, yes, it is great that the reports are there, 
but if you can't find it, they might as well not be there in 
the first place.
    Mr. Yoder. Well said.
    Mr. Ryan.
    Mr. Ryan. I concur with my colleague. I too have 
posttraumatic stress from my legal education and just want to 
say thanks. We appreciate you coming and bringing us this 
information. It is obviously very important as the economy gets 
globalized, and we need to continue to engage in a robust way, 
and I think you are giving us an opportunity to do that. And, 
again, we have a lot of challenges here, but this is a very 
important issue brought. So thank you.
    Mr. Yoder. Great. Thanks for your testimony.
    Now we are going to move to our third member of this panel, 
Kevin Kosar, the VP of policy at the R Street Institute. 
Welcome back to the committee, I believe. Thank you.
    Mr. Kosar. Good morning. Yes. Chairman Yoder, Ranking 
Member Ryan, thank you for having me back. Nice to see you. And 
thank you to your staff, who are terrific.
    So this is the second year in a row that you have done 
this, and this is wonderful. It is remarkable. All of us in the 
room are very thankful that you have taken the time.
    Growing up in Cuyahoga Falls, Ohio, and taking civics in 
school, this is the way it's supposed to work. You know, the 
public comes and talks to you and you guys deliberate and make 
a decision. But it is remarkable how few committees actually do 
that, literally keep a blank agenda and say: Just come and 
speak on things within our jurisdiction. So, again, thank you.
    Mr. Ryan. A special welcome to the gentleman from Ohio who 
is joining us here----
    Mr. Yoder. Buckeyes are always welcome to this committee.
    Mr. Ryan. I am from the 13th Congressional District of 
Ohio. Thank you.
    Mr. Kosar. I spent 2 good years at Kent State University 
before going to Ohio State, so yeah.
    So a year ago I sat before you and asked you to help 
complete something that began more than 20 years ago, 
equalizing public access to CRS reports. I argued then that it 
was good for the public, as they pay more than $100 million a 
year for CRS but had remarkably little access to its very 
informative reports, while D.C. insiders knew where to get 
them.
    I also suggested that the public would benefit because we 
are in this strange era of, you know, fake news, alternate 
facts, and CRS is the gold standard. I mean, their work is 
absolutely trustworthy. They don't have a finger on the scale. 
They are just doing the best to tell the truth.
    And so having those reports out there to help people 
clarify, you know, the truth from the untruth would be 
valuable. And I also suggested--and I am somebody, as you 
recall, worked at CRS for more than a decade--that you do CRS a 
favor by making the reports publicly accessible.
    It has long been a hassle for staff to have to fend off 
calls and emails from media, academics, random citizens who are 
asking them for copies of reports, and, of course, they have to 
say no, which is not a pleasant thing. So basically you are 
removing the middleman. You are taking CRS employees out of 
that and opening the buffet to the public, and that is 
terrific. That is disintermediation. That is efficient. Twenty 
years of advocacy by folks, many of whom are in the room, and 
you were the ones who got it done. So thank you very much for 
that.
    But now comes the challenge of implementation. The law 
signed March 23 tasks CRS to provide the Library with the 
reports within 90 days, June 21st, and for the Library to 
certify that it had done so. This is a good oversight 
provision.
    My concern is that, in that intervening time between 
passage of the law and the due date, it might be valuable to 
ramp up some additional oversight so that we can assure that we 
don't find ourselves in a situation where it is June 21 and you 
get a report of, oh, there was a technical glitch; there was 
some sort of issue of one sort or another.
    In my testimony, I suggested that you might ask CRS to send 
you a memo, one, two pages per month explicating clearly what 
the progress is towards meeting the goal. We could even do it 
every 2 weeks.
    And in order to help you out with the oversight, if you put 
those things up online on your website, then there is the rest 
of us on the outside who can look through those responses, help 
you process what they are saying in case it slips into kind of 
a bureaucratic gobbledygook of sorts, and, obviously, those of 
us who are on the outside have access to the media.
    And, you know, my hope is that the agency will willfully 
and promptly comply with the rule of the law, but you can never 
assume. It is like Reagan said, trust but verify, and we would 
be happy to help you with ensuring that happens.
    So the second topic I wanted to just put on your radar 
because ultimately it does involve spending approved by you 
all, is the state of management at the agency, employee 
happiness at the agency. I talk a lot with people who still 
work at the agency. And, again, I spent 11 years there. By all 
accounts, things aren't going so great. A few years ago, CRS 
commissioned a survey of its employees for the first time, and 
the results were not good. I don't know if you all were given 
the full initial survey results or if you were given the kind 
of selected results that were shared with staff, but you might 
find those results interesting and a little surprising.
    Symptomatic of kind of the situation over there--you know, 
I hear lots of anecdotes about things not going so well--is a 
couple months back one of CRS' attorneys boldly drafted a 
letter to the head of the Library of Congress, Carla Hayden, 
and to the head of the CRS, Dr. Mazanec, and said the 
environment here is not good for doing our job.
    Our job is to tell Congress the truth and the facts as best 
we can discern them. And there was this sense that there was a 
pressure to kind of not call balls and strike but to kind of 
say: Maybe it is a ball. Maybe it is a strike. You decide in 
Congress.
    That really--that sort of situation undermines the agency's 
value to you all. You need them to tell the truth, share the 
facts even when the facts are inconvenient or upsetting. But 
folks over there, many don't feel like they can do that.
    And related to this, I have seen that the agency is 
hemorrhaging talent. When I last checked 2 weeks ago, there 
were 14 open job positions where they were calling for 
applications, and that doesn't count other ones that they 
haven't listed yet or ones where the application process has 
just closed.
    In recent years, I mean, the departures have been 
significant and the former Deputy Director, the number two of 
the agency, left; long-term head of finance departed; the 
leader of the Government Finance Division, who oversaw 80 
analysts, after about 4, 5 years left; head of the Human 
Resources Unit left; so have various analysts and attorneys.
    And these are not folks who are just kind of happily going 
off into retirement to go fishing. No, these are people often 
mid-career, even earlier in their career, who have just kind of 
had enough and left.
    The turnover at CRS and the loss of good employees is bad 
for the agency. It is bad for Congress, and it is expensive. It 
costs a lot to on-board and train a new employee. That people 
are choosing to leave a job where basically, after 1 year, you 
have tenure for life, and if you are an analyst, you can go all 
the way up to GS-15 and earn $160,000-plus a year with hardly 
any chance of being fired, that people would leave that sort of 
job is extraordinary, and it is symptomatic.
    I don't know if CRS' Oversight Committee, the House 
Committee on Administration, is examining these issues. 
Regardless, I think you all might want to take a look, maybe 
consult with the head of CREA, CRS' employee association, maybe 
talk with some of the folks who have left the agency. No doubt 
you could get a full list of who is left and who hasn't left.
    And you might also want to take a look at the retention 
rate data. In the previous 2 years, fiscal reports, CRS 
reported that the retention rate was slipping. This year, when 
I looked in the fiscal year 2017 report, they didn't list the 
data. I don't know why.
    So thank you for your time, and I would be happy to answer 
any questions you may have today or in the future.
    [The prepared statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

     Mr. Yoder. Mr. Kosar, I appreciate your testimony once 
again. And I think one of the great bipartisan achievements of 
this committee was the work to make the CRS reports public last 
year or, I guess, a few weeks ago, last year's budget.
    But we know that was a long time coming, and that success 
had a lot of authors. We were proud to be part of the 
culmination of that work. We want to make sure that it is done 
effectively, so appreciate your thoughts on oversight.
    And, of course, the employees at CRS are very important to 
us. We value their work. We value their independence. We value 
the reliability of the research, and so we will certainly take 
your thoughts about the morale or status of those employees to 
heart because we want to make sure that they are fulfilled in 
their work because they will produce a better work product. So 
thank you for bringing that to our attention.
    Mr. Ryan.
    Mr. Ryan. Yeah. I have got a question, just a comment. You 
know, I think those of us who have been here for a little 
while, we know that the last few years have been tough for a 
lot of different agencies and departments throughout our 
government with sequestration and all the problems we have had 
here that we have caused. We take responsibility for that.
    And so we have heard similar comments in the military and 
in other agencies, so we hope that recent budget agreement, our 
ability to maybe get some of the work done, can help relieve 
some of this pressure at CRS and, you know, other parts of the 
government.
    One question. So, as I was listening to you kind of make 
the case, I thought that if we want someone to get the job done 
in 90 days, aren't we kind of impeding their ability to do that 
with a detailed account on 30 days, 60 days?
    I mean, I would rather them working towards the goal 
ultimately. So can you explain maybe how maybe that wouldn't be 
a problem and why you think it would not slow down the process 
of trying to get to the 90-day goal?
    Mr. Kosar. Right. I think----
    Mr. Ryan. And the other aspect of that just, so I can throw 
it all out there and then you can comment on it, are you 
talking about details of what the final report would look like?
    Because a lot of that--you know, if it is a 90-day process, 
I am just thinking, if I had to write a paper or do a detailed 
analysis or a book or whatever in 90 days, that I really 
wouldn't fully know what was going to come of it until the last 
few weeks where everything started to come together.
    So would that--would a 30-day report, other than maybe we 
are on track, we are not on track, maybe whatever, but as far 
as like getting into the details of some kind of analysis. Is 
that risky to have an incomplete analysis of sorts going out 
into the public after 30 and 60 days?
    Mr. Kosar. Right. Yeah. What I envisioned basically was, 
you know, a one-page, two-page top status memo, like past 2 
weeks, we met with the Library of Congress, such-and-such 
person at the technology office who gave us the basic 
requirements for the file types for transfer purposes; we 
agreed to, you know, commit to a transfer of the files by such-
and-such date. Really kind of a status check in like a person 
would do for their boss.
    Mr. Ryan. A little more process.
    Mr. Kosar. Yeah. So it is not sitting there, and, of 
course, if there are any problems they are running into, you 
want to know those now. You don't want to get those right 
before the deadline and find yourself, you know, entering 
summer and autumn and the job is still not done. That is all I 
was looking at.
    Mr. Ryan. Okay. Thank you, Mr. Chairman.
    Mr. Yoder. Gentlemen, thank you for your testimony.
                              ----------                              

                                           Tuesday, April 17, 2018.

                    HOUSE OF REPRESENTATIVES ISSUES


                               WITNESSES

DANIEL SCHUMAN, DEMAND PROGRESS
JOSH TAUBERER, CIVIC IMPULSE LLC
SHEILA KRUMHOLZ, CENTER FOR RESPONSIVE POLITICS
    Mr. Yoder. We are now going to move on to our third panel 
this morning, and I will call before the committee Daniel 
Schuman, Josh Tauberer, and Sheila Krumholz, who will all be 
testifying related to operations of the House of 
Representatives.
    Welcome to the committee. Welcome back to the committee for 
some. Appreciate your interest in testifying today and look 
forward to hearing your comments. As you know, your written 
comments will be in the record, and so you may summarize those 
for the committee.
    And I will start with Mr. Schuman from Demand Progress.
    Mr. Schuman. Great. Thank you so much for having me back.
    Mr. Yoder. Welcome back.
    Mr. Schuman. Appreciate it.
    So just a couple quick things: One, thank you for CRS. I 
won't say as much about it as Kevin said. But thank you. Thank 
you. This is very exciting.
    I would like to talk about another great congressional 
institution, which is its staff, all the people who are 
smirking maybe as I say that. Very few things can happen in the 
House without its staff, but we don't know a lot about current 
staff in the House of Representatives.
    This wasn't always the case. From 1978 until 2010, the 
House commissioned 17 studies of House staff pay, retention, 
and demographics, looking at sort of how they function and how 
they turned over questions like, is there a pay gap between the 
legislative branch and the executive branch staff? What is the 
composition of staff that work here? What is their educational 
attainment, questions of race and gender? And things like that 
so we could get snapshots sort of over time.
    And when we looked at it, I did sort of a meta-analysis in 
2010 of the data, and, you know, some staff pay had actually 
stagnated over the period of time and a handful of categories 
had done better. But that was at 2010. There haven't been any 
studies, that I am aware of, sort of since that time.
    We do know that from 2010 to present there has been a 12.34 
percent decrease in funding for the House. The Congressional 
Management Foundation has said that the number one reason that 
staff leave is because of pay in a report that came out last 
year.
    The R Street Institute, one of Kevin's colleagues, said 
that, while we have finally equality in terms of there are 
roughly the same numbers of men and women working in the House, 
which is great, but we see that senior positions tend to be 
occupied by men as opposed to women, so there may be a 
promotion question.
    And people who have done a lot of scholarship on this issue 
have suggested that we have sort of overextended our 
congressional staff. And what that means is that lobbyists like 
me and think tanks have become a little bit too sort of able to 
overexert themselves in this process. And that is important for 
staff to be able to find their own facts and not necessarily 
have to rely on outsiders for some of the information that they 
need.
    So my suggestion is it is time for another staff study. It 
has been 8 years. This was valuable. It was not all that 
expensive to do. And let's look at some of the things that we 
looked at before. Let's look at our folks in the legislative 
branch earning the same kind of money for their equivalents in 
the executive branch.
    Let's look at questions around expertise. Do we have the 
same level of expertise in the House, or has it changed? Same 
levels of educational attainments. You were joking before about 
too many lawyers in the room. As an attorney, that is often a 
problem. As an attorney, I can say that as well, and as a CRS 
attorney, it makes things even worse.
    But so, looking at that question. We can also look at a 
couple other things. So some things that we haven't looked at, 
so we used to have reports on diversity. That is useful, but 
let's also look at are the same people getting the same pay for 
the same job, whether it is for men and women or based on race. 
Like that is a useful thing to know whether we are actually 
sort of equalizing those things, or are we not quite there yet?
    And let's not just do sort of snapshots, or where we are 
in--it is 2018, right? Yeah, 2018. But let's also--like how has 
this changed over time? Are we sort of trending in the right 
direction, or are we trending in the wrong direction?
    I would sort of suggest two additional things as well: One 
is we have seen emergence of shared staff. One percent of House 
staff, according to a CHA hearing last week that I attended, 
are shared staff, but they work for 75 percent of the offices.
    We don't know a whole lot about them. Like we don't know 
how--I mean, like how they function, how it works. That is 
something that we should sort of see how it fits into the 
congressional process.
    There is also--I don't have a great--I think this is kind 
of clever, although I suspect that everyone else will just roll 
their eyes. I am calling these folks ghost staff. These are 
staff that work for the House but are paid for by outside 
entities. What this does is this raises questions of conflicts 
of interest. So there are a number of folks that are paid for 
by the executive branch who go and they do a term in the House. 
There is some folks who are paid by for nonprofits or by civil 
society. These are people who have interest in what is 
happening here.
    My research suggests that there are hundreds of these 
folks, but we don't really know. And we should know. If we are 
having congressional functions being shifted to those who are 
not being paid by Congress, we should get our arms around the 
issue and have a sense of who they are and what they are doing 
and sort of what their incentives are and sort of put that in 
the context of how we have changed the way the House itself is 
functioning.
    So I am requesting--you know, this committee has before, 
you know, charged CAO with hiring a contractor to do this 
report. I think it makes sense to do it again. I came up with 
something that I thought was clever. In retrospect, it is not 
as clever, but I am going to say it anyway, which is that these 
staff can provide a factual foundation to address what more 
should be done to support the staff who support you in the work 
that you do.
    So that was only mildly clever, but that underlines the 
point which is that like, I mean, staff are at the heart of 
what happens here. And we need to do all that we can to make 
sure that they continue to make the system work properly.
    So I respectfully request that we take another look at it 
again.
    [The prepared statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Mr. Yoder. Thank you for your testimony, Mr. Schuman. Do 
you have an estimate of what the study would cost? What did it 
cost 8 years ago? Do we know?
    Mr. Schuman. So it is not clear. The Senate did a study 
like this 11 years ago, and they appropriated $80,000. The 
underlying details for what the CAO led is not publicly 
available, so I don't know, but I imagine it is probably in 
that ballpark. You could talk to CMF, the Congressional 
Management Foundation, who used to conduct these or--I forgot 
what the name of the other one is who did it more recently, and 
they could probably give you a better estimate. But we are 
probably talking like 100K, which is not nothing, but it is 
also not a ton of money in a leg branch context.
    Mr. Yoder. And does part of that study look at just the 
House or look at comparative to private industry? I mean, do 
they get into sort of--you know, part of it is, is it keeping 
pace with House salaries, but is it also keeping pace with, you 
know, what folks might make outside of their staff work?
    Mr. Schuman. I think that is--so when I tried to do a meta 
study of this in 2010, I tried to do that. So I looked at 
comparison of leg branch, personal office, and committee 
office, versus the executive branch because that is the closest 
comparator. You can look at the job titles. They don't line up 
great, but you can sort of get a sense of how they line up.
    I found about a 20-percent gap. So, you know, if you make 
$80,000 working in the congressional office, you know, you are 
probably a 13 or 14 on the executive branch side, so you are 
probably earning 20K or 30K more. So there was that sort of a 
disparity.
    Private sector is harder to do assessments. What I saw sort 
of paralleled what we saw when there was a study of the 
executive branch, which is that some of the junior staff--so 
folks that wouldn't be personal committee office but oftentimes 
like janitors and folks like that, in government service they 
tend to get paid a little bit more than the private sector, and 
as you go up with experience in credentials, they tend to get 
significantly underpaid. The janitor question doesn't apply, of 
course, in the context of personal and committee office staff 
so that doesn't fit here. But what we are generally seeing is 
that like there is a significant diminution in sort of, you 
know, what is paying in that space.
    It is valuable to look at a private sector. We have found 
that when people leave the Hill, they tend to make 
significantly more money than they would have earned if they 
were congressional staffers. Sometimes they can double or 
triple it.
    Mr. Yoder. And that is not going to change, but I do think 
it is helpful just to sort of look at the entire perspective if 
we were going to study that issue.
    Look, I think I would speak for my colleagues in how much 
we know that we rely on the talent and hard work of staff 
members who work long hours and for probably way less than they 
could make if they left the Hill.
    And we certainly know that experience is part of the reason 
they come to the Hill, but at the same time, it becomes very 
difficult for folks. They have, you know, lots of expenses and 
things aren't getting any cheaper, and maybe the salaries 
aren't keeping up with where they need to be, so I think it is 
helpful to look at that.
    And I think additionally, probably it would be useful to 
look at the benefits themselves. Obviously, the student loan 
payback program is one reason people might stay on the Hill. 
That would be interesting to know how valuable that is, right. 
Is it robust enough? Are there other concerns?
    You know, one of the things this committee is leading on is 
additional child care options, right. There has been a really 
long line for staff members to be able to get affordable child 
care close to their work, so we are roughly tripling or more 
the amount of spaces that are available.
    So there is the salary issue, but there is also the 
benefits, and then there is the amenities, and, you know, for 
most of us, our staff members are like family, you know. We 
couldn't do our jobs without them, and we want to make sure 
that the retention stays, and there are a lot of things that go 
into that.
    Mr. Schuman. Can I add just one thing?
    Mr. Yoder. Yes, please.
    Mr. Schuman. So what you said is exactly right. The only 
thing that I would add is, like, I don't think it is going to 
be possible to match the private sector. But my goal was not to 
match. It is simply, you know, when people hit 30, they no 
longer want to live in a group house, and they no longer--
right, like those things change.
    And what we see, based on the data from the past, is that 
staff tend to be very young, and they tend not to stay here 
that long. I don't think that we can match it. But I think that 
we can provide people enough of a quality of life so that 
they--if they want to stay here, that they have that option.
    Mr. Yoder. Well, there are a number of staff members that 
are only here because their parents have to subsidize their 
lifestyle, and, you know, they wouldn't be able to pay rent and 
live on the salaries they get.
    And what that means is that Hill jobs aren't open to every 
American citizen who doesn't have that support, right. We want 
to make sure that the kid who is on student loans who doesn't 
have any support also has the chance to come to the Hill and 
maybe someday have the dream of not living in a group home, 
right. Let's aspire to greatness here.
    Mr. Ryan.
    Mr. Ryan. Thank you.
    I appreciate your testimony, as a former staffer and a 
current member of a group home here in Washington, D.C. I 
aspire too. Yeah, I aspire too. My wife comes to D.C. and will 
not stay in my apartment. Let's just put it to you that way.
    No, in all seriousness, thank you for raising this. I think 
it speaks to a broader--I don't have any questions, but I think 
it speaks to a broader issue that we have. And there has been a 
level of disrespect in the country for people who participate 
in the government, who work for government, and are looked upon 
as somehow, you know, not capable.
    And I think we see every single day on this committee just 
how capable members of the legislative branch are and how many 
different agencies that we rely on with vast amounts of 
technical expertise, from IT to the research that we just had 
in the previous panel.
    And I think we all can probably do a better job of saying 
this is a noble calling to come here and serve. We rely so much 
on the staff for our committees, our personal staff, to the 
point where we are dealing with very complex issues that we 
rely on them and we start functioning really as a team in our 
own offices.
    So you coming here and kind of validating the work that 
everyone is doing and advocating for increased pay and benefits 
and all of these things, I think, is appropriate. And those of 
us in the office, it is easy to dismiss and say, you know, 
nobody is worth it and the government stinks and all this other 
stuff. But the reality of it is it is very important to have 
experts in these jobs and continue to try to learn and grow in 
that tenure.
    I use the example all the time, I represent a district not 
far from the Cleveland Clinic, and I certainly don't want a 
heart surgeon operating on my mother who hasn't been around for 
a long time and over the process probably made some mistakes, 
but that is how you learn and grow. And I think we can bring 
back some kind of appreciation.
    So I don't mean to go on a rant, but I just think that it 
is an issue that I get frustrated with a lot, so thank you for 
being here to advocate for this. I appreciate it.
    Mr. Schuman. Thank you so much for having me.
    Hubert Humphrey said a long time ago that your public 
servants serve you right, and I think that that is something 
that is often unrecognized. And I appreciate your thoughtful 
remarks and thank you.
    Mr. Yoder. Thank you, Mr. Schuman.
    Now we are going to move to Mr. Tauberer with Civic Impulse 
LLC.
    Welcome back to the committee.
    Mr. Tauberer. Thank you.
    Chairman Yoder, Ranking Member Ryan, other members of the 
subcommittee--thank you, Daniel, for turning on my mike--thank 
you for the opportunity to testify today.
    This year, I am here on behalf of the Congressional Data 
Coalition, which is made up of public interest groups, trade 
associations, businesses, and citizens that use congressional 
information, from the text of legislation to staff salaries.
    My organization, which is a member of the Congressional 
Data Coalition, runs the website GovTrack.us, wherein the last 
9 years--wherein the last year, 9 million Americans came to 
research and track Federal legislation for free. And we serve 
journalists, legislative affairs professionals, including staff 
here on the Hill, advocates, students, educators, and so on.
    To members of the Congressional Data Coalition and my 
organization's users, this hearing is among the most important 
of the fiscal year. Congress' efforts to publish its 
proceedings accurately, comprehensively, and comprehensibly is 
an indispensable function of our government.
    But congressional information doesn't become public on its 
own. In recent years, the subcommittee has favorably reported 
appropriations legislation that, once enacted, has dramatically 
improved access to information about the work of the House, so 
thank you for that.
    Some examples include the establishment of and the support 
of the House Bulk Data Task Force's Legislative Bulk Data 
Program at the Government Publishing Office and the Library of 
Congress, and most recently, of course, access to Congressional 
Research Service reports. Thank you for those efforts.
    And we now rely on many of those resources that you have 
supported and helped create and has had a tangible impact on 
improving civics education and public engagement with Congress.
    So I am going to talk at a much lower level than some of 
the other folks that are here. There are three more incremental 
steps that I am going to offer that would continue the momentum 
on building the information needs of the institution and for 
the public.
    The first is publishing a committee calendar on 
Congress.gov. Congress.gov is a website administered by the 
Library of Congress with support from the Government Publishing 
Office and is visited by nearly a million people each month.
    It provides a valuable resource to the public about 
legislation. But the website doesn't provide an integrated 
calendar about hearings and markups taking place each week in 
both Chambers. And as a result, congressional offices currently 
pay third parties for a service to provide the information.
    So we know it is possible and not costly to combine all of 
the committee information into a user-friendly calendar on 
Congress.gov because we have done that as a prototype on our 
own organization's website GovTrack.us.
    The second incremental step that I am going to offer is 
publishing the Bio Guide website as data. So the Biographical 
Directory of the United States Congress, also known as the Bio 
Guide, is maintained by the Office of the Clerk's Office of 
History and Preservation and the Office of the Historian in the 
United States Senate. It is an excellent source of information 
about current and former Members of Congress. But at this time, 
the format that the information is published in is not amenable 
to analysis and reuse. So, if I wanted to use that in my own 
organization's projects, it is hard to do that.
    The Bio Guide information should be published in what we 
call a structured data format, which could just be a 
spreadsheet, or more technically XML, and using what we call a 
change log, which indicates what information has been changed.
    Finally, improving disclosure around committee witnesses. 
Before appearing before you today, House Rules required that I 
disclosed recent grants and contracts from the Federal or 
foreign governments, and I actually listed some, which the 
committee then discloses to the public.
    In implementing this requirement, congressional committees 
are using PDF forms that witnesses often handwrite their 
information onto which undermines the purpose of the rule, 
which is the useful disclosure of information about witnesses.
    We recommend instead that the information should be 
gathered by a House-wide web forum, a website, that would 
ensure the information is typed in, publishable in an online 
and searchable database, and downloadable, sortable by witness 
by the organization they represent and any contracts and grants 
that they have received.
    Lastly, I want to just echo a theme that we have heard from 
many of the witnesses today. So we urge the legislative branch 
to continue cultivating its in-house technology talents. The 
fundamentals are already in place.
    The Clerk's website, docs.house.gov; the Library of 
Congress's website, Congress.gov; GPO's govinfo.gov, these are 
all evidence that in-house talent here in the House and 
legislative branch can produce effective and cost-effective 
solutions for the Congress' public information needs, so 
whether that be supporting them--and I echo Mr. Takano's 
remarks about the Office of Technology Assessment and Mr. 
Schuman's and Kosar's remarks about supporting staff in the 
Library of Congress. The talent is here in many cases, and I 
urge you to support it. Thank you for the time.
    [The prepared statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Ryan. Thank you.
    Mr. Yoder. Thank you for your testimony today. And I think 
you have raised a number of what appear to be very useful but 
simple solutions to a frustration that members of the public 
may have with accessing government data.
    And so I actually am very thankful that you are bringing 
this to us because these are things that necessarily we would 
never see as Members because we may not be accessing this 
information that way. So it is critical that members of the 
public bring these issues to us.
    You know, working in reverse order, the committee House 
disclosures and the biographical data seem to be just making 
those more user-friendly and efficient, and it doesn't seem to 
be some sort of cultural change that should cause much angst 
for anyone.
    The committee calendar seems very helpful to members of the 
public. What I don't know enough about is how information 
related to committee hearings would migrate to it, and I don't 
know if you have any suggestions as to how that would actually 
work.
    Mr. Tauberer. So, over the last decade, there has been a 
lot of progress here in the House and the House Administration 
Committee on centralizing House committees. So there is a new 
website, docs.house.gov--it is not new anymore--but that 
collects House side information. The Senate has begun 
publishing--it has been a long--this has been decades, right, 
so, to me, it seems like it is recent, but it is not. The 
Senate publishes committee information in a data format called 
XML. It is all online for anyone to reuse, and so, in 
principle, the Library could also just gather the information 
that the House and the Senate have been publishing and 
centralize it.
    That is, you know, a basic thing that they could do. They 
could go beyond that and work with the House and the Senate on 
making sure that the data flows smoother and better, but 
already the pieces are in place to do it.
    Mr. Yoder. Ultimately, that would fall upon the members of 
the staff on the subcommittees and committees. For example, if 
we were to schedule a hearing this afternoon or change a 
hearing, there is not going to be someone from the----
    Mr. Tauberer. Right. So your staff is probably already 
doing it.
    Mr. Yoder. Right. But it is not migrating to one central 
spot. Is that your point?
    Mr. Tauberer. Correct.
    Mr. Yoder. Okay.
    Schuman.
    Mr. Schuman. So docs.house.gov is the official place for 
committees to provide notice of all their hearings and markups. 
So everybody in the House already is required to put their 
notices and information on docs.house.gov. So there would be no 
additional requirement that would be placed on staff at all. It 
is already in a structured data. All the Library would need to 
do is to take the data and basically copy----
    Mr. Yoder. Create a calendar of it.
    Mr. Schuman. Yeah.
    Mr. Yoder. As opposed to having to go to each link to find 
out if there is a hearing today, it would all be listed in one 
spot?
    Mr. Schuman. Right.
    Mr. Yoder. So you would say, ``What are the hearings today 
in Congress,'' and, boom, you could just find them all.
    Mr. Schuman. Totally right. The House already has it for 
the House. The Senate already has it for the Senate. But there 
isn't one place that takes from the House and Senate and 
smushes it together.
    Mr. Yoder. Seems relatively simple.
    Mr. Ryan.
    Mr. Ryan. I would just say that for those of us that sit on 
multiple committees, I can save you a lot of trouble: They all 
happen at the exact same time, okay. Solved your problem right 
now.
    I yield back.
    Mr. Yoder. Mr. Newhouse, any comments?
    Mr. Newhouse. Well, I would just agree with Mr. Ryan's 
comment. That is why I am late.
    Mr. Yoder. All right. Thank you for your testimony today.
    Okay. Now we are going to move onto Ms. Krumholz with the 
Center for Responsive Politics.
    Welcome to the committee.
    Ms. Krumholz. Thank you, Chairman Yoder and Ranking Member 
Ryan, committee members. I lead the Center for Responsive 
Politics. We track money and politics at the Federal level. We 
are an organization founded by Democrat Frank--former Senators 
Democrat Frank Church and Republican Hugh Scott 35 years ago 
this year.
    My testimony today focuses on lobbying data, which we also 
gather and present on our website OpenSecrets.org. The Offices 
of the Clerk of the House and Secretary of the Senate serves as 
repositories for more than 20 years of data detailing the 
lobbying activities of thousands of organizations required to 
file under rules set forth by the Lobbying Disclosure Act of 
1995 and the House Honest Leadership and Open Government Act of 
2007.
    These reports serve as the basis for important public 
resources that allow investigations by academics, journalists, 
and Congress itself that contribute to the integrity of 
policymaking processes.
    Annually, these reports list about 11,000 individual 
lobbyists. We, and others, rely on this data both to populate 
OpenSecrets.org, our website, which is a free public resource, 
as well as to provide custom research assistance to 
journalists, academics, and scholars, or advocates.
    But our core mission is to inform and engage citizens, more 
than 600,000 of whom visited our site last month and, in the 
prior month, more than a million visitors. So the public 
interest in this kind of information and substantial, and that 
is especially true of information about lobbying.
    Unfortunately, the quality of information on Federal 
lobbying is undermined by the lack of a key ingredient: a 
publicly available, unique identifier to connect all of the 
name variations for each individual lobbyist. In fact, our 
research finds that over the last 20 years, an average of 12 
percent of names reported annually are extraneous variations 
due to typos, nicknames, and name changes.
    So CRP researchers invest a lot of work to normalize 
lobbyist names, to improve data accuracy, and to facilitate 
tracking their employment history and political campaign 
contributions. We reconcile the different versions as well as 
verify that individuals with similar or common names are, in 
fact, different people.
    Changes to a lobbyist's legal name based on changed marital 
status are common and present further challenges. Our 
researchers put a lot of effort into creating and maintaining a 
version of lobbyist IDs through algorithmic matching as well as 
human review.
    Following each quarterly filing deadline, we spend a full 
day reconciling all the name variations and changes in 
associated registrants, delaying the release of an improved 
data set, all of which would be unnecessary if information 
already collected were converted into a publicly accessible 
identifier.
    Based on official filing manuals, the Clerk of the House 
and Secretary of the Senate assign a unique identifier to each 
lobbyist during the filing process that is used internally to 
track each person across time and across reports, including 
registrations and quarterly activity reports for multiple 
lobbying firms.
    However, the downloadable data released to the public does 
not include these IDs. The Honest Leadership and Open 
Government Act's revolving door provisions make clear that 
Congress sees tracking registered lobbyist employment across 
government and the private sector as essential to monitor for 
conflicts of interest, which it is.
    The Government Accountability Office undertakes an annual 
review of LDA compliance and recently found that 15 percent of 
filed reports failed to disclose previous government employment 
as required.
    The ability to easily and accurately identify individuals 
through their lobbying careers is critical to research and 
oversight by the press and civil society to fill that gap.
    Furthermore, the lobbyists themselves want the information 
about their activities to be accurate based on the calls we 
receive from them whenever they are misidentified.
    We are not requesting changes to the form that lobbyists 
use to submit their reports. Again, all lobbyists use the 
unique ID to sign into the online system to submit their 
reports. It is available only to them and internally at the 
Offices of the Clerk of the House and Secretary of the Senate.
    We believe it is possible to generate from those private 
IDs a public-facing unique ID that can be released in XML data 
files. If the addition of such identifiers is not possible at 
this time, we request that a study is undertaken to determine 
the feasibility of doing so in the future.
    I appreciate the opportunity to speak today, your work in 
support of transparency, and for considering the small but 
important change that will advance transparency and the 
accuracy of information on Federal lobbying. Thank you.
    [The prepared statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Mr. Yoder. Ms. Krumholz, thank you for your testimony, 
another interesting idea to create greater transparency, and we 
may have to nickname this committee the Legislative Branch 
Committee on Transparency here pretty soon. We have got a lot 
of good ideas.
    So just so I understand your proposal: Essentially when a 
lobbyist would register--when an individual would register as a 
lobbyist, they would be given a unique identification number. 
So they would basically have their lobbyist ID number, and then 
that would be connected with them for all future filings, name 
changes, variations of names, et cetera. They would be 
lobbyist, you know, badge number et cetera?
    Ms. Krumholz. They already have an internal badge number, 
internal unique ID that is private so that they can log in and 
file their reports, but this would create a mirrored public-
facing ID based--generated from that--that need not be secret.
    Mr. Yoder. Okay. All right.
    Mr. Ryan.
    Mr. Ryan. Thank you.
    Just appreciate everybody's testimony. And I think the 
chairman and I have--I think, are very committed to the issue 
of transparency, as you have seen with CRS and all of these 
other things. So we appreciate you coming here and continuing 
to give us opportunities to do that. So thank you.
    Mr. Yoder. Great. Thank you for your testimony.
                              ----------                              

                                           Tuesday, April 17, 2018.

                    TECHNOLOGY AND INNOVATION ISSUES


                               WITNESSES

ZACH GRAVES, DIRECTOR OF TECHNOLOGY POLICY, R STREET INSTITUTE
TIM LORDAN, EXECUTIVE DIRECTOR, INTERNET EDUCATION FOUNDATION
    Mr. Yoder. Okay. Committee, we have our fourth and final 
panel, and I will now call to the table Mr. Zach Graves and Mr. 
Tim Lordan.
    Welcome to the committee, gentlemen. I would like to go 
ahead and start with Mr. Graves, Director of Technology Policy 
at the R Street Institute.
    Mr. Graves. Chairman Yoder, Ranking Member Ryan, and 
members of the committee, thank you for considering my 
testimony today. My name is Zach Graves. I am the director of 
technology and innovation policy at the R Street Institute, a 
free market think tank headquartered here in Washington.
    At R Street, my team's work focuses on issues such as 
autonomous vehicles, artificial intelligence, cybersecurity, 
and telecommunications. Our aim, as we say, is to make the 
future happen sooner. To accomplish this we hope to encourage 
policies that maximize the benefits of new innovations while 
anticipating and mitigating their risks and externalities.
    In coming here today, I am hoping to start a discussion 
about how Congress equips itself with the expert advice and 
resources necessary to understand and tackle the growing number 
of innovation policy challenges that face our country.
    In the past several decades, we have seen astounding 
technological advances that have propelled the global 
improvements to the human condition and grounded America's 
leadership in the world's economy.
    These advances were made possible because of American 
ingenuity and because America took a forward-looking approach 
to establish and, when appropriate, to forebear from creating 
legal frameworks and regulatory policies that allowed emerging 
technologies to mature and flourish.
    Because of this, American technology companies dominate the 
roster of most valuable firms in the world, employ millions of 
U.S. workers, and account for a significant portion of our 
gross domestic product.
    However, the breadth and scope of new technical challenges 
is increasing faster than ever with such issues as securing the 
Internet of Things, evaluating renewed calls for extraordinary 
access to encrypted communications, understanding the labor 
effects of automation, halting the spread of antibiotic-
resistant diseases, regulating driverless cars, or thinking 
through the implications of machine learning. To name only--
unfortunately, however, Congress' internal capacity to tackle 
the associated technical complexities has not kept pace with 
these new issues.
    Earlier this year, I coauthored a white paper with my 
colleague Kevin Kosar on the Office of Technology Assessment. I 
am here to talk about OTA, like Representative Takano was 
earlier, but from a different perspective, noticing that there 
is a big red ``R'' on our logo.
    As you may recall, the OTA was an expert legislative 
support agency that existed inside the legislative branch from 
1972 to 1995. Although the Congressional Research Service is 
also sometimes referred to as Congress' think tank and has many 
virtues, it has a very different mission from what the former 
OTA had.
    Unlike CRS' focus on producing digestible summaries of 
existing research and giving responsive advice to Congress, the 
OTA focused on producing robust original research reports 
authored by teams of highly credentialed scientists and 
engineers.
    In developing these reports, it also conducted formal 
consultations with outside stakeholders and industry in 
academia, similar to how the GAO functions. In this way, the 
OTA played an important role in shaping how the United States 
and other countries approach technology issues.
    However, falling victim to a political landscape that 
demanded a symbolic sacrifice, it was defunded in 1995. This 
landscape emerged from the Contract with America, a platform of 
the 1994 congressional campaign that helped propel Republicans 
to a long-sought majority in both Chambers of the 104th 
Congress.
    This platform gave rise to a politically useful but flawed 
policy idea, namely that of cutting Congress first. This was 
ultimately achieved with deep cuts to congressional staffing as 
well as legislative support agencies, including the OTA's 
entire $22 million budget.
    While the goal of cutting wasteful government spending is 
an admiral one, abolishing the OTA merely undermined Congress' 
ability to do its job in exchange for negligible savings. After 
all, its budget was only a tiny portion of the legislative 
branch budget, which itself is a tiny fraction of the overall 
$4 trillion Federal budget.
    In contemplating any savings, one must also consider the 
trillion-dollar stakes involved in setting technology policy 
and the high costs of getting it wrong. When it existed, the 
OTA also helped Congress make cost-saving decisions well in 
excess of its own budget, as Representative Takano mentioned.
    Many conservatives today, for instance, Senator Mike Lee, 
Representative Jeb Hensarling, and the R Street's own 
governance project have showed a renewed interest in 
strengthening the first branch and restoring its proper role 
and capabilities.
    As part of this effort, it is of key importance that 
Congress must have its own resources to ascertain the facts; 
otherwise, it is left to take the word of executive agencies, 
interest groups, and lobbyists. This circumstance is 
unfavorable to the health of our democracy.
    This understanding has informed R Street's interest in 
reviving Congress' technology assessment arm, whether in the 
form of OTA or a differently structured entity. Indeed, the 
OTA's authorizing statute remains in effect, and its funding 
lies within the jurisdiction of this subcommittee.
    It could therefore be revived, practically speaking, simply 
by including a funding for a pilot in the next legislative 
appropriations bill. I am not calling for this to happen now. 
It has been nearly 25 years since the agency existed, and, 
thus, before jumping in, appropriate consideration must be 
given to what a successful technology assessment office would 
look like today. And, admittedly, this may be quite different 
from what it looked like in 1995.
    As we discussed in our paper, there are also a number of 
general points upon which OTA's structure might be criticized, 
and there are a number of logistical considerations that also 
need to be thought through and addressed.
    In order to resolve these questions and open further 
discussion, I respectfully urge the subcommittee to request a 
study on what would be necessary to reestablish an independent 
technology assessment function inside the legislative branch.
    Such a study could be done by the subcommittee. It could be 
done through an outside entity, such as the National Academy of 
Public Administration, which has done technology assessment 
studies before, or through an ad hoc group of legislative 
branch and technical experts.
    This study could answer key questions about reestablishing 
a technology assessment function in Congress, such as: What 
type of in-house experts should the office have? Should the 
reports be driven by in-house or outside experts? How should it 
balance deep original analysis with responding to inquiries or 
other timely requests? How might it be restructured to avoid 
politicization or bias or the perception thereof? How and to 
what extent it should engage with outside stakeholders and 
academia, civil society and industry? Should it be structured 
as an independent legislative branch agency or housed in 
another entity like the Library of Congress? Or should it 
merely improve and expand upon the existing technology 
assessment function that exists within the GAO?
    In summary, a 21st century Congress needs a 21st century 
understanding of the world and its policy challenges. Given the 
limited resources and a fast-paced congressional calendar, 
congressional offices aren't always able to meet these 
challenges alone. With your help, we can begin the discussion 
about how our institutions can modernize and adapt to the 
demands of our changing times.
    Thank you for the opportunity to share these thoughts with 
you.
    [The prepared statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
        
    Mr. Yoder. Thanks for your testimony. We certainly heard 
testimony from Mr. Takano as well. And you have raised a number 
of important questions. You know, certainly there is no reason 
why we couldn't provide additional information to Congress 
regarding technology.
    And as this continues to advance and change, there is 
certainly a need, whether, as you point out, going back to 
exactly what we had before is the answer or some sort of wholly 
new entity, there is lots of variations.
    But I continue to hear yourself and others demonstrate this 
need, and we will certainly continue to discuss what the best 
way to move forward is and maybe a study is the proper answer.
    Mr. Graves. Thank you.
    Mr. Yoder. Thank you, Mr. Graves.
    Okay. Our last witness this morning is Mr. Lordan, 
executive director of the Internet Education Foundation.
    Welcome to the committee, sir.
    Mr. Lordan. Thank you, Chairman. And thank you so much for 
having me today. I realize that I am probably the only person 
between you and lunch, so I will try to be as brief as 
possible, and I am so sorry.
    I work for--as you said, I work for the Internet Education 
Foundation, which is a nonprofit here in the city. We basically 
do internet policy work and have been doing this since the dawn 
of the commercial internet for about 21 years or so. We work 
with the Congressional Internet Caucus on the House and Senate 
side here.
    And we do other educational programs like the Congressional 
App Challenge. We are the official sponsor of the Congressional 
App Challenge. And I know that a lot of people know what the 
app challenge is, and stop me if I am going on, but it is kind 
of a hard to get your arms around what the congressional app 
competition--Congressional App Challenge is.
    It is an officially sanctioned competition in the U.S. 
House of Representatives. It is an official project of the 
House. It was created by a 2013 floor vote on House Resolution 
77 that wanted to promote STEM, computer science education for 
students in America.
    I would defer to Ranking Member Ryan, and he has always 
made impassioned speeches about the importance of technology 
and STEM and computer science education for the future of 
America. And we have millions of STEM jobs that need to be 
filled, and we have no domestic pipeline really to do that.
    So there is a massive imperative for programs that inspire 
youth in America to pursue computer science, coding, STEM, 
education. Just, it is an existential crisis for America, and, 
you know, Ranking Member Ryan says it much more eloquently than 
I will.
    But the app challenge is administered by--it was created by 
the Committee on House Administration Resolution 114. It is 
actually in the House of Representatives Member handbook. 
Basically, each Member of Congress can sign up to host a local 
competition for their students to create an app. If you win, 
you get to come to Washington and demo the app. We have an 
event we call House of Code, which was actually last Thursday. 
And their apps get displayed in a display right around the 
corner here in the Capitol Building, right near the artwork. So 
the artwork is from the Congressional Art Competition, and the 
display for the apps is from the Congressional App Challenge.
    Yeah. And it is really exciting, really important, and it 
is done by the Committee on House Administration. We have been 
appointed as the official coordinator because it is a beast. I 
mean, trying to imagine--this year, in 2017, we had 225 
challenges in each district in--each congressional district all 
across America. Some urban districts, but also many rural 
districts, like Congressman Ryan's district, Chairman Greg 
Harper from the Committee on House Administration's district in 
Mississippi, all over the place.
    So they are not like urban centers. They are reaching 
into--using the strength of the Member office, they are 
reaching into the districts in America to inspire students. 
And, frankly, as we saw last week at House of Code, the 
students are inspiring the Members to be more appreciative of 
technology, as Zach was arguing.
    The problem is that it has grown from 2016 to 2017. It grew 
like by 129 percent. I mean, the numbers are stunning: 229 
Members have signed up to host challenges. The chairs for 2017 
were Congresswoman Ros-Lehtinen and Congressman Ryan. He was 
the chair. So, in a way, I am here because he was so successful 
at doubling participation.
    This project is kind of hard to administer. To have--about 
5,000 students participated last year, about 1,250 apps were 
created by students, and it has just been incredibly difficult 
to manage that entire process.
    The art competition is relatively simple. If we had the art 
competition--we could do an art competition right now and five 
students would bring in paintings, and we could say that one. 
And then the Architect of the Capitol ships it here and hangs 
it.
    The Congressional App Challenge is a massive database 
issue. It is also reaching into local communities to actually, 
you know, get the word out to students and teachers so that 
they can compete. And I would say, you know, the Committee on 
House Administration, you know, administers this with a 
memorandum of understanding with the House Ethics Committee. We 
are appointed every session to do this by the committee, and 
they could appoint anybody to do it, frankly.
    So it is done every year as a separate challenge. Like the 
2018 challenge should start in a few weeks. It is separate from 
the 2017 challenge. And I think, you know, if you look at--I 
think there is a concern about precedent being set. And 
Congressman McGovern made a really interesting--and I would 
echo his comments about the difference between the Lantos 
Commission and like a caucus or other thing like that.
    The Congressional App Challenge isn't a caucus. It isn't a 
congressional Member organization. It happens every year, every 
session. It may not--like this is a Congressional App 
Challenge, right. Apps didn't really exist until, you know, the 
iPhone was created in 2007 and widely adopted in 2008.
    Ten years from now, there may be no such thing as apps. It 
may be something different. So it is one of those things that 
has grown very quickly, but it doesn't have this permanence to 
it. But, you know, I think we all realize the imperative to 
inspire students to pursue coding and STEM is really important. 
And we are hoping that this project can do that.
    And as far as like, you know, really important bipartisan 
efforts and, you know, Congress inspiring their constituents, 
49 percent--it was basically 50/50 of Republicans and Democrats 
participating in the Congressional App Challenge, so it is 
totally bipartisan.
    [The prepared statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Mr. Yoder. So, the basis of your proposal, then, Mr. 
Lordan, is?
    Mr. Lordan. We are seeking funding for the Committee on 
House Administration to provide staffing, because the thing is 
doubling like every year.
    Mr. Yoder. So, right now, they are doing it with internal 
resources.
    Mr. Lordan. The committee basically does--a lot of the 
organization is handed off to us. Like, for instance, even the 
programming for the congressional display, that took us like 50 
hours of programming time for our staff.
    Mr. Yoder. And they are paying you to do this.
    Mr. Lordan. No.
    Mr. Yoder. So they are doing within your resources.
    Mr. Lordan. Yeah, I go around with a tin cup raising money 
from the private sector, which isn't as easy as you might 
think.
    Mr. Yoder. So your point is the program has grown to such 
significance that that is sort of a difficult thing to 
maintain. It really needs its own separate staffing and funding 
if we want to continue this.
    Mr. Lordan. It is outpacing our ability to manage the 
program.
    Mr. Yoder. Well, this is very helpful, and I think one of 
the themes I think we have seen from most of these witnesses 
today is the value of technology and how it is changing the 
things relating to transparency, as well as the modern-day art 
competition, which is the app challenge. So thank you for that.
    Mr. Lordan. I would say on that: I love art.
    Mr. Yoder. Apps are art.
    Mr. Lordan. They are. But I don't want to live in a world 
without art. But we really can't live in a world without coding 
and computer science and STEM.
    Mr. Yoder. Thank you for your testimony.
    With that, everyone, this will end our hearing work for 
today. The subcommittee will reconvene tomorrow at 2:30, when 
it will hear from the Office of Compliance. This is a change 
from our previous schedule. We are rescheduling our GAO hearing 
that was scheduled for today at 2:30 until tomorrow at 4:30.
    The committee is adjourned. Thank you.
    [Testimony for the Record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    

                                         Wednesday, April 18, 2018.

                          OFFICE OF COMPLIANCE

                                WITNESS

SUSAN TSUI GRUNDMANN
    Mr. Yoder. The subcommittee will come to order. Thank you 
everybody for attending this hearing on the Office of 
Compliance. This is our fifth hearing, hearing in the last week 
or so as we work on our fiscal year 2019 appropriations 
legislation. And so we appreciate Ms. Grundmann coming to 
attend the hearing today. I don't believe we had a hearing with 
you last year. It is my first year chairing the committee so we 
are thankful that you are here this year. I know from time to 
time you are brought in for hearings and sometimes you aren't. 
So we are glad you are here and we appreciate your work.
    Ms. Grundmann is the Executive Director of the Office of 
Compliance, established by the Congressional Accountability Act 
of 1995. The Office of Compliance is tasked with dispute 
resolution, safety and health compliance, labor management 
relations, and educational offerings across the legislative 
branch. Over the past year the office has received much 
attention as the House has debated how best to ensure employing 
authorities, including Members of Congress, are held 
accountable for employee rights that are violated under their 
watch, as well as making sure employees know, and understand 
their rights, and have access to a dispute resolution process 
that is fair, easy to navigate and is not layered in burdensome 
bureaucracy. The House has taken action in three ways, to 
address workplace harassment. We passed House Resolution 630, 
which makes in-person workplace rights training required for 
all Members and employees, we passed House Resolution 724, 
which established an Office of Employee Advocacy, with the 
mission of providing legal assistance to House employee's 
regarding Congressional Accountability Act procedures. And 
finally, the House passed Comprehensive Congressional 
Accountability Act reform that continues to be debated in the 
Senate.
    The implementation of the two past House Resolutions has 
been the responsibility of the House Chief Administrative 
Officer because they are house specific and not legislative 
branch wide. However, it has required close coordination with 
the Office of Compliance and will certainly have an impact on 
their operations moving forward. With all the attention the 
Office of Compliance received over the last year their profile 
certainly by raised. They have seen a triple digit percentage 
increase in request for training both in person and online, in 
addition to increased service requests across the board. Also 
worth mentioning is as a result of the fiscal year 2018 
omnibus, the Office of Compliance's jurisdiction has been 
expanded to include claims submitted by employees of the 
Library of Congress. This expanded jurisdiction I believe is a 
good thing, but will likely result in an increase to the Office 
of Compliance annual caseload. With all that being said, the 
revised budget request for fiscal year 2019 operations is 
$5,410,089, which represents a 9 percent increase from enacted 
levels.
    Thank you for joining us today. And now I am going to yield 
to my good friend from Ohio, Mr. Tim Ryan.
    Mr. Ryan. Thank you, Mr. Chairman, I appreciate it and I 
appreciate this hearing. In my opinion, this hearing is going 
to be one of the most important we will have this year in this 
committee. And the discussion we will have today couldn't be 
more timely.
    Across the country, industries and organizations are 
reckoning with the dark reality of workplace harassment, 
especially sexual harassment. It has become abundantly clear 
that Congress is no exception to that. And the elected 
officials here in Washington are being called to lead and we 
must answer that call. How can we expect others to follow our 
example if we are not willing to fully acknowledge the problem 
and take concrete steps to address it. It was my pleasure with 
the chairman to support the resolution that mandates required 
training for all Members, House employees and interns. And I 
look forward to learning more today about how this training 
will be implemented.
    The Office of Compliance plays an essential role for the 
employees of this institution in advancing workplace rights, 
safety, health, and accessibility.
    Today this hearing will shine a light on the upcoming 
efforts by the OOC to make this historic institution a safer 
place to work. And every man or woman who wants to work for the 
United States Congress should feel comfortable and safe coming 
to work. No person should show up to work in the Halls of 
Congress, their government, and be forced to worry that it will 
be a toxic work environment where they will be harassed or 
assaulted.
    I will close by thanking the staff in the OOC for carrying 
out this mission and for testifying here today. And I look 
forward to working with you in the upcoming year to make all of 
this, and our goals here, a reality.
    So thank you for being here with us.
    Mr. Chairman I yield back.
    Mr. Yoder. Thank you, Mr. Ryan.
    Ms. Grundmann, your complete statement will be made part of 
the record. Feel free to summarize your remarks at this time 
and I now recognize you for your opening remarks.
    Ms. Grundmann. Thank you very much.

                           Opening Statement

    And good afternoon, Chairman Yoder, Ranking Member Ryan, 
and distinguished members of the Legislative Branch 
Appropriations Subcommittee. On behalf of the Office of 
Compliance it is our honor and privilege to have this 
opportunity to discuss our fiscal year 2019 budget with you.
    We thank the subcommittee and the staff Jenny, Tim, and 
Adam over there and everybody else. We thank you for your 
support in reinforcing our statutory mission, which as you both 
note is both broad and diverse, that is to ensure the health 
and safety and public accessibility of the legislative 
community, to provide a dispute resolution process for covered 
employees in our jurisdiction, and to inform and educate this 
community and the public about the rights and protections under 
the CAA.
    The members of this committee have led by example. You have 
led by as you know passing landmark legislation, mandating in-
person workplace rights training and protection for every 
Member of Congress, both paid and unpaid staff with new hires 
receiving the same training within 90 days. You demonstrate 
that you hold yourselves to a higher standard as the elected 
leaders of our Nation.
    What a year it has been at the OOC, from a little known 
office this time last year to the focal point mandating 
accountability through reform. During the past 5 months our 
tiny staff has been tested, weighed and found not to be 
wanting. Since October our staff personally trained over 15,000 
employees in the House and Senate alone and not all at once but 
in ones and twos and tens. Training to prevent sexual 
harassment discrimination retaliation is now mandatory in the 
Halls of Congress. And our posters notifying employees of 
rights are now prominently displayed in every office in the 
House of Representatives.
    But training is the floor and training is only a means to 
an end. And that end being a change in our culture whereby we 
have strong principles of collegial respect in the workplace 
and where problems are prevented before they occur. In order to 
meet that goal and to meet our statutory goal to educate, we 
require your continued support for funding and for staffing the 
positions to take on this challenge.
    We no longer live in a world where it suffices to train on 
the legal meaning of the letter of the law. In order for true 
change to occur and for us to honor the spirit of the law, we 
must educate on the behaviors, biases, and practices that could 
lead to harassment, discrimination, and retaliation, that could 
create a hostile work environment.
    So we must continually update the tools of our training, 
and methods of delivery to keep education fresh, relevant and 
real. This is our constant challenge, to update what we have 
developed and to create new tools to engage our legislative 
colleagues. And to meet this occasion we currently have 
everybody training on staff, our ADR staff to our safety 
inspectors, to our attorneys and our general counsel's office 
and it is still not enough, because our daily work continues.
    Biannual inspections of almost 18 million square feet of 
the Capitol complex, responding to concerns of hazards and 
public accessibility. Counseling of legislative employees, 
mediations and hearings which as the chairman notes will now 
markedly increase as a result of the Library coming under our 
jurisdiction.
    We welcome the Library to our dispute resolution process 
knowing full well that our caseload will only increase, thus 
increasing costs and the need for more personnel. Mr. Chairman, 
Ranking Member Ryan, we are grateful for the funding we 
received in 2018. And even given our limited resources, we 
still think we do an amazing job. Inspections are now complete 
in the House and we continue to enjoy a 100 percent affirmance 
rate by our reviewing court for our board decisions. All our 
successes are documented in our annual report which was 
released on Friday. Copies are available to you.
    However, as we continue to reach out we realized just how 
much more we need to do, such as to bring our case processing 
system into the 21st century by bringing e-filing to OOC, as 
mandated by the CAA Reform Act that passed the House in 
February. Now whether or not we see full CAA reform at the end 
of Congress is yet to be seen. Pending funding, we intend to 
and hope to move forward with this measure.
    As always, our budget's mission consists almost entirely of 
funding for people, not things. The 20 women and men who report 
faithfully each day to work are a testament to our commitment 
to excellence and efficiency. Having weathered our most 
challenging chapter in our history, we now move forward with 
you, knowing that your support has been crucial to our 
continued success.
    Thank you for the privilege of your attention. I look 
forward to answering your questions.
    [The prepared and amended statements follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
                           WORKPLACE CLIMATE

    Mr. Yoder. Thank you for your testimony, Ms. Grundmann. 
Again, welcome to the committee and we appreciate all of your 
hard work.
    At the beginning of my comments I mentioned and as did Mr. 
Ryan a number of the acts that Congress has taken already in 
this 115th Congress to take steps to curb workplace harassment, 
things like mandatory training, employee advocacy office, 
proposed process changes at the OOC. Those are things that are 
needed. But I guess a couple of questions for you.
    What are our biggest impediments within your office to 
being able to resolve and help with complaints, is it any 
structural issues? Is it mostly resources? I know you have 
asked for a 9 percent increase. What will that allow you to do? 
Sort of discuss how we can best help you do your job, first and 
foremost.
    And then second of all, what are other solutions that 
Congress should be looking at in general that maybe we haven't 
pursued legislatively yet that we should be?
    Ms. Grundmann. Sure. There are a number of things. Our main 
need is people. The statutory mission is broad, it is 
purposeful, it has all sorts of different kinds of aspects to 
it, but our current issue is we have one person performing four 
to five functions and that is part of our FTE request. We 
have--we have trained these hundreds and hundreds of people 
over the last 4 or 5 months with two people who currently 
perform other jobs. We don't have a single person dedicated 
solely to training.
    So in terms of our request for FTE, we are looking for five 
to be allocated in the following fashion. We would like two 
dedicated to education, one specifically dedicated to the 
website. We don't have anybody solely dedicated to the website. 
And the website is an important tool because this is how we 
reach the staffers in your home districts, in the State and 
district offices. There are 15,000 people in the field, that is 
half of the legislative community.
    The second FTE we want to dedicate to have that sole person 
to not only develop and to update the training, but to deliver 
in-person training on demand. Two other FTE, and this will give 
you a sense of how our staffing works. We are asking for two 
attorneys, one specifically dedicated to the board's function. 
Currently as we are staffed we have one individual who not only 
researches and writes the decisions for the board, advises the 
board, writes procedural regulations, assists the general 
counsel in reviewing his briefs and preparing him for hearings, 
and serves as legislative counsel. So this one individual is 
performing four to five different functions.
    In addition, our general counsel needs more support. We are 
seeing an increased amount of litigation in the Federal circuit 
and those types of cases are more complex, they do take longer 
to prepare.
    Finally, the last FTE we would ask be dedicated to 
something as simple as administrative support. As we are 
currently staffed, we have one administrative assistant 
supporting the entire office and the five board members who are 
scattered throughout the country. So FTE is very important for 
us.
    In terms of changes that we saw through the Reform Act, we 
as we testified before the committee on House Administration, a 
number of those changes were incorporated and adopted in the 
Reform Act that passed the House. We are very encouraged by 
that. We will have to see what happens in the Senate.
    Our staff has been put in an enviable position of chasing 
proposals, because we are never sure which proposal will come 
through, which is why you have seen our budget change over the 
many iterations over the last few months. Clearly if the 
legislation passes at the end of this year through the Senate, 
then there are other things we will have to come back for, 
particularly funding and staffing for the investigatory 
authority and funding for the climate survey, which is under 
the CAA reform format.

                                TRAINING

    Mr. Yoder. Mr. Ryan.
    Mr. Ryan. Thank you, Mr. Chairman.
    We all received notice recently about attending harassment 
training sessions, whether in Washington, D.C. Or throughout 
the country. And my office and I received our training last 
year, which was very well received in our office. However, to 
do a similar type of training this year, the office-only 
sessions would cost offices $4,275, can you explain to us the 
cost breakdown for that?
    Ms. Grundmann. That is not us. It was decided by CHA that 
the primary training function would be undertaken by a private 
contractor and that does not--we do not qualify for 
certification purposes. Let me note that the training that will 
be provided specifically only covers the House, it doesn't 
cover the Senate or the other legislative offices.
    In addition, the training that will be provided to your 
office for certification purposes only covers one aspect of the 
law. The CAA covers 19 different laws that will generally I am 
assuming not be included. Furthermore, even though we don't 
qualify for certification purposes under 630, and I know your 
office attended our session, Members still continually reach 
out to us to conduct personal training. And the training that 
we conduct is specialized, it will be by standard and invention 
training, unconscious biases coming online in May. Those are 
the types of training that blend themselves easily to in-person 
training in small groups in the ones, in the twos, in the tens, 
not a room full of 500 people.
    So as Members still continue to reach out to us, some 
Members have actually asked us to travel to the district and 
home offices to train their staff. We don't like to say no. But 
the travel is not reimbursable by the Member's office because 
there could be a conflict of interest so we pay for that 
ourselves, so that you see some additional funding allocated in 
our 2019 request towards travel. Right.
    We are very proud of what we do. We have not seen what the 
contractor is going to do. Certainly we will be there to assist 
this contractor should he so request, but feel free to continue 
to reach out to us. I mean, we are doing some very cutting edge 
things. We have new technology in our training, which is 
interactive. Let me also emphasize the importance of having the 
small setting, so students, people who are attendees can engage 
the educator in question in how to handle a troublesome 
scenario. And we develop those. We also customize our training 
for individual offices.
    So if you have a particular interest or particular 
questions you want to ask in your office we can build them into 
our presentation.

                                 TRAVEL

    Mr. Ryan. Of the budget request this year, how much of that 
is for travel?
    Ms. Grundmann. I can't recall, but it was an additional--it 
was only a few thousand dollars.
    Mr. Ryan. Okay. I yield back.

                        WORKPLACE RIGHTS POSTER

    Mr. Yoder. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    You mentioned in your testimony a poster that every office 
would have received dealing with sexual harassment. I have 
never seen the poster. I just conferred with my staff, my LD, 
and everybody else. No one else has seen this poster. Can you 
tell me when this poster was delivered? And are other Members 
familiar with this poster? Maybe my office didn't get it 
slipped underneath the door. Here is a copy of it.
    Ms. Grundmann. We can get one to you.
    Ms. McCollum. Well, no, I asked you when they were 
delivered? Do you know when they were sent out so I can figure 
out what happened in my office?
    Ms. Grundmann. We have had a number of people actually come 
to us. We have also gone around and delivered them. If we 
missed you, we can get one to you.
    Ms. McCollum. We will make that happen.

                               I.T. NEEDS

    Can you explain the website person? And if you have that 
person writing programming, that person just maintaining the 
websites what are going to be the duties and roles and function 
of the person doing the website?
    Ms. Grundmann. We currently have a contractor handling the 
website, but it is not a full-time position. The individual 
would be updating each module annually along with creating new 
content--you can't keep the same thing on a website all the 
time, it gets boring. So we do have revolving content. There 
are modules that are being created right now that will be--we 
have the bystander--we have new antisexual harassment, 
discrimination and retaliation module that was loaded in 
January.
    Ms. McCollum. So right now you have a contractor who is 
doing that part-time and that is going to be a full-time, plus 
a part-time contractor, or is that part-time contractor going 
to be full-time?
    Ms. Grundmann. If there is a technical expertise I think we 
would reach out to the contractor, but I think in terms of the 
content alone, that is the time consuming part of our project.
    Ms. McCollum. So you are--I am not--I just want to 
understand. I am not disputing what you are putting forward in 
your vision. So you would keep the part-time contractor for 
when you needed something very technical done and so the person 
who would be doing the Web would just be doing McCollum 
content. It would be more of the sense of a communications 
person, a writer.
    Ms. Grundmann. Yes, yes.

                             ATTORNEY NEED

    Ms. McCollum. Okay. So I hear what you are saying about 
your attorneys being overstretched, putting another attorney 
on. What would be--so what is going to be the cost of putting 
another attorney on in the office?
    Ms. Grundmann. Depends on how we set the pay and benefits. 
I believe our calculation was with the benefits and the pay 
about $200,000 per person.
    Ms. McCollum. $200,000 times two. And currently you have 
one.
    Ms. Grundmann. We have one attorney dedicated solely to the 
board, but he is doing other functions.
    Ms. McCollum. Well, I can certainly appreciate it because 
my staff is overstretched and we haven't seen except for 
security any raises or anything going in to our staff in that.

                       LIBRARY OF CONGRESS COSTS

    Under the Library of Congress coming in, so you are just 
absorbing that cost? You are not doing a charge back to the 
Library of Congress?
    Ms. Grundmann. You can't.
    Ms. McCollum. You can't.
    Ms. Grundmann. We can't. Let me explain what is going on.
    Ms. McCollum. No, no, that is fine. That is the answer in 
and of itself. So the Library of Congress will have that as 
less of an expense in their budget because they won't be doing 
that in-house anymore at all?
    Ms. Grundmann. Let us have this conversation. This is 
important to understand. Just to be clear, the Library's 
internal process does not go away. It is still available to 
employees. Nor does the Library's collective bargaining 
agreements that they have with their unions. There is an 
arbitration proceeding that that still stays in place. What the 
omnibus does is it brings Library employees into our process 
only for only certain types of claims. Claims associated with 
discrimination, Fair Labor Standards Act cases and Family and 
Medical Leave Act cases.
    Ms. McCollum. I see that. So how many full-time equivalents 
is going to be doing that?
    Ms. Grundmann. Well, the hearing offices in the media it is 
our contractors for us. We are not bringing on somebody full-
time for them. But just anecdotally in having a conversation 
with the Library, they take in about 50 to 60 cases a year with 
five cases going to an administrative hearing. We currently 
take in 50 to 60 cases with five cases going to admin----
    Ms. McCollum. You are able to kind of budget it a little 
bit?
    Ms. Grundmann. Well, we have asked for 2-year money just to 
expand or contract so we need to go into the next year money we 
can.

                   ADA INSPECTIONS OF MEMBER OFFICES

    Ms. McCollum. So you are asking for forward money--Mr. 
Chair, the last question I have is on ADA inspections. Is that 
Member's offices as well.
    Ms. Grundmann. The answer is yes.
    Ms. McCollum. I would be interested in seeing that report 
because I work very hard to have wheelchair accessibility in my 
office. There is only parts of my office I can make accessible. 
Other parts I cannot make accessible at all, no matter what I 
would choose to do. We could barely have one person walk 
through an aisle.
    So I would--Mr. Chair at some point if you could provide 
the committee how out of compliance our offices are with the 
ADA I would appreciate that, and I do mean we are out of 
compliance. Thank you.
    Mr. Yoder. Thank you for that, Ms. McCollum.

                      CONFIDENTIALITY AND STATUTE

    The chair recognizes Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. Welcome, 
Ms. Grundmann. When the OSD was created more than 20 years ago 
now, the idea behind it was to increase transparency, to have 
the CAA be applicable to Congress as well. So why then has the 
OOC in practice kept the public in the dark about which 
lawmakers or offices have been accused of improper workplace 
behaviors?
    Ms. Grundmann. That is a good question and the answer is it 
is actually in the statute. Under the statute--in the statute 
counseling sessions, which is the beginning of our process and 
mediations, which you have to go through to get to an 
independent hearing. I have actually brought a chart if it is 
helpful to have this kind of conversation.
    Ms. Wasserman Schultz. It would be.
    Ms. Grundmann. Let me share this with members of the 
committee. Let me explain the process starting from the 
beginning. Everything starts with counseling and that is 
initiated by the employee within 180 days of any given 
violation.
    Ms. Wasserman Schultz. And this is all statutory?
    Ms. Grundmann. This Is all statutory, it is not regulatory 
on our part. Counseling under the CAA is strictly confidential, 
and it not so much binds the employee from speech, it is not a 
gag order, but it precludes us from publicly speaking about any 
of these cases. And the employing office is not told at the 
time that the employee has entered the system.
    So the counseling period can be anywhere from 1 to 30 days. 
Following counseling, mediation is mandatory. This is when the 
employing office is brought to the table, meets with our 
independent mediator and has a discussion. This is where 
approximately 40 percent of our cases start so it is a good 
process.
    Following mediation is the so-called cooling off period and 
that is the timeframe that runs 30 days after the end of 
mediation to 90 days so their filing windows is essentially 60 
days. If the employee elects to go to court, they can go to 
court at that point and litigate in full public view. Or the 
employee can elect to go through our administrative dispute 
resolution process with a hearing officer and a final decision.
    The hearing office gives them a certain period of time. I 
can tell you that our median processing time for these types of 
cases is 190 days. I do not know what the EOC process----
    Ms. Wasserman Schultz. And meanwhile the employees is still 
working in the office?
    Ms. Grundmann. That is the problem. Now the CAA reform act 
that the House passed would address a number of these issues. 
Counseling and mediation would become voluntary, there would be 
a reporting requirement on our part to disclose the--in other 
words, lifting the veil of the strict confidentiality that you 
are concerned about.
    Ms. Wasserman Schultz. That legislation, that is--the 
lifting of that rail is already in the legislation that we 
passed out of the House.
    Ms. Grundmann. Yes.
    Ms. Wasserman Schultz. Okay. But the Senate hasn't taken 
that up yet?
    Ms. Grundmann. They are working on it from what we hear.
    Ms. Wasserman Schultz. And the reason we are not able to 
implement it on our own since we passed in the House of 
Representatives then that is the policy we have all voted for 
is because the statute prohibits it?
    Ms. Grundmann. Correct.
    Ms. Wasserman Schultz. The statute proscribes this process?
    Ms. Grundmann. Right.
    Ms. Wasserman Schultz. There is certainly a need for 
confidentiality and I understand that this is in the statute, 
but that confidentiality seems to me to be more applicable at 
certain points in the process. I mean the CAA requires an 
annual report for the public that details initiated 
proceedings.
    Ms. Grundmann. Right.
    Ms. Wasserman Schultz. Are you barred by law? Is the LLC 
barred by law or by internal rules from publicizing annual 
settlement sums, particularly in a breakdown by office instead 
of a year end total? Are you barred from breaking it down that 
way?
    Ms. Grundmann. We are not, but here is the concern. The 
concern is if we disclose by employing office, and our offices 
are very small, we are talking about seven, ten people. It 
won't be very--we run the risk of exposing confidentiality of 
the employee.
    Now if there are settlement agreements let's talk about 
those in particular. Those are--most settlement agreements in 
fact all that I have seen contain nondisclosure clauses in 
them. Those are not by our doing. We don't offer sample 
language for NDAs and we don't require employees to have them 
in their settlement agreements. The product of the parties' 
negotiation. But that nondisclosure----
    Ms. Wasserman Schultz. During the mediation?
    Ms. Grundmann. During the mediation, during the hearing 
wherever, any time in the process. If there is a nondisclosure 
agreement, it means that we can't talk about it.
    Ms. Wasserman Schultz. If they reach a nondisclosure 
agreement?
    Ms. Grundmann. Correct.
    Ms. Wasserman Schultz. But before there is a nondisclosure 
agreement, if there is one, wouldn't it be more transparent to 
provide settlement information via office rather than suggest--
offer that information in the aggregate. I mean we all have 
about 18 employees. It really is unlikely that a specific 
employee would be exposed unwillingly if you are reporting what 
office has reached a settlement.
    Ms. Grundmann. We have provided our oversight committee's 
CHA with all the numbers basically by year. They have also met 
with us and they talked about individual settlements but we 
haven't talked about which offices they are attached to.
    Ms. Wasserman Schultz. But you aren't prohibited under the 
law from doing so, you are choosing not to?
    Ms. Grundmann. I think we are prohibited--no, I think we 
are prohibited under the law. In terms of the strict 
confidentiality that adheres to each one of our processes and 
the nondisclosure agreements we cannot disclose who they are.
    Ms. Wasserman Schultz. Does the law require you to only 
report in the aggregate or are you allowed to provide a 
breakdown publicly by office rather than a yearend total.
    Ms. Grundmann. We don't think the law allows us to----
    Ms. Wasserman Schultz. When I asked you the question a 
minute or so ago you, answered differently.
    Ms. Grundmann. What I am trying to say is we don't think 
the law allows us to break it down individually by office. Now 
can we do that? We think we can if the law changes.
    Ms. Wasserman Schultz. But when I just asked you a few 
minutes ago you said that you don't offer it that way, but the 
law doesn't prohibit it because you worry about exposing the 
employee.
    Ms. Grundmann. That is true, yes.
    Ms. Wasserman Schultz. So is it prohibited or is it by 
choice?
    Ms. Grundmann. We believe it is prohibited.
    Ms. Wasserman Schultz. So then your first answer was not 
correct?
    Ms. Grundmann. I misunderstood your question. I am sorry.
    Ms. Wasserman Schultz. Okay. Well, the transparency issue 
is revolting. It is absolutely unacceptable that we continue to 
let Members who abuse their employees hide. And respectfully, I 
don't agree with your interpretation of your inability to 
instead of report those numbers those settlement numbers in the 
aggregate. So I would like to see the opinion that you base 
that on.
    Ms. Grundmann. Sure.
    Ms. Wasserman Schultz. So Mr. Chairman, if we could have 
that information provided by the OOC?
    Ms. Grundmann. Sure.
    Ms. Wasserman Schultz. Because I would like to see where 
that opinion has been proffered to you when it has been 
inquired about in the past.
    Ms. Grundmann. Sure.
    Ms. Wasserman Schultz. Thank you. I yield back.
    Mr. Yoder. Just so for clarification, is it your testimony 
then that that has changed under the legislation that has been 
passed in the House?
    Ms. Grundmann. The reporting requirements will be--yes. The 
Reform Act provides for--are disclosing Member's offices that 
have had settlements and awards that have come through the 
Treasury account that come out of the account. And that 
reporting would be on a 6-month basis to be published on our 
website.
    Mr. Yoder. Office by office?
    Ms. Grundmann. Office by office, particularly with the 
Members.
    Mr. Yoder. Based on the legislation that passed the House.
    Ms. Grundmann. Yes.
    Mr. Yoder. You think that clarifies the statute or directs 
it, regardless of the question answer you were just having with 
Ms. Wasserman Schultz.
    Ms. Grundmann. Yes.
    Mr. Yoder. You think that gives you the direction to be 
able to do it?
    Ms. Grundmann. Right.
    Mr. Yoder. Does it direct you to do it or does it permit 
you to be able to do it?
    Ms. Grundmann. No, it directs us to do it, we shall, we 
shall.

                          SETTLEMENT PAYMENTS

    Mr. Yoder. Did you have a follow up, Ms. Wasserman Schultz?
    Ms. Wasserman Schultz. Yes, just based on your question, 
because my understanding of the legislation we passed was that 
those settlements would no longer be able to be paid out of a 
Member's office or a committee office, a committee budget but 
would have to be paid by the Member personally. Is that 
correct?
    Ms. Grundmann. That is a great question because there is a 
mechanism that the format developed. Currently the way it works 
is when a settlement agreement comes to us, we request funds 
from the Treasury to be placed in an account that is designated 
for payment. After we obtain payment information, the funds are 
dispersed and the account is emptied.
    So there is a compromise that the Reform Act struck. Rather 
than having the employee have a settlement to chase after 
collecting that fund, the compromise that was struck is that we 
still pay the settlement or award up front and we leave it to 
other means for the Member to repay that to the Treasury. We 
are not in the collections service.
    Ms. Wasserman Schultz. What does leaving it to other means 
mean?
    Ms. Grundmann. It is in the statute, there is a means for--
they give the Member I belive 90 days to repay the Treasury. If 
that doesn't occur, then a garnishment occurs, and if that 
doesn't occur, then they go after the annuity.
    Ms. Wasserman Schultz. Okay. That is what I thought it was, 
but I just wanted to confirm. Thank you.

                  REFORM IMPLEMENTATION AND TRANSITION

    Mr. Yoder. Thank you.
    We are blessed this afternoon to have the ranking member of 
the full committee from New York, our good friend, Mrs. Lowey. 
Welcome.
    Mrs. Lowey. It is so nice that you are blessed. We have had 
several hearings so I have been running around, but I am glad 
that I am able to contribute a little bit today. And I thank 
you. I am sorry I missed your testimony.
    Following up again--and I apologize if it is repetitive 
because I missed so much of it.
    If the final product is similar to drafts that have been 
discussed, how long would it take the OOC to implement the new 
reforms?
    Ms. Grundmann. That is a great question. The draft gives us 
180 days, at least the version that is passed the Senate. We 
would love a year, because there are a number of processes that 
need to occur. There is the hiring, the standing up of the 
investigatory authority granted to the general counsel. In 
addition to that, there is the climate survey that we have to 
contract out for and that we have to meet with our the 
committees and all our stakeholders and talk about it and roll 
that out. And then there is finding more space for the office. 
In addition, we are going to have it to design our name. A lot 
of things are going to change, new rule writing. One hundred 
eighty days is really fast, we would like a year.
    Let me further answer that. What helps us out a little bit 
in this process is the Library has come under us now so that 
gives us an opportunity today to work with the Library to 
develop how they fold into our system. So that is one less 
thing in other words that we have to do.
    Mrs. Lowey. Now, another question, should new allegations 
arise in the meantime, what is the OOC doing to make sure 
victims aren't misinformed or misrepresented during the 
transition?
    Ms. Grundmann. We still have our counseling period. And our 
counseling period----
    Mrs. Lowey. You still have what?
    Ms. Grundmann. Our counseling period that begins our 
process. And how that works really is the employee comes in and 
meets with our counselor and she explains to the employee what 
avenues of redress the employee has. Such as you can go to the 
government ethics committee. We understand that the Office of 
Employee Advocacy is being stood up even as we speak, and that 
is--for us it is good. Because if Congress is represented but 
the employee is not, the employee is clearly alone. So this 
gives us another person to talk to, somebody who also will 
understand our process who can explain the ramifications of the 
decisions the employees make.
    Mrs. Lowey. Now in light of the funding the OOC received in 
the 2018 omnibus, are there additional resources? What would be 
needed to carry out the new responsibilities?
    Ms. Grundmann. The new responsibilities pending passage 
from the Senate would essentially increase--we ran the numbers, 
would increase our 2019 request, it wouldn't double it, but it 
would bring at least another 50 percent to it, because we would 
have to bring on investigators to perform that function.
    Mrs. Lowey. And you have been specific about that in giving 
that information to the committee?
    Ms. Grundmann. Again, when the documents--when we filed a 
justification request the law had not passed. So our budget 
request has actually changed over a period of time. The chasing 
proposals, as you will. We know we don't have the investigatory 
authority currently so we haven't asked for the investigators 
because there is nothing to investigate.
    At the time that we are granted the authority we are going 
to be looking for that--either the FTE or the funding for that 
function.
    Mrs. Lowey. And I assume you will keep the committee up to 
date on that request.
    Ms. Grundmann. Absolutely. That is a promise.

                         LIBRARY VISITOR SAFETY

    Mrs. Lowey. In another area, I know you are aware that the 
Library of Congress, Dr. Heyden, has an inspiring vision for 
the Library. She is going to leverage their incredible 
collections, historical artifacts, beautiful architecture to 
improve the experience for visitors. And I want to ensure that 
the Library's facilities can safely handle this increased 
traffic.
    Can you tell us about any recommendations you have made to 
the Library of Congress and the Architect of the Capitol that 
might be relevant and specifically about the stairwell and fire 
egress needs?
    Ms. Grundmann. That is a good area to talk about. Currently 
our general counsel does all the occupational health and safety 
inspections, including the tree. And he works directly with the 
parties. We generally don't discuss these items in a public 
setting, we can arrange a special session with you with the 
general counsel to have a more in-depth conversation.
    Mrs. Lowey. But you are confident that the plans are 
progressing appropriately?
    Ms. Grundmann. They are working with us. The architect is 
working with us. And these are long-term plans, they don't 
occur overnight. These are changes, major changes.
    Mrs. Lowey. Yeah but, a year goes by pretty quickly and I 
know there'll be additional requests. It is very exciting, but 
I just want to be sure that all the appropriate mechanisms are 
being put in place for review. Yes?
    Ms. Grundmann. Yes. Yes.
    Mrs. Lowey. Okay. Thank you, Mr. Chairman.

                          OSH RECOMMENDATIONS

    Mr. Yoder. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman I appreciate it. Thank 
you for being here and all of your work, we appreciate it.
    A couple of quick things, you guys require general counsel 
to inspect all legislative branch facilities for compliance 
with occupational safety and health standards at least once 
each Congress. As part of those inspections you provide 
recommendations. Do you currently have a list of 
recommendations that haven't been remediated? If so, how many 
are on the list? And what happens once you make a 
recommendation, is there follow up on your end?
    Ms. Grundmann. The process that the general counsel follows 
is actually detailed in the report and it starts with the 
inspection and then the findings. And if the findings are not 
correct, that could result in a citation. Citations can be 
litigated before our board of directors. Very rarely does 
anything result in citation, because the goal for the general 
counsel is to work with remediation, it is perspective in 
nature rather than looking backwards of who did what wrong.
    So that is an ongoing process. I think that is a 
conversation that we could reserve for the general counsel and 
make him available to you. Okay?
    Mr. Taylor. Okay. Thank you.

                          TRAINING DEVELOPMENT

    For fiscal year 2019 you are requesting an increase in 
funds to pay for three new online training modules. Can you 
break down your process for determining when the new training 
models need to be created, who develops them, determines the 
content and how often the training programs are then 
reevaluated to make sure they are up to date with the latest 
information.
    Ms. Grundmann. Correct. Well, they must be reevaluated 
every year, annually, because training becomes stale unless you 
change it. The current FTE request is actually aimed at 
development of these modules and updating modules along with 
delivering in-person training.
    Currently, by the end of this fiscal year, we will have 
four online modules that are new. The first one in January was 
a new antisexual harassment discrimination retaliation module, 
followed by a family and medical leave module that was launched 
on the anniversary of the FMLA. Coming later on in May is our 
bystander intervention training, along with unconscious bias. 
Those are topics and we have talked about changing the culture 
in this environment and changing the behavior as part of it so 
that became a top priority for us.
    Let me also say something about the modules that the 
modules are great, they are good for the staff that is not in 
D.C., but that is the kind of training that lends itself best 
to in-person training where our instructor, our educator can 
engage in a conversation with individuals in that office. So we 
are urging in-person training.
    To add to that in 2019, this is what we are looking to do, 
not forget the other side of our functions, but we are looking 
at adding an ADA public accessibility and common safety and 
health issues module, interactive. And that will be also for 
your district offices.
    Currently our safety inspectors conduct webinars with the 
State and district offices about these issues. And that is a 
good thing. It is good for your staff and it is good for your 
constituents that come and visit you in your home office.
    Mr. Taylor. Who develops and determines it?
    Ms. Grundmann. We do as a group. We look at priorities, we 
look at what we haven't covered yet, we look at what the 
community wants us to discuss and the community has asked us to 
focus on sexual harassment and the behaviors that can lead to 
sexual harassment.
    Mr. Taylor. Thank you.
    Thank you, Mr. Chairman.

                           CASE FILE SECURITY

    Mr. Yoder. Ms. Grundmann, how do you store your case files?
    Ms. Grundmann. That is--I knew you were going to ask that 
question. So first of all, let me just say that we have not 
been breached, we have not been hacked, we have never stored 
our data on an unsecured server. We recognize and our oversight 
committee has confirmed that we are Fort Knox and that is not 
our words, it is theirs.
    We are in discussions with our oversight committee on how 
to handle this, but Fort Knox doesn't talk about their 
cybersecurity or their physical security of functions in a 
public setting. We know you have questions. We want to answer 
those questions. And we would be happy to set up a private 
meeting with you to have that conversation.
    Mr. Yoder. So it is your testimony to the committee today 
that you have not stored complaints on an unsecured server?
    Ms. Grundmann. Correct.
    Mr. Yoder. So the letter from Senator Wyden to your board 
of directors and the article entitled congressional office 
stored sexual harassment complaints on an unsecured private 
server, those allegations are incorrect?
    Ms. Grundmann. That is not true, correct.
    Mr. Yoder. Those are incorrect allegations. Why do they 
believe that you have. What do they base that on?
    Ms. Grundmann. I think this is a better conversation in a 
private setting. And I am free after this hearing.
    Mr. Yoder. Okay. I just think it is a concern for the 
committee regarding how the information is maintained.
    Ms. Grundmann. No doubt.
    Mr. Yoder. My understanding is starting fiscal year 2016 
your office began the process of replacing your case handling 
system.
    Ms. Grundmann. Oh, it is not a case handling system, it is 
a management system so we can track when cases come in.
    Mr. Yoder. Where you store them and how you manage them are 
two different sort of topics there?
    Ms. Grundmann. They are actually the same, because the case 
management system is on this secured server.
    Mr. Yoder. Okay. It is my understanding you began the 
process of replacing the case handling system, part of the 
system is intended to have a fully electronic component, which 
would create a more streamline process. When will that be in 
place? And in total how much will the new system cost?
    Ms. Grundmann. It is currently in place. What we are 
talking about for 2019 is a new e-filing system. And if you go 
to the Cadillac series, it is $260,000 for just the initiation 
process itself and then about $35,000 annually to maintain it.
    Mr. Yoder. Okay. Mr. Ryan.

                            TRAINING DEMANDS

    Mr. Ryan. Thank you, Mr. Chairman.
    So one of the things we think about here on the 
Appropriations Committee in general and on this committee in 
particular is when we begin doing something, what does it look 
like today and then what does it look like 2 years from now, 3 
years from now through the budget cycle and how much.
    If we were to ask you to begin the training in a 
comprehensive way like we all feel needs to happen, can you 
give us some perspective on what scaling that up looks like? I 
know you talked a little bit about some of the full-time 
employees and what your needs are. But can you give us a little 
bit more insight on what that looks like.
    Ms. Grundmann. Well, currently we have two people doing the 
training who do other functions. We average about two to three 
sessions a week, in between sessions we are schooling up for 
the next session. We are ready to go now, full blast. Our 
people enjoy training. And like I said, we have everybody on 
staff who is trained to do it right now.
    Mr. Ryan. So moving forward there wouldn't be a significant 
increase in trainers? I mean we are getting more demand, more 
people are fortunately coming out, speaking out, that is a good 
thing. We just want to make sure we are able to handle the 
demand of that and at the same time the preventative part 
through----
    Ms. Grundmann. And the focus really is on preventative at 
this point. The behaviors and the biases. But what we need to 
do is free up people to do their jobs. I mean, we have safety 
inspectors and attorneys in our general counsel's office doing 
the training right now. They need to focus on the case 
processing as well, the cases and the briefs.
    We do have--we are ready to train now, but we need more 
staff to fulfill our other functions as well.
    Mr. Ryan. You talk a lot about the video conferencing and 
the video training. I think we all know the down side to that. 
Can you talk to us a little bit about what--we know it has 
limitation, but what are the benefits of that that you have 
seen in your personal experience?
    Ms. Grundmann. If you are talking about video conferencing, 
when we are talking about video conferencing are we just 
looking at your district offices?
    Mr. Ryan. Yes.
    Ms. Grundmann. It is a much smaller setting. It gives 
employees an opportunity to ask questions of the educator and 
create different scenarios. It is a much more personalized 
experience. It can be done--in person is better, but we don't 
have the funding to travel. It is the second best. It is better 
than a module. The module there is the baseline, then you go to 
video conferencing, then we go to in person.
    Mr. Ryan. Okay. Thank you. Thank you, Mr. Chairman.

         CONFIDENTIALITY AND INFORMING MEMBERS OF STAFF CONDUCT

    Mr. Yoder. Ms. McCollum.
    Ms. McCollum. I want to go back to your alternative dispute 
resolution. You said 40 percent of your mediation ends 
successfully?
    Ms. Grundmann. Forty percent approximately, yeah.
    Ms. McCollum. So Ms. Wasserman Schultz was talking and 
there was a discussion with Mrs. Lowey about Members acting 
inappropriately with their staff. But there is also Member 
offices where its staff and staff was not acting appropriately 
with each other.
    So part of what comes to mind is the length of time 180 
days and you have an employee maybe who goes through mediation 
and maybe somebody decides to leave on their own, they are not 
happy in the office. Maybe two employees actually worked 
something out, but then you have 60 percent where that is not 
ending at the mediation.
    Ms. Grundmann. Uh-huh.
    Ms. McCollum. We have interns in our office who can be a 
summer intern to someone who is maybe going to intern for 6 
months, maybe 9 months or something like that. What is the 
remedy for an employee who is in a work situation--because we 
have done and unfortunately some of it is being undone in some 
of the higher education institutions right now in dorm room 
settings where people are living together, because if you are 
working together in our office you are in close quarters.
    What do we do for someone who comes in as a victim, 
starting with counseling moving forward, does that person--part 
of the criticism with some of the Member settlements were 
people were removed from the office and paid. We tried to get 
people who are in sexual harassment and sexual abuse systems, 
women or men, couples, we try to get them separated. Now we 
have people working together with this timeline.
    So what is something if I went in and I was having problems 
not with--let's say not with a Member but with a coworker, you 
said it is all confidential. If I am a Member and someone 
approaches me, maybe I can figure something out to make the 
worksite more comfortable for everybody while this is going 
through. What do you do?
    Ms. Grundmann. Actually, that is very significant that you 
brought that up. In some of our training sessions, the Member 
is present and the Member will say, look, I am telling you 
right now, if you see any kind of activity like this, I want 
you to tell me. So they are stepping up to the plate. So that 
is an one-on-one, in-person training.
    Something else let me clarify for you, we talk about 40 
percent of our mediations settling, not all of them go on to a 
hearing. There is steep drop off from after mediation to an 
election of a hearing.
    Ms. McCollum. Right.
    Ms. Grundmann. So what can you do, education. You have to 
change the behavior, you have to change the climate. And you 
have to address--nip it in the bud before it starts, the 
culture has to change.
    Ms. McCollum. I understand that, I worked in the private 
sector and I worked on this a lot and I also serve on the 
defense committee. So believe me I have been in this over and 
over again. I am 63 so I have seen it for a long time. I know 
what is going on. Okay.
    My question was you have--if someone chooses not to go to 
the Member, they can choose not to go to the Member. They come 
in, there is something seriously going on in the office. At 
what point does the Member know or do you contact the Member so 
that the Member can make it system deceased.
    Ms. Grundmann. The Member's office would know--I don't know 
if the Member would know--but the Member's office chief of 
staff remember would know at the mediation stage, because in 
the counseling stage the employee comes to us the employing 
office is not told. If the employee choose to advance to 
mediation then we would contact House employment counsel and 
they would represent the Member in the mediation session.
    So presumably the Member would know of any alleged illegal 
activity at the mediation stage so that is day, somewhere 
between day 2 to day 45.
    Ms. McCollum. So to be clear and I would hope someone would 
come to me, but we all live in the real world. Right?
    So someone is in the counseling, your mediator sees 
something that is pretty alarming. Your mediator--does that 
mediator--can that mediator step in and say, you know, wait a 
minute. We are not doing counseling anymore. We need to move 
this up. We need to move faster.
    Ms. Grundmann. Well, the mediator is not part of the 
counseling stage. The counseling stage is a separate stage with 
one of our employees. The mediator would be trying to----
    Ms. McCollum. Well, okay. The mediator can sometimes tell 
that something isn't going to work.
    Ms. Grundmann. Sure.
    Ms. McCollum. Okay. So are the counselors empowered to step 
in?
    Ms. Grundmann. Because of the strict confidentiality 
clause, no they cannot tell the employing office and that is 
baked into the law. Now let's look forward and let's talk about 
the CAA reform. In the CAA reform there are certain remedies 
that are provided to employees----
    Ms. McCollum. I get that, but I am not waiting for the 
Senate here. If we--what is the big thing around here, see 
something, say something. If somebody in my office is under 
harm and a counselor knows that they are under harm and I am 
not told, eventually something goes out in the press later on, 
who is going to be held accountable? We are. And so I get the 
confidentiality and everything, but if somebody is really under 
that kind of harassment or duress that a professional counselor 
would say, time out, we have got to separate these folks, we 
have got to do something different, you are saying there is no 
way to step in?
    Ms. Grundmann. The counseling, and this is going to change, 
we hope this will change, is a misnomer, the counselor is not 
the employees representative. That is why you have the Office 
of Employee Efficacy coming in.
    The counselor is only telling the employee what his or her 
rights are and what avenues there are. It is essentially 
intake. It is not a therapy process. That is the difference.
    Ms. McCollum. Well, I am not talking about therapy. I am 
talking about somebody comes in to your office and there is 
something very seriously wrong going on, very serious.
    Ms. Grundmann. Yes.
    Ms. McCollum. And it is alarming to that individual. They 
know it is absolutely wrong. The Member's office doesn't find 
out about it. Can the employee waive that?
    Ms. Grundmann. Yes.
    Ms. McCollum. Do you encourage employees to waive that?
    Ms. Grundmann. Where the employee would waive it is so if 
they think that we can make a speedy resolution, a satisfactory 
resolution, the employee can waive confidentiality and we would 
go directly to the employing office.
    Ms. McCollum. Mr. Chair, I think this begs to why this 
system needs to change and I think the new system if the Senate 
ever moves forward on it and we go to it, it is going to have 
things that have to be worked out as well. This reminds be back 
in the day when if a police department came upon a domestic 
violence dispute how it used to be handled versus how it is 
handled now. You take care of the victim.
    Thank you, Mr. Chair.
    Mr. Ryan. Mr. Chairman, if I may.
    Mr. Yoder. Sure.
    Mr. Ryan. I don't want to keep splitting hairs here, but I 
think it is important. So there is only one blanket elimination 
of your confidentiality and maybe one of the things that we 
need to explore is a limited waiver for the boss, because I 
don't want someone saying I need someone to intervene here 
immediately.
    I am not talking about a blanket waiver of confidentiality, 
I am talking about very limited so you can tell my boss that we 
can fix this problem.
    Ms. Grundmann. The employee can do that currently under the 
system.
    Mr. Ryan. And it would be limited to just the boss?
    Ms. Grundmann. It would be limited for the purposes--to 
resolve the issue, yes. It is broader than that, it would be to 
resolve the issue. So the confidentiality goes--the employee's 
driving it all the way through. He or she is deciding at 
counseling whether they want to move to the next stage. At 
mediation the employee is deciding whether they want to move to 
the next stage.
    At the next stage they are deciding which process to 
choose. The law and we understand the frustration. We have been 
called Byzantine, shrouded in secrecy, but this is the process 
that Congress designed in 1995 and that is the process you are 
seeking to change. To lift that veil of confidentiality, and 
particularly if an employee wants it. Sometimes the employees 
will come to us and they don't want us to discuss it with their 
employing office, in which case it ends.
    Mr. Ryan. Right. Mr. Chairman.
    Mr. Yoder. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. So under the law that bill that we 
passed out of the House, Mr. Harper's bill, what happens to 
confidentiality?
    Ms. Grundmann. Confidentiality, it is still there. There is 
a provision for confidentiality, it is not--no longer called 
strict confidentiality anymore. We need to reach out to our 
lawmakers, CHA in particular to find out what the change is 
between strict confidentiality--for us, I don't think anything 
has changed in the sense that there is no affirmative duty for 
us absent waiver by the employee to discuss their claim with 
anyone.
    Ms. Wasserman Schultz. So we haven't changed the 
transparency in the new bill?
    Ms. Grundmann. The transparency changed in terms of our 
reporting requirements. They are more ample, they are more 
fluid and they are certainly more ongoing.
    Ms. Wasserman Schultz. Because I am looking at the language 
in the bill, which says protection of personally identifiable 
information, if a committee to which a claim is referred under 
paragraph 1 issues a report with respect to the claim, the 
committee shall ensure that the report does not directly 
disclose the identity or position of individuals involved in 
the claim.
    Ms. Grundmann. You are talking about the Ethics Committee, 
right?
    Ms. Wasserman Schultz. I am talking about whatever this is 
referring to in the legislation.
    Ms. Grundmann. It sounds like the Ethics Committee, because 
we don't have a committee in our process.
    Ms. Wasserman Schultz. The bottom line that I want to know 
is have we enabled there to be transparency absent the waiver 
of the confidentiality by the person who is the victim?
    Ms. Grundmann. We think you have. Certainly the employee is 
going to have to choose whether or not they want it disclosed. 
I mean there is competing interest here, isn't there? There is 
a competing interest for the public to know what is going on 
and there is the other interest of whether the employee wants 
to disclose what is going on.
    Ms. Wasserman Schultz. What have we required in the 
legislation that has passed the House?
    Ms. Grundmann. That it remained confidential, that is still 
there. So is your question that you want to know which 
lawmakers offices----
    Ms. Wasserman Schultz. My question is if somebody has 
abused a subordinate of theirs, whether they are a Member, or a 
chief, or an LD or anybody, does the law, if this bill became 
law, still protect that individual if at the conclusion of the 
process they settled and are found in some ways to have been 
guilty of what they had been accused of?
    Ms. Grundmann. In the Senate version the language is 
extended to naming not just the Member but senior staff.
    Ms. Wasserman Schultz. An in our version?
    Ms. Grundmann. It is not.
    Ms. Wasserman Schultz. So no one gets named in our version?
    Ms. Grundmann. Just the Member.
    Ms. Wasserman Schultz. So if a chief of staff engages in 
that conduct or anyone else what isn't the Member, their 
conduct is not disclosed?
    Ms. Grundmann. That is correct.
    Ms. Wasserman Schultz. That is absolutely unacceptable.
    Mr. Yoder. Further questions for Ms. Grundmann?
    Thank you for your testimony today. And we look forward to 
continuing to work with you on your budget request and these 
many issues that have been raised today. And we appreciate your 
work on behalf of the taxpayers of the United States.
    Ms. Grundmann. Thank you.
    Mr. Yoder. This subcommittee meeting is adjourned 
temporarily and then we will reconvene in about a minute in 
which the Congressional Budget Office will be here to testify.
    [Questions for the Record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     

                                         Wednesday, April 18, 2018.

              FISCAL YEAR 2019 CONGRESSIONAL BUDGET OFFICE

                                WITNESS

KEITH HALL, DIRECTOR, CONGRESSIONAL BUDGET OFFICE
    Mr. Yoder. We will call the subcommittee back to order. 
Good afternoon. I would like to welcome Keith Hall, Director of 
the Congressional Budget Office, back to the committee.
    Dr. Hall, welcome.
    Dr. Hall. Thank you.
    Mr. Yoder. Created in the Congressional Budget Act of 1974, 
that infamous bill, the Congressional Budget Office produces 
independent analysis of budgetary and economic issues in 
support of the congressional budget process.
    Each year, CBO produces hundreds of formal cost estimates, 
thousands of preliminary cost estimates, and dozens of analytic 
reports and papers, releases numerous economic projections, and 
is a constant source of advice relating to budgetary issues for 
Members and staff.
    Last year, I had the opportunity to visit with Director 
Hall and tour CBO's offices personally, and during that tour, 
it became clear to me just how committed the CBO staff is to 
their mission. You could feel the energy and enthusiasm 
throughout the office.
    CBO's fiscal year 2019 budget request is 50.7 million, 
which represents a 1.6 percent increase from previously enacted 
levels. In reviewing your budget justification, this year CBO 
focuses on three key areas: Responsiveness to Congress, 
increased transparency, and expanding analytical capacity.
    I am supportive of all three of these areas in increased 
transparency, and I look forward to hearing more about your 
plans to improve in each area during your testimony and the 
question and answer that will follow.
    I would now like to yield to the great Ohioan, my friend, 
Mr. Tim Ryan.
    Mr. Ryan. Thank you, Mr. Chairman. I will keep my remarks 
brief.
    I want to thank Director Hall for being here today and 
highlighting for the members of our subcommittee the important 
work of the Congressional Budget Office. As we have learned, 
since 1975, you have been providing independent analysis of 
congressional legislation. We certainly do appreciate that.
    These men and women are consummate professionals who, let's 
be honest, sometimes frustrate both sides of the aisle with 
their analysis of legislation we would like to see signed into 
law. But their work is essential to the operation of Congress. 
And I have seen that on both sides over the last 16 years, of 
both sides being upset.
    Today, with the ongoing war on facts, science, and 
expertise, your job is even that much more important. CBO's 
analysis is a key part of pushing us towards fiscal discipline 
and transparency.
    Members of Congress need to know the economic effects of 
the bills before we vote, and the public needs to know how 
those economic effects were estimated. That is why I am pleased 
to see the CBO focus on the need for responsiveness to Congress 
as well as transparency in their fiscal year 2019 budget 
request.
    I will save the rest of what I have to say for questions, 
and I yield back.
    Mr. Yoder. Thank you, Mr. Ryan.
    Dr. Hall, your complete statement will be made part of the 
official Congressional Record. Feel free to summarize your 
remarks at this time.
    Dr. Hall. Sure. Great.
    Chairman Yoder, Ranking Member Ryan, and members of the 
subcommittee, thank you for the opportunity to present the 
Congressional Budget Office's budget request. CBO is asking for 
appropriations of 50.7 million for fiscal year 2019. That 
amount represents an increase of $800,000, or 1.6 percent from 
the $49.9 million provided to CBO for 2018. Of the total 
amount, nearly 91 percent would be used for personnel costs. 
Increases of $2.6 million for three priorities: to pay for 
current staffing, to bolster responsiveness and transparency, 
and to expand analytical capacity--would be significantly 
offset by one-time savings of $1.8 million this year. With the 
requested funding, CBO would be able to add 13 new employees to 
augment its capabilities. To fund the current staffing levels 
in 2019, CBO requests an increase of $1.2 million. That amount 
would be used for a small increase in employees' average salary 
and benefits to keep pace with inflation. If such funding is 
not provided, CBO will need to shrink its staff and 
consequently provide less information and analysis to the 
Congress in 2019.
    CBO proposes to hire 20 new staff members by 2021 to 
bolster its responsiveness and transparency. In 2019, the 
agency would hire 10 of those new employees at a total cost of 
$1 million, mainly for salary and benefits.
    The agency has shifted resources already to undertake such 
activities and has plans for further shifts, but many 
initiatives of great interest to Congress could be undertaken 
only with more employees.
    Also, with additional resources, CBO would be able to 
pursue three main strategies to produce cost estimates more 
quickly: First, the agency would hire more assistant analysts 
who could move from one topic to another and provide support to 
more senior analysts when demands surged for analysis of a 
particular topic, such as healthcare, natural resources, or 
banking; second, CBO would hire analysts to develop deeper 
expertise in certain topics, such as cybersecurity and higher 
education policy, so that the agency was better positioned to 
analyze new proposals in those areas; third, the agency would 
hire analysts to expand its use of team approaches, in which 
work in large and complicated proposals is shared.
    With respect to transparency, CBO is actively exploring 
ways to provide additional information about its modeling that 
would be useful to Congress. The agency has released new 
publications this year describing its processes for producing 
economic forecasts, budget baselines, and cost estimates.
    Key staff are making presentations to congressional staff 
about those processes, and in the coming months, efforts to 
bolster transparency will include the following: Publishing 
detailed information about key aspects of CBO's updated model 
for simulating health insurance coverage, including computer 
code and about how analysts use the model in preparing 
estimates; developing a version of CBO's model for projecting 
spending on discretionary programs to allow for replicating 
roughly 40 percent of the agency's formal cost estimates; 
releasing technical documentation and computer code explaining 
how key parts of CBO's long-term budget model work and how they 
contribute to the agency's analysis; providing information 
online that enables users to examine how a large variety of 
changes in baseline economic projections can affect projections 
of the Federal budget; and last but not least, posting on an 
agency's website, a tool for examining the cost of different 
military force structures.
    Added resources would also allow CBO to produce other kinds 
of information that would aid transparency. For instance, CBO 
could provide more information about the basis for key 
parameters that underlie the results of models.
    Additional funding would also help the agency turn its 
internal comparisons of projections and actual results--for the 
economy, revenues, spending, deficits and debt into public 
documents.
    CBO proposes to expand its analytical capacity primarily by 
adding three new healthcare analysts in 2019. The total cost 
would be $400,000. Congressional interest remain high in 
modifying and replacing the Affordable Care Act, and changing 
Medicare and Medicaid, and the new analysts would help the 
agency examine new approaches to do so.
    The increases for the three priorities are offset by $1.8 
million in savings, resulting from being able to use fiscal 
year 2018 funding to cover one-time costs for the migration of 
the agency's data center, and contractors' support of 
transparency efforts, and to pay for some multiyear contracts 
to acquire data and to install new communication lines.
    The requested amount of funding would allow CBO to provide 
estimates and other analysis to the Congress, such as more than 
600 formal cost estimates and thousands of preliminary informal 
cost estimates; about 80 analytical reports and papers; and 
more than 100 scorekeeping tabulations, including account-level 
detail for individual appropriations acts at all stages of the 
legislative process, as well as summary tables showing the 
status of discretionary appropriations and running totals on a 
year-to-date basis.
    In closing, I would like to thank the committee for its 
longstanding support of CBO. That support has allowed CBO to 
provide budget and economic analysis that is timely, 
thoughtful, and nonpartisan as the Congress addresses issues of 
critical importance.
    Thank you.
    [The prepared statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
                    PRIORITIZATION OF COST ESTIMATES

    Mr. Yoder. I appreciate your testimony, Director Hall.
    In your testimony you mention that last year, CBO completed 
740 cost estimates, formal cost estimates?
    Dr. Hall. That is correct.
    Mr. Yoder. That is the highest number in a decade, I think 
you said, with the average completion time of 25 calendar days. 
How do you prioritize cost estimates?
    Dr. Hall. Really, we look to committees. The basic logic is 
that legislation that is close to getting to the floor on a 
vote needs the most priority, and so we focus on the priorities 
of committees. We actually ask committees what their priorities 
are and look at their legislation.
    That is also consistent with how we were created. We were 
created to be responsive to the Budget Committee, Ways and 
Means, et cetera. So we very much are a committee-oriented 
organization, and this actually creates a lot of frustration 
with us because we only have resources to work for committees. 
We don't work as much as we would like for individual Members, 
so that is sort of how we prioritize things by literally 
talking to committees.
    Mr. Yoder. So if a Member doesn't have the committee's 
endorsement to get something scored, how would they ever get a 
cost estimate of that legislation?
    Dr. Hall. Well, if we have got time, we can do it. And, in 
fact, that is actually part of what I hope we could--we could 
do more of that if we have more resources. This is part of the 
responsiveness.
    But lots of times, individual Members just have to wait. We 
literally will go back to a committee and ask the committee--if 
we are busy, ask the committee, should we make this a priority? 
Where should this be in our priorities? And sometimes we have 
to disappoint Members.
    Mr. Yoder. Well, and I am sure that happens a lot. I mean, 
there are thousands of bills that are, you know, crisscrossing 
around here, some of which might be interesting to get a cost 
estimate of, but that will maybe never even see the light of 
day, certainly never get a hearing, don't have many cosponsors.
    But I do think that there needs to probably be a mechanism 
for Members who have demonstrated that legislation has buoyancy 
in and of itself outside the committee process. You know, we, 
for example, have a bill that has 322 cosponsors. That is a 
lot.
    Dr. Hall. Right.
    Mr. Yoder. That maybe even one of the most cosponsored 
bills in Congress. Yet, when my staff exchanges with you on 
this legislation, essentially the office has stonewalled us, 
indicated they can't score it, and then just responding to 
requests to engage.
    So my own experiences, outside of working directly with 
you, sir, and during and meeting some of your very fine people, 
that is not a very good correspondence, you know, a very good 
experience.
    And part of our job here is oversight, to ensure that we 
are working on behalf of all the Members, and not just the 
Appropriations Committee, or not just the Judiciary Committee. 
And so, one of the things I think we are really going to need 
to look at is how we make the CBO responsive to initiatives for 
individual Members who have demonstrated that legislation has 
buoyancy or has support.
    Maybe there is a threshold. I mean, if someone brought you 
435 cosponsors, would that be enough, you know? I mean, there 
ought to be some demonstration. Maybe if you have 100 people 
that have sponsored your legislation, that goes into another 
category. But I would think 322 would at least demonstrate the 
need for some acknowledgment that that might be of value to 
have it scored.
    The other problem with that is, in some cases, you need to 
have the cost estimate in order to move something through the 
committee process. So you sort of have a chicken-and-egg 
problem here. And I understand it is a resources-driven 
situation, but, you know, these loose ends create frustration 
for rank-and-file Members.
    Dr. Hall. I appreciate that. Hopefully, we can figure a way 
out to prioritize more of that work. You know, maybe we can set 
aside a certain share of our time for just non-committee work 
so we actually have some time carved aside, some things like 
that. That sort of thing is the sort of--what we are sort of 
hoping to do with increasing our staff a little bit.
    Mr. Yoder. Do you think my team's interaction with the CBO 
in that experience is common, or is that a unique, inexplicable 
result? Do you find that surprising, or do you find that, yeah, 
that is sort of how it goes, we are inundated with so much 
stuff that we know there is a lot of loose ends and maybe not 
even return calls, et cetera.
    Dr. Hall. I am afraid it is somewhere in between. It is not 
absolutely unique. It does happen. It doesn't happen very 
often. But I know it is frustrating. For example, we should 
never stop responding. And I think Members should always feel 
free to call me to see--to get an explanation for where our 
priorities are and we can talk about what we can.
    One of the things that is a little tricky for us is so much 
of our work is informal. And when it is informal and a 
committee asks us not to talk about it, for it to be 
confidential, I can't tell you what we are working on sometimes 
other than assure you that we are busy. And that is kind of 
frustrating.
    Mr. Yoder. Well, I think it is to the benefit of Congress 
that the CBO is a viable and trusted entity. As Mr. Ryan noted 
in his comments, sometimes the results frustrate, you know, 
both sides of the aisle. That is to be expected.
    You know, we have added additional transparency 
requirements in our 2018 report, which you referenced in your 
opening comment. You know, your thoughts and our ability to 
work with you and if it is a resource--I know you mentioned 
resources as part of this but, you know, to gain that trust 
part of that is transparency.
    Dr. Hall. Sure.
    Mr. Yoder. And, you know, CBO's score is as good as 
bipartisan trust exists.
    Dr. Hall. Right.
    Mr. Yoder. Right? And if one side isn't going to regard it 
as viable, then CBO starts to lose its effectiveness.
    So I encourage colleagues on my side of the aisle, you 
know, and whoever is in the majority and minority, to work with 
the CBO to make it more effective, where they have concerns to 
raise those with you, and to make it more viable, because the 
CBO is necessary, I believe, in this process. Their cost 
estimate process is critical.
    So with that, Mr. Ryan.

                    IMPACTS OF HEALTHCARE PREVENTION

    Mr. Ryan. Thank you, Mr. Chairman.
    So you mentioned you are going to hire more healthcare 
analysts in the next couple of years. One of the longstanding 
discussions we had during the healthcare reform debate was 
about preventive healthcare--I think we are going to get in the 
weeds a little bit here--because it was a frustrating thing for 
us to kind of deal with at the time, that there is an inability 
of CBO to account for savings through prevention in the 
healthcare system.
    Can you explain to me how that is--why that is an issue?
    Dr. Hall. Sure. Sure. It is not that we don't try. We 
really do look very carefully to see if there is some savings 
from preventative healthcare. One of the difficulties for us is 
having evidence of that, having really solid evidence that we 
have got something to lean on about how much impact the 
preventative healthcare has.
    And there is another side to it. I think it is easy to 
underestimate the cost of preventative healthcare sometimes. 
For example, if you provided additional healthcare to a large 
number of people, and a small share of them really benefits, it 
is still a small share of the spending.
    And so, that is one of the things that I think people don't 
often think about is a lot of preventative work doesn't 
actually make its way into better healthcare. Even though it 
does for individuals, it doesn't necessarily for the entire 
spending.
    But we are serious about trying to look at that. We really 
do try to look for savings on that. There wasn't this year, but 
the year before, I think we have even used our blog post to 
talk about how we are limited in some preventative healthcare 
issues, and we would love to see some research that would help 
us use that in our estimates.
    Mr. Ryan. What can we do to help?
    Dr. Hall. Oh, I think continue to make that a priority. You 
know, I think----
    Mr. Ryan. I mean, who do we need to contact? Do we need to 
coordinate this with HHS? Are there research institutions that 
are out there that we can engage with? I just think, I mean, 
moving forward, regardless of where you stand on healthcare, I 
mean, we should know as a country how much we are going to save 
if we have a robust preventative program, regime established 
for our citizens. I mean, how can we probably move forward with 
healthcare reform, whether you want to do their side or our 
side or whoever's side, who can we help you engage with?
    Dr. Hall. Well, I think certainly talking to HHS and 
talking to individual researchers that this is a priority, 
because so often we are left with really just no evidence on 
what the effects of some preventative healthcare will be.
    Mr. Ryan. And that is just mind-boggling to me. You know, I 
am not trying to be a jerk, but I am just saying, you know, how 
are we, in 2018 in the United States of America, and we can't 
figure out how much savings we can garner from making sure that 
people have preventative healthcare, you know, given Medicare 
and Medicaid and what we know about screenings? I think we need 
to make this a priority because, moving forward, health care is 
going to continue to be an issue. So I made my point.
    A follow-up question would be, are there any other areas of 
our economy, programming that you feel the same, somewhat the 
same frustration in your analysis and that your analysts may 
feel?
    Dr. Hall. Sure. Actually, there are lots of areas. One of 
the bigger ones, it comes up almost every time we have our 
budget and economic outlook that we produced last week, is we 
continue to sort of adjust the cost of healthcare, of Medicaid 
in particular. We keep overestimating the cost of it. It keeps 
coming down.
    And the big problem is, we don't know why. And so, it is 
hard to change the forecast if you don't know why it is coming 
down. It is just coming down. So we actually are trying to----
    Mr. Ryan. Medicare or Medicaid?
    Dr. Hall. Medicaid.
    Mr. Ryan. Medicaid.
    Dr. Hall. Medicaid in particular. But, you know, that is a 
big part of the budget, and we hate to see ourselves 
overestimate the cost, you know, more than once or twice 
because we would like to sort of get a good--a better estimate.
    And we are handicapped because there just isn't any 
evidence of why that is happening. So that is one of the things 
we are trying to prioritize. It is an example, I think, of what 
you are talking about.
    Mr. Ryan. Mr. Chair, maybe there is an opportunity for us 
to sit down with the money we spend at NIH and some of these 
research institutions, the Department of Defense spends a lot 
of money on research, private university--private corporations 
spend a lot of money on research. Maybe there is a way for us 
to coordinate this so that we can just have a better 
understanding of what is working, what is not working.
    I am the first to say, if there is something that we are 
pushing that is not working, stop doing it. But we have to base 
that on some good information.
    Dr. Hall. Well, we would be happy to sit with you and talk 
a little bit about some priorities. We can certainly tell you 
where we feel like we would like some help, the extra help in 
terms of research that would help us more accurately score 
things like preventative healthcare.
    Mr. Ryan. Okay. Follow up on that.
    Thank you, Mr. Chairman.
    Mr. Yoder. Mr. Taylor.

                     OUTLOOK OF ECONOMIC FORECASTS

    Mr. Taylor. Thank you, Mr. Chairman.
    Thanks for being here. Appreciate it. I know you don't have 
an easy job, and like Congressman Ryan said, you have got your 
feet up on both sides sometimes, you know.
    CBO, do you routinely look back at previous estimates and 
compare those to actual outcomes? If so, what is your internal 
process for reevaluating those estimate models, and then how do 
you incorporate your findings going forward?
    Dr. Hall. Sure. Well, we do it in a big sense. Every couple 
of years, we look at our economic forecast, how has our 
forecast gone? We have also now completed recently a report on 
how accurate our overall forecast on outlays has been, and then 
also, revenues has been. So we get this big picture of what is 
the average error from our baseline.
    We are also starting to pick out particular bills and start 
to look back and sort of see how we did on those. We are always 
going to have a limitation, because so often a change in 
legislation is part of a bigger budget category and is very 
hard to isolate the effect of that change in the legislation.
    But we are starting to do that more when we can. For 
example, we just did it with our estimate of the ACA. We just 
took a really hard look about how well we did on that 
forecasting, and we actually made a presentation at CRS on it. 
But we do have some information on that. We are trying to do 
that more and more.
    And as part of our routine, this doesn't become public, but 
every year we go through all our budget categories and talk 
with the analysts and see how they did that year, how their 
budget category did. Was it up too high? Too low? And we talk 
about that, and that is actually part of their evaluation, and 
then we will discuss their modeling if they need to adjust 
things like that.
    Mr. Taylor. On that note for modeling methodologies, is 
that just an internal process, or do you reach out to, like, 
academia and other financial researchers that are experts to 
sort of have an independent evaluation to make sure that you 
guys are on track?
    Dr. Hall. Well, we use those folks routinely for almost 
anything we do. Anytime we do research reports, we reach out 
and have them review things and get feedback that way. And, you 
know, certainly, when we did those larger studies about how 
accurate have we been in forecasting revenues, for example, we 
have that reviewed by outside folks who have some expertise.
    So we try to engage in that way. We have a panel of 
economic advisers that we meet--meets twice a year, and we 
routinely throw important topics in front of them. We also have 
a panel of healthcare advisers. So, for example, we were 
concerned about our estimate of the effects of the individual 
mandate. Well, last fall we made a presentation to our advisers 
and got comments and got some info as to whether they thought 
we were being accurate or not.
    Mr. Taylor. What happens if you are inaccurate or when you 
look back and when your cost estimates are widely off, not 
because of, you know--perhaps, obviously, there is different 
budget things and other things that happen. What if you got it 
really wrong? Like who do you communicate that to? Do you talk 
to Members of Congress? Do you talk to folks like, Hey, we 
really got this wrong and this is why?
    Dr. Hall. Well, we are certainly willing to do that. We 
don't have a formal process for doing that. You know, our first 
notion is to try to fix what we are doing so we get it correct.
    I will tell you, one of the things that we are going to do 
that maybe fits into that category, I mentioned that once a 
year, I go through all our budget categories and do an analysis 
of how we did. It is something we call the analysis of actuals. 
We are actually going to start making that public every year. 
So you can actually just look at how we did by budget category, 
you know, in 2017, and sort of see how we did budget category 
by category, give you some feedback that way about how we are 
doing.
    Mr. Taylor. And then for your average time, was it 25 days, 
I guess?
    Dr. Hall. Right.
    Mr. Taylor. What is your goal? And then if you are not 
meeting that goal, why, and what are you doing to meet the 
goal?
    Dr. Hall. Well, the tricky part is different pieces of 
legislation have wildly different complexity and time frames. 
Basically, our process has us doing what I sort of feel like is 
due diligence, where we spend some time looking at the 
legislation carefully, talking with folks who understand 
exactly how the legislation is going to work, and that is a big 
part of the cost estimate.
    You know, we reach out to experts. We reach out to the 
administration folks who are going to be implementing it. So we 
have this process where we are working hard to get comfortable 
with what we think the impact will be. And then, it is a 
judgment call that, well, okay, we have done enough work, time 
to write it up and send it out.
    So it is this little process. And, you know, sometimes the 
time frames are really short. We get really rushed. And we 
still try to maintain a certain level of quality, but sometimes 
it is harder to do than others when we are pressed for time.
    Mr. Taylor. Thank you.
    Thank you, Mr. Chairman.
    Mr. Yoder. Ms. McCollum.

                SCORING ON PREVENTATIVE HEALTHCARE BILLS

    Ms. McCollum. Thank you, Mr. Chair.
    As Ranking Member Ryan said, healthcare will be in your 
future. I want to go back to healthcare. So I think there are 
places out there we can look at prevention. It maybe makes it 
hard for you to score in a very large bill, but I think 
figuring out a way to break it down, I would cite the Mayo 
Clinic, for example, with all of its research over the years.
    The CDC--I mean, the CDC knows if you have a flu shot, your 
emergency room trips, which not only--and insurance companies 
can figure that out too. So, I mean, there are some 
preventative interventions that are out there that are well-
known. And diabetes is starting to become on an up ramp where 
we are having more and more success in figuring out what to do 
with that.
    I am going take this to the Indian Health Service, and 
maybe figure out if this is a place where we can start. The 
chairman and I--and it is nonpartisan on the committee, as the 
other members of the appropriation knows, it is a way that we 
work on this.
    So I will just give you a snapshot. So an Indian healthcare 
hospital is going to be 40 years old. Any other hospital, 
without having--would have had revisions or things done to it 
within the last 10 years.
    An Indian healthcare hospital is going to maybe have an 
old--and I have seen them--an old x-ray machine. Any other 
hospital might, depending upon how old it is, would have a CAT 
scan.
    An Indian healthcare hospital might not--or clinic might 
not be very well connected to the internet where it could 
provide telemedicine. Rural hospitals have found that if they 
are going to survive and really do quality patient care, they 
have to have telemedicine available to them.
    So you start out with all those inequities and then you 
start looking at the outcomes that Indian healthcare service 
has. Then you look on top of that, if you just graduated from 
medical school, are you going to go to the 40-year-old hospital 
that has the old x-ray machine? So then you start having 
problems retaining doctors, nurses, nurse practitioners, PAs, 
technicians. It just goes on and on and on.
    Now, here is where we know it affects our budget. Someone 
on an Indian reservation--Mr. Stewart has had some great 
examples--has a--sustains a head injury. Come into the clinic, 
we don't have anything to look at that head injury. What are we 
going to do? We have to call air transport in to transport you 
out to get an x-ray, or to have the right machine do the scan, 
and maybe you need no further intervention. Oh, and now you 
have to come back.
    So I think there are some things out there, if we want to 
try to look at small bites to work together on that--on it, 
because we have treaty and trust responsibilities to get this 
right. We are totally failing.
    And now we are having hospitals that are falling out of 
compliance, which means we can't be reimbursed when we have 
patients there. So it is--we are seeing that cycle before our 
eyes now that we finally started bipartisanly, non-partisanly 
collecting information, working with the tribal communities on 
this.
    Another area where there is clear healthcare disparities is 
in maternal child health among minority populations, whether it 
is urban or rural. And we know what the outcomes are for 
hospitalization. We know what the outcomes are for low 
birthrate and everything else that is in there.
    So I think, you know, to Mr. Ryan's point--and I think 
there are a group of us--just let's not get into whether it is 
single health payer, the Affordable Care Act, ObamaCare, 
RyanCare, TrumpCare, whatever you want to call it.
    I think some of us need to start saying that we have a 
responsibility of using information that is in front of us on 
healthcare to lower costs, because it will lower cost for 
Medicaid, Medicare; it will lower cost for Indian Health 
Service; it will lower cost for the DOD; it will lower cost for 
the BA, and that means that we start reaching better parity.
    If someone wanted to put a group together to talk to you 
about how we would narrow the silo down so that we could look 
at it, to the chairman's point, you know, trying to get a 
reporter to get you to work on something--through no fault of 
your own. You are overworked--is very difficult.
    What would be your recommendation to those of us on the 
Appropriations Committee? And Energy and Commerce in a 
nonpartisan way is working on this too, especially with Indian 
Health Service.
    Dr. Hall. Well, I think certainly expressing interest to 
us. And one of the things I think we should try to do a lot 
better, and that is, just when you have an interest in talking 
about one of these topics, we can send folks in and just talk 
with you about it, how we think about the effects of some of 
these things, how we think we might approach it.
    One of the things that we wind up doing--again, it is too 
much for committees, but so much of our time is spent in this 
sort of technical assistance, where we are helping committees 
think through the possible legislation, draft pieces of 
legislation. I think that is really important.
    And this is the sort of thing, I think, could help 
individual Members more if we did more, where we could come in 
and talk to you about.
    Ms. McCollum. So one of the things that we ran into, and it 
is a term called ``dynamic scoring,'' so when we do have some 
of these preventions that we know will save money, we weren't 
allowed to do it because we were told there were prohibitions 
on dynamic scoring. Is that correct, on healthcare?
    Dr. Hall. No. No. In fact, we are directed to use dynamic 
scoring for any piece of legislation that is significantly 
large, and then we are required to do it whenever one of the 
Budget Committee chairs asks us to do it to the degree it is 
possible.
    Ms. McCollum. So the tax bill was dynamically scored, I 
understand.
    Dr. Hall. Right.
    Ms. McCollum. And so if someone had a piece of healthcare 
legislation, it could be dynamically scored is what you are 
telling me?
    Dr. Hall. That is right. Now, the tricky thing for us would 
be does dynamic scoring really makes a difference when it is a 
big piece of legislation. When it is smaller, there can be some 
dynamic effects, but they are much harder to estimate.
    But we are willing to look at it and talk about that. But 
we are not constrained on the dynamic scoring. In fact, I kind 
of wish we were used a little bit more for the dynamic----
    Ms. McCollum. Well, the tax bill was pretty big, so I think 
I can come up with a piece of legislation smaller than that, 
Mr. Chair. Thank you.
    Mr. Yoder. Thank you, Ms. McCollum.
    Director Hall, thank you for your appearance course, as we 
put together the pieces of the 2019 budget puzzle.
    The subcommittee stands in recess until April 25 at 1:00 
p.m., at which time we will receive testimony from the 
Government Accountability Office.
    Meeting adjourned.
    [Questions for the record follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  

                                         Wednesday, April 25, 2018.

                 U.S. GOVERNMENT ACCOUNTABILITY OFFICE

                                WITNESS

GENE L. DODARO, COMPTROLLER GENERAL OF THE UNITED STATES
    Mr. Yoder. The subcommittee will come to order.
    Today, I would like to welcome the Government 
Accountability Office. Testifying before us, we have Gene 
Dodaro, the Comptroller General of the United States.
    The GAO, often referred to as the Congressional watchdog, 
is tasked with the investigating how the Federal Government 
spends taxpayer dollars in an effort to ensure accountability 
of the Federal Government for the benefit of the American 
people.
    The GAO estimates that for every $1 invested, $128 of 
potential savings government-wide is identified, which total 
over $73 billion in fiscal year 2017. So maybe we can give you 
a $1 billion and we could solve all of our problems.
    You give it a shot? If it were only that easy.
    Your budget request submitted to the President is $616 
million, and I understand now that the fiscal year 2018 omnibus 
has become law, and your revised request is flat.
    And with that, thank you for attending today. We are going 
to take your testimony in a minute. But first, I would like to 
yield to my good friend and colleague from the great State of 
Ohio, Mr. Tim Ryan.
    Mr. Ryan. Thank you, Mr. Chairman. Mr. Dodaro, thank you 
for being here. We appreciate your work. You play an essential 
role in helping Congress exercise its oversight 
responsibilities, not only in pushing government programs to 
run more efficiently and effectively, rooting out waste, fraud 
and abuse, but also in keeping an eye on government officials 
who try to skirt the law.
    In the recently passed 2018 omnibus, we intentionally 
funded GAO at a level that will allow them to reach 3,100 full-
time equivalent employees again, well below their peak 
personnel levels, but high enough that they feel they can do 
the job adequately. And I am pleased to see that while they 
ramp up their hiring to reach 3,100 FTEs, GAO is also able to 
fund IT modernization and investment in their building and 
infrastructure.
    So, Mr. Chairman, with that, I will yield back. And we will 
hear from our distinguished guest.
    Mr. Yoder. All right. Thank you, Mr. Ryan.
    Mr. Dodaro, your complete statement will be made part of 
the record, so feel free summarize your remarks at this time.
    Welcome to the committee.

                           Opening Statement

    Mr. Dodaro. Thank you, Mr. Chairman. It is a pleasure to be 
here. Ranking Member Ryan.
    I would like to first start out by thanking this committee 
for the support that you provided for our fiscal year 2018 
budget.
    That budget, as both of you noted, will enable us to meet 
priority needs of the Congress, but also make investments on 
our information technology and infrastructure operations in 
GAO.
    This will help improve our communications, data management 
efforts, allow us to prepare parts of the building to rent out; 
this will allow us to generate additional revenue.
    With the investments in IT modernization, we will reduce 
our future operating cost such that we didn't ask for any 
additional money for 2019.
    So if we are held flat, we will achieve the 3,100 FTE level 
by redirecting operational savings from IT investments and 
bring additional staff into GAO.
    With 3,100, we will meet the highest priority needs of the 
Congress. As you know, we serve all the committees in the 
Congress. We will focus increased resources on four specific 
areas that I think are very important.
    One, is cybersecurity. I am talking not only about the 
information systems that the Federal Government operates, but 
how the government works with the private sector to protect 
critical infrastructure like the electricity grid as well as 
personally identifiable information.
    I am also concerned that we are into a new evolution of 
cybersecurity issues with the Internet of Things such as 
autonomous vehicles. In addition, we are moving to an air 
traffic control system that will be satellite-based, not radar-
based. This will be a more open system.
    Anything that is connected to the Internet, while it is 
going to improve services, is going to have security issues. 
GAO has been playing a leading role in this area and I think we 
can continue to do so.
    Second would be increasing our resources in science and 
technology. This not only would help us bolster our technology 
assessment capability at GAO, which we have demonstrated the 
ability to do, but would also help us in a number of other 
areas where science and technology is infused into our normal 
work.
    For example, in Defense, we are looking at the new Columbia 
class nuclear submarine, investments in satellite technology, 
space-based technologies, technologies to improve homeland 
security to detect radiological intrusions, or biochemical 
attacks on the United States, as well as other homeland 
security issues. We are looking at the medical area as well. We 
just completed a technology assessment on new technologies to 
rapidly detect infectious diseases so that quick action could 
be taken in those areas.
    Third is Defense. Congress has increased investments in 
Defense, and so we need to focus our oversight to ensure that 
money is invested properly. I have been concerned about the 
readiness levels. We have also done work in weapon systems 
acquisitions on the joint strike fighter and other areas. 
Defense is also undergoing their first ever financial audit of 
the entire Defense Department.
    We are helping oversee that. I would really like to see 
them have a proper accounting of all their funds. They are the 
last major department in the Federal Government that hasn't 
been able to pass an audit. So we are prepared to help them. 
These additional resources would help.
    Last is healthcare costs, which is the fastest growing part 
of the Federal budget. We have done work in the past in this 
area not only in access to services, but also trying to reduce 
some of the improper payments in Medicare and Medicaid.
    Last year there were tens of billions of dollars, over $70 
billion, in improper payments in those programs. We have a 
number of our high-risk areas in those areas. Veteran's 
healthcare is also a high risk area. There are healthcare 
issues that we could review. We do work at FDA regarding food 
safety and medical device safety, as well as Medicare, 
Medicaid, and normal healthcare expenditures. Those would be 
our priorities.

                            ACCOMPLISHMENTS

    As you noted, Mr. Chairman, we are a good investment. We 
provide a great return on that investment. In addition to the 
numbers you mentioned, about 128 to 1 for last year, over the 
last decade, our high-risk program has brought financial 
benefits to the government of over $240 billion. Work we have 
done on overlap, duplication and fragmentation of the Federal 
Government so far has saved over $136 billion. I will be 
testifying tomorrow on our 8th annual report in that area. 
Those numbers will go up. Additional savings have been realized 
as a result of our work.
    We still have over 300 open recommendations. There are 
billions of dollars that could be saved through the full 
implementation of our recommendations.
    I know you always give careful consideration to our 
request. I appreciate that very much. I would be happy to 
answer any of your questions.
    [The prepared statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Yoder. Thank you for your testimony, sir. And thank you 
for your good work on behalf of the taxpayers of our country. 
And I am thankful for your budget request, in that you are not 
asking for additional increases.
    As you know, we are trying to operate within limited 
expenditures here, managing all the different aspects of the 
Federal Government. And so, you are hopefully, you know, 
utilizing your great comptroller accounting strengths within 
your own agency.
    So I know we gave a significant increase in 2018, just 
about a month or so ago, and hopefully, those resources are 
being plugged in well and helping you reach further into the 
government to, you know, find savings.

                      SAVINGS AND RECOMMENDATIONS

    I am interested in the $73 billion that were saved. So 
those are actual dollars that you can point to because of a 
recommendation----
    Mr. Dodaro. Yes.
    Mr. Yoder [continuing]. That was taken up, dollars were 
saved?
    Mr. Dodaro. Yes.
    Mr. Yoder. How many more estimated dollars did you 
recommend that weren't taken up?
    Mr. Dodaro. There are tens of billions of dollars in 
additional savings that could have been achieved by 
implementations and recommendations.
    In fact, next week or tomorrow--It should be tomorrow 
because this hearing was supposed to be last week.
    Mr. Yoder. Right.
    Mr. Dodaro. Tomorrow----
    Mr. Yoder. That is true.
    Mr. Dodaro. Tomorrow, we will be releasing that report.
    I will have an attachment in my testimony of 58 specific 
recommendations to the Congress that could result in tens of 
billions of dollars in additional savings.
    Mr. Yoder. And are some of these, been around for a while 
or these are all new ones in the current year?
    Mr. Dodaro. Some are new.
    Mr. Yoder. Okay.
    Mr. Dodaro. Some have been around for a while.
    Mr. Yoder. Right.
    Mr. Dodaro. We had some that were open for a number of 
years. The specter of sequestration affected the budget deals 
that were done for 2014, 2015, 2016, and 2017, so a lot of our 
recommendations that implemented there were around for a while 
because Congress wanted to stay under the caps----
    Mr. Yoder. Right.
    Mr. Dodaro. At that point in time.
    Mr. Yoder. Right.
    Mr. Dodaro. And so----
    Mr. Yoder. I am guessing sometimes Congress comes looking 
for pay-fors, they come to your list to find a way to offset a 
spending increase.
    Mr. Dodaro. We are ever ready----
    Mr. Yoder. Just the pay-fors.
    Mr. Dodaro. I advocate our work at every opportunity, 
because it is important. There are some savings in there that 
can be made that won't have any adverse effect on the American 
people and would really be true efficiency savings or revenue 
enhancements. A number of recommendations we have could bring 
additional revenues.
    Mr. Yoder. What is a good story or a good example that Tim, 
myself, others, could use at home with our constituents when we 
are talking about the work we are doing at the GAO?
    Mr. Dodaro. Yes. You want one of an open recommendation?
    Mr. Yoder. Something that has been successful. A 
recommendation that was made that saved taxpayers.
    Mr. Dodaro. Yeah, sure.
    Mr. Yoder. Some of that $73 billion.
    Mr. Dodaro. In the TRICARE----
    Mr. Yoder. Okay.
    Mr. Dodaro [continuing]. Area, for example. We found that 
DoD was paying for compound drugs that included ingredients 
that FDA had not approved. Therefore, TRICARE should not have 
paid for those drugs.
    Our recommendation had safety implications for the people 
who were taking those drugs, and saved the government a lot of 
money.
    Second, with the explosion of information technology, the 
federal government manages the spectrum areas. We found that 
the auction process that was being used was a good process. We 
recommended that Congress reauthorize that process. That 
resulted in spectrum auctions that brought in billions of 
dollars to the federal government.
    Another example would be in food or medical product safety. 
Right now, 80 percent of the ingredients from prescription 
drugs come from foreign sources.
    We suggested that the FDA needed to change its approach, 
which had been primarily focused on domestic production, to 
look at foreign production as well. This is going to better 
protect the public in terms of medical products. These include 
medical devices, too, including pacemakers and other equipment. 
About half of these come from foreign sources around the world, 
we recommended a change in strategy.
    Another example is drug shortages on cancer therapy drugs. 
For instance, if one of your constituents went in for 
treatment, the proper drug might not have been available, or 
they have to use a substitute that might not be effective.
    One of the reasons we found for this shortage was that the 
manufacturers did not have to notify the FDA in advance. The 
FDA could take action to increase production, go to another 
manufacturer, or go to another country. Those are the types of 
things we do. We save money, but we really have other really 
important recommendations that go to public safety and 
protection.
    I gave you a few examples here, but there are quite a few 
in Homeland Security including border technologies and other 
things.
    Mr. Yoder. Okay.
    Mr. Dodaro. So those are all good examples.
    Thank you for sharing that with the committee.
    Mr. Dodaro. Sure.
    Mr. Yoder. Mr. Ryan.
    Mr. Ryan. Thanks, Mr. Chairman.

                         MEDICARE AND MEDICAID

    Talk to us a little bit about Medicare and Medicaid. You 
are saying there is $70 billion at this point a year in waste, 
fraud, and abuse in those two programs? Could you mention a 
recommendation or two that you have? And then also with the VA?
    Mr. Dodaro. Sure. First, I am very concerned about the 
Medicaid program. The managed care portion of the Medicaid 
program has grown exponentially. It is almost 40 percent of 
total Medicaid spending right now.
    The estimates that I gave you on improper payments don't 
even include complete estimates on the managed care portion of 
the Medicaid area.
    I think State auditors ought to be more involved in 
reviewing the Medicaid programs. In some States, it is 30 
percent of their entire budget. I have been working with State 
auditors to try to get them involved in those areas.
    Some of the recommendations we have in Medicaid have to do 
with better improper payments estimates on this managed care 
portion. There is also the supplemental payments that are made 
to institutions for uncompensated care, for example. What we 
find is they were using improper formulas in those areas. 
Actually, in some cases, they were paying hospitals more than 
their total operating cost, not just compensating them for 
uncompensated care. They were getting more than their total 
operating costs from the Federal Government. We made 
recommendations to fix that area as well.
    Another area is in demonstrations, where they approve 
demonstrations by States. By their policy, it is supposed to be 
budget neutral. We find it is not budget neutral, and it is 
costing the Federal Government billions of dollars more. Those 
demonstrations haven't been properly evaluated to know whether 
they are working effectively or not. Nonetheless, they are 
regularly extended.
    The Medicaid program is a big area.
    Mr. Ryan. How much do you think we could save in the 
Medicaid program if we implemented some of your----
    Mr. Dodaro. There are tens of billions of dollars. I can't 
give you a precise estimate.
    Mr. Ryan. Yeah, yeah.
    Mr. Dodaro. But it is orders of magnitude. This is not 
operating at the margins.
    The demonstrations that have been approved are one-third of 
the total spending for the Medicaid program. This isn't a few 
experiments here or there. These are large-scale demonstration 
projects.
    Hopefully, the administration has been listening. We have 
been talking to them and trying to get them to focus on these 
areas.
    In Medicare, if you go into a doctor's office--and some of 
the doctors are now affiliated with hospitals, for example. If 
you go into a doctor's office at a hospital or if you go into a 
doctor's office in Youngstown or Kansas, Medicare will 
reimburse you more if you go into a doctor's office at a 
hospital than if you go into your local physician's office. 
That doesn't make sense.
    So we say you have got to equalize payments here, and if 
you do that, you will save billions of dollars.
    There are special cancer hospitals that were established in 
the 1980s, when things were just getting started, that are paid 
at a higher rate now than teaching hospitals that provide the 
exact same cancer therapies. We estimate you could save $500 
million a year by equalizing those payment rates.
    There is an adjustment that they make in Medicare between 
fee-for-service and managed care. In managed care, they make an 
estimate ahead of time, and there is a per capita rate. They 
adjust it to the actual fee-for-service on the other side of 
Medicare's operations. They are not using current information. 
The best information in the adjustments, we estimate, would 
save a billion or two a year if they did the proper adjustments 
(correctly). So those are a few examples.

                            VETERANS AFFAIRS

    Mr. Ryan. What about the VA?
    Mr. Dodaro. We added VA healthcare on our high-risk list in 
2015.
    I have been very concerned about the Veterans 
Administration, being able to provide timely, high-quality 
care. We have just received from them, even though we put them 
on our High Risk List back in 2015, their first attempt at a 
plan to address the high risk areas. We found a lack of 
accountability and poor training for some of their people. 
Their IT systems are antiquated, and there are not clear 
alignment of their resources with their needs.
    They have fundamental management challenges that are deeply 
seated in that agency.
    Over the years, I have met with Secretary Shinseki when he 
was there, Secretary McDonald, and Secretary Shulkin. I am 
waiting for the new person to get in place to really talk to 
them about what they need to do to fix those problems.
    Mr. Ryan. [Inaudible]
    Mr. Dodaro. I don't know if it is that much, to be honest 
with you, but they could save millions, clearly. We have one 
example, we issued a report on medical supplies, which I will 
be talking about tomorrow.
    Each hospital purchases their medical supplies separately. 
They should have a regional approach or a national approach for 
contracts.
    They tried to have something like that, but they didn't 
involve the clinicians. It didn't get off the ground. There 
wasn't buy-in. In some cases, they still use emergency 
purchasing vehicles rather than going through a competitive 
process that would bring costs down.
    In the area of buying surgical supplies and medical 
supplies, there are tens of millions of dollars that could be 
saved as well, but more importantly, the services are not where 
it needs to be. We continue to find problems and a lack of 
accountability, and a lack of good information to make good 
decisions and to hold people accountable. There is a lot that 
needs to be done in that area. I have made it a high priority.
    I have also testified recently on the appeals process 
reform for disability claims. That has been a problem for a 
number of years. They have a new approach that they are 
planning to use, but what we found was they weren't testing all 
the different avenues that they were proposing to change. In 
particular they were going to allow people to appeal directly 
to the Veterans Appeals Board, and not go through the VBA, the 
Veterans Benefit Administration.
    They weren't even testing that option, so I am hopeful they 
will turn that around.
    The appeals, and the disability programs in the Federal 
Government have been on our high risk list for over a decade. 
Now we put the healthcare on there. It is going to take a while 
to get it fixed, but I am determined to work with them to try 
to get it fixed properly. Our veterans deserve better service 
than they are currently receiving.
    Mr. Ryan. Yeah. I appreciate it.
    Mr. Chairman, we have had this conversation offline, but 
this is, I think this has been, the last 5 minutes, you hear 
the value of what this operation brings to us. I wish we had 
listened to you more, but maybe the chairman and I can take 
some of your recommendations in some of these areas and work 
together in a bipartisan way to get them implemented because 
they are, as you said, it is going to benefit the taxpayer and 
improve the quality of the program, get the government running 
more efficiently. I think it is something we need to jump on.
    Mr. Dodaro. I will be happy to work with you. Over three-
quarters of our recommendations actually do get implemented 
over a 4-year period of time. I never give up. I have also sent 
letters every year for the last 3 years, to each major 
department head and agency outlining not only the number of 
total open GAO recommendations, but I prioritize the top ones 
that I think will save the most amount of money or improve 
services.
    We share those with the congressional committees. For 
oversight purposes, I will be happy to share those with you for 
any agency they would like to work with us on.
    Mr. Ryan. I yield back.
    Mr. Yoder. I think, you know, Mr. Ryan has been a very 
strong advocate for additional resources to the GAO for 
precisely the savings, but the better government we provide to 
our constituents. And he has made a convincing case lots of us 
support. I think the more information about your successes and 
the specific recommendations that cross the desk of more 
Members of Congress, I think the better, right?
    I mean, we are all inundated with information, but Congress 
probably needs to be even more engaged with what you are doing 
so that it gets the most value out of it.
    Mr. Dodaro. I meet once a Congress with every committee 
chair and ranking member----
    Mr. Yoder. That is good.
    Mr. Dodaro [continuing]. In the Congress. And we talk 
about----
    Mr. Yoder. Go through what is in their area?

                             IDENTITY THEFT

    Mr. Dodaro. Right. And what could be implemented. A good 
example is identity theft. This is something your constituents 
may be interested in, too. Where people are filing tax returns 
falsely and stealing refunds. When they go to file, the IRS 
states, ``we already paid you.''
    Mr. Yoder. Right.
    Mr. Dodaro. What we found was that the W2 information from 
employers wasn't going to the IRS until April when it----
    Mr. Yoder. Now it goes earlier.
    Mr. Dodaro. Now it goes earlier. That was a GAO 
recommendation.
    Mr. Yoder. Right.
    Mr. Dodaro. And it is helping them stop fraud.
    Mr. Yoder. A solution.

                                 INTEL

    You know, as we look at the role of GAO going forward, you 
know, a couple of areas that we have heard testimony about 
already this year, we have taken testimony from outside 
organizations on their recommendations for a better government. 
And one of the recommendations was to allow the GAO to oversee 
Intel. And that there is a prohibition on the GAO working to 
oversee Intel within the Federal Government.
    What is the GAO's position on this? What do you do with 
intel right now? What could we do to enhance that?
    Mr. Dodaro. Right. First of all, we believe there is no 
prohibition. We believe we have the statutory authority to do 
the work. What has happened over the years, particularly, I 
would say up until about, you know, 7 or 8 years ago, we lacked 
the cooperation from the intelligence community, and quite 
frankly, support from the intelligence committees, to do the 
work. So GAO really didn't program work in those areas.
    The Congress, then, in one of the intel reauthorization 
bills, required the Director of DNI to come up with a directive 
that presumed cooperation with GAO. And so I met with Director 
Clapper at the time. They worked on this directive, and there 
is a clause in there that allows us to resolve differences.
    We have started doing more work in the intelligence area in 
the last several years. We did some work in the facilities 
area. We are looking at contract management now. I met with 
Director Coats recently I talked with him about improving 
cooperation. It is still not easy.
    Mr. Yoder. Do you need additional support from Congress----
    Mr. Dodaro. Yes.
    Mr. Yoder [continuing]. Or direction to the intel agencies 
to make sure they are aware that this is an authority you have?
    Mr. Dodaro. Yes, that would be helpful. We are working with 
the intelligence committees. When we get support, and we have 
been getting support from the intelligence committees, then it 
is easier to do the work over there.

                         TECHNOLOGY ASSESSMENT

    Mr. Yoder. Each year, we also receive a number of 
recommendations from sitting Members of Congress to the 
committee to bring back the Office of Technology Assessment.
    We know that GAO was tasked with this responsibility back 
in 2002. How much funding does GAO currently allocate in that 
area? Are you receiving congressional requests? Is this an 
expansion that you think is necessary, or do you think the GAO 
has the ability to handle that mission?
    Mr. Dodaro. Yes. First, I am very supportive, as I 
mentioned in my opening statement, about the science and 
technology area. We went into this in terms of trying to create 
the capacity to do technology assessments very willingly, 
openly and we are committed to do them well.
    We have demonstrated our capacity to do them. We do about 
two of those a year, based on requests from Congress. We just 
finished one on artificial intelligence, which is going to be a 
huge issue going forward, and one on sustainable chemistry. We 
have done ones in the past on nano-manufacturing, 3-D printing, 
detecting explosive devices on passenger rail, and a whole host 
of other areas.
    We have that capacity. It can be scaled up. I have, over 
the years, told Congress that if we get additional resources, 
we can increase that capacity. I didn't want to recreate OTA 
within GAO at the expense of having other committees not have 
their work done.
    I try to balance the portfolio against all the needs of the 
Congress from all the committees.
    We have about 16 people in GAO already who focus on this 
work. They have the capability to do this. We also use GAO 
subject area experts. The other point I would like to make here 
too is OTA did a lot of different types of reports. We do a lot 
of reports that have science and technology issues in those 
reports. We are going to do one now on antibiotic resistance 
bacteria. That is not quote, ``a technology assessment,'' but 
it is going to have a heavy component related to science and 
technology issues.
    In the energy area, for example, we are doing work on 
modernizing nuclear weapons, including the development of 
interoperable nuclear warheads and the life cycle extension of 
our current nuclear fleet. (For this) you need special 
expertise. So we are not calling that a technology assessment, 
but we do that work in the energy area as well.

                               HEALTHCARE

    Healthcare, same thing. We were brought in when there was 
Zika. We should do work more in the vaccines areas, 
particularly for influenza vaccines. More people die every year 
from just normal flu, and there are questions about vaccine 
development. We can do more work in that area.
    I created, while I was Acting Controller General, our 
center for science technology engineering. I hired our first 
chief scientist, and our first chief technologist in the GAO.
    We have lots of capability. We can continue to improve and 
evolve our technology assessments. I have seen some of the 
commentary, and they have some good suggestions. We will 
continue to take those under account. I think we can meet the 
needs of the Congress if we have the funding support.
    Mr. Yoder. Okay. Great. Mr. Ryan.
    Mr. Ryan. I don't have a question, Mr. Chairman. I just 
have a statement.
    I think you and I need to do some kind of bipartisan 
initiative designating Mr. Dodaro as the smartest man we have 
ever met in our lives on multiple issues. I mean, I just think 
it is amazing to, you know, I think, again, the importance of 
your office to have the scope of work that you do and having 
that scope, you see the interconnectedness of all of the 
different programs. And I think that is a real value. You know, 
you talk to a committee, and the committee is digging in on 
this issue or that issue. But what your office provides for us 
is really a bird's eye view of how all these things, the 
interplay of all of the different agencies and how important it 
is to make these run as efficiently as possible.
    So I just want to say thank you to you. And I know your 
team is at work all the time doing this, and we really 
appreciate you. We need your work to continue. And we will do a 
better job of trying to take some of your recommendations. So 
thank you so much.
    I yield back, Mr. Chairman.
    Mr. Dodaro. Thank you very much.
    Mr. Yoder. There you go.
    Thank you for your testimony today. We appreciate you 
coming. And certainly, I think, Mr. Ryan and I think that the 
work you are doing is critical. And we are, you know, it took a 
lot of work to get new resources into GLS. We know that that 
was something you had asked for for a while, and to be able to 
keep up with the pace of inflation.
    So, again, I appreciate you asking for a flat budget in 
light of those increases and be able to work within existing 
resources. And it kind of leads by example. It increases your 
credibility on the other issues.
    So thanks for your work. And we will be passing our bill 
out soon, and we will include your work in it.
    And with that, the subcommittee will stand in recess until 
2:00 when we will hear from the Library of Congress. Thank you.
    Mr. Dodaro. Thank you very much, Mr. Chairman.
    [Questions for the record follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                                         Wednesday, April 25, 2018.

                          LIBRARY OF CONGRESS

                               WITNESSES

HON. CARLA D. HAYDEN, LIBRARIAN OF CONGRESS
MARK SWEENEY, ACTING DEPUTY LIBRARIAN
KARYN A. TEMPLE, ACTING REGISTER OF COPYRIGHTS
MARY B. MAZANEC, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE

                  Opening Statement of Chairman Yoder

    Mr. Yoder. I call the subcommittee back to order.
    We are pleased today to welcome the Librarian of Congress, 
Dr. Carla Hayden, and the Acting Deputy Librarian Mark Sweeney, 
here today, as well as your entire team.
    But I know you have a great group of folks here that are 
experts in different areas, and if we need to, they are 
available, I know, to make comments or testify as well.
    Dr. Hayden, the Library of Congress' adjusted fiscal year 
2019 request that you have made is $706 million, an increase of 
$36.2 million above currently enacted levels.
    This requested increase would go towards mandatory pay and 
price level increases, information technology system 
enhancements, increase staffing to enhance the Library's 
bandwidth in the areas of collection management, analytical 
capacity at CRS, and reducing the recording backlog at the 
Copyright Office, as well as continued funding for the Visitor 
Experience Project at the Thomas Jefferson Building.
    The Copyright Office request is $93.4 million, and the 
subcommittee continues to believe that the modernization of the 
Copyright Office is a very important initiative.
    The Congressional Research Service request is $125.6 
million. And we thank the CRS for its work in ensuring that all 
nonconfidential CRS reports will soon become available to the 
public, and ask CRS to keep the committee informed on the 
progress leading up to the implementation of this new 
procedure.
    And finally, the Books for the Blind and Physically 
Handicapped request is $52.7 million, and relocating the NLS' 
headquarters to a location in closer proximity to the Capitol 
campus continues to be a priority of this committee, and we are 
working to make that relocation a reality.
    So again, Dr. Hayden, welcome to the committee.
    And at this point, I am going to yield to my good friend 
from Ohio, Mr. Ryan, for his opening statement as well.

                Opening Statement of Ranking Member Ryan

    Mr. Ryan. Thank you, Mr. Chairman. I appreciate it.
    The Library of Congress is one of my favorite institutions 
on Capitol Hill. I love the buildings. I am repeatedly 
impressed by what they have hidden in the stacks in climate-
controlled storage rooms.
    If James Madison, John Adams, and Thomas Jefferson could 
see today what their creation has evolved into, I think that 
they would be extremely pleased with themselves. And in fact, 
yesterday was the 217th anniversary of the Library's creation, 
which I know you know, because you know everything about the 
Library.
    Walking through the halls of the Library and viewing their 
collection and artifacts is something everyone visiting 
Washington, D.C., should add to their list. And I encourage all 
of our groups to at least get over there and take a look.
    And I am looking forward to learning more today about the 
plans to enhance the visitor experience at the Thomas Jefferson 
Building. I expect our subcommittee will provide support to 
help bring Dr. Hayden's vision for the Library's future into 
being.
    The Library is also someplace we can turn when we want to 
talk to an expert on some area of policy coming up in Congress. 
In last year's legislation the subcommittee worked to make CRS 
reports more accessible to the public. These documents are 
invaluable to Members and congressional staff. And I am pleased 
to see CRS' budget request prioritizes an increase in staff to 
expand research capacity in many policy areas.
    I am also glad to see that the Library's budget request 
prioritizes IT modernization, because information technology 
ties in with everything the Library does.
    Upgrading the Library system will help serve Congress' 
research needs, serve the needs of copyright holders, and make 
it easier for people across the country to access the Library's 
materials remotely.
    So thank you all for coming in today. I look forward to 
hearing what Dr. Hayden and her colleagues have to say.
    And I yield back my time, Mr. Chairman.
    Mr. Yoder. Thank you, Mr. Ryan.
    Dr. Hayden, your statement and written testimony will be 
made part of the record, as well as statements of the Acting 
Register of Copyrights and the Director of Congressional 
Research Service. And so we would be pleased to allow you to 
summarize your statement and address the committee at this 
time. Welcome.

             Opening Statement of the Librarian of Congress

    Dr. Hayden. Thank you, Chairman Yoder and Ranking Member 
and members of the subcommittee. And I appreciate the 
opportunity to give testimony in support of the Library's 
fiscal year 2019 budget.
    As you know, the Library remains the largest library in the 
world, a research institution, and of course a destination for 
scholars and Members of Congress.
    It also holds enormous potential for reaching many, many 
more Americans in all walks of life. And this has been and will 
be a major focus of my tenure. And over the past year, we made 
great strides in increasing access to the Library and improving 
the user experience.
    For example, the U.S. Copyright Office published a new 
archive of copyright cases. The Congressional Research Service 
is currently testing online webinars and added instant 
messaging. The National Library Service for the Blind and 
Physically Handicapped launched a public awareness campaign to 
reach seniors and others challenged. And the Law Library put 
fully indexed and searchable historic versions of the U.S. 
Codes online.
    And then new primary source collections online include the 
papers of Alexander Hamilton, Ulysses Grant, Benjamin Franklin, 
and Susan B. Anthony, as well as high resolution scans of the 
original documents in the Abraham Lincoln papers.
    I have visited libraries and communities this past year in 
many congressional districts, and I have been energized by the 
interest and enthusiasm and expressed need for greater 
connection to the resources and services of the Library. And 
realizing the Library has the potential to reach out across the 
country means that we have to take care of fundamentals first.
    And I would like to express my gratitude for your support 
in the two previous fiscal years for mission-critical work. And 
that has helped with our modernization of information 
technology and Congress' service that we are very proud of.
    Special thanks, too, for your support for an initiative to 
revitalize and enhance the visitor experience in the Thomas 
Jefferson Building through a public-private partnership. And 
also, deeply appreciative--and the Acting Deputy Librarian, 
Mark Sweeney, joins me in this--for the storage modules at Fort 
Meade that are part of the Architect of the Capitol's budget.
    And I am happy to report, as we look at the support of this 
committee in the crucial areas of IT modernization, Copyright 
Office staff and storage programs, the Library has closed or 
and is awaiting confirmation from GAO on 24 of the 31 public 
recommendations for improving IT efficiencies.
    The Copyright Office has reduced its registration backlog 
by 25 percent, and we are actively filling the interim storage 
units at Cabin Branch, as well as the recently completed Module 
5 at Fort Meade.
    And in addition, I have taken significant managerial steps 
to make sure that we have efficiencies in our operations. I 
have appointed Mark Sweeney as the Acting Deputy Librarian of 
Congress; all information technology organizations and 
personnel were centralized; and we completed the first year of 
the strategic planning process, Envisioning 2025.
    Part of that process determined with research that the 
Library needs to be more user-centric. And we will have, of 
course, Congress as the Library's foremost user.
    As a result of this planning, I realigned internal units to 
prepare for that move forward. And I am confident that these 
steps will give us a robust management structure to move 
forward.
    Now, the fiscal 2019 budget request builds on the past 2 
years and concentrates on information technology modernization, 
targeted workforce skills, and increased access, and the 
details are provided in my written testimony. And the 
highlights include ongoing investment in copyright information 
technology modernization, as we move to the development of a 
new generation of the registration system, and a modern 
recordation system, which is, many people might not realize, 
currently paper-based and manual.
    We will have an investment in our CRS service with more 
analysts, economists, and attorneys, and also full restoration 
of copyright examiner workforce and additional foreign legal 
and language expertise for the Law Library.
    And finally, workforce investment in Library Services that 
will speed up the processing of significant collections, a 
backlog that includes collections such as Theodore Roosevelt 
and Caspar Weinberger that are waiting to be processed.
    So to reiterate, IT modernization, a strong workforce helps 
the Library meet its goal of increased access and better 
service.
    So, Chairman Yoder, Ranking Member Ryan, members of the 
subcommittee, we are the embodiment of the American ideal of a 
knowledge-based democracy, and we thank you for your support. I 
am happy to answer any questions.
    [The prepared statements follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                          VISITOR'S EXPERIENCE

    Mr. Yoder. Thank you for your testimony. You spoke to the 
committee about the visitor's experience.
    Dr. Hayden. Yes.
    Mr. Yoder. I thought maybe we could dive into that a little 
bit. This is a new project at the Thomas Jefferson Building. It 
is a public-private partnership that has the potential to 
change and revolutionize the experience for visitors at the 
Library.
    You stated, I think, well, that you are the largest library 
in the world. And Mr. Ryan makes the case that the Founders 
would be astounded to see how far we have taken it. Yet one of 
the concerns you have laid forward is that maybe we are not 
fully grasping the potential for the public to be engaged with 
the experience the Library has to offer.
    Can you talk to the committee about why this project is 
important and how it will enhance and benefit the experience of 
those coming to Washington, D.C.?
    Dr. Hayden. Congress invested a significant amount of 
funding in the 1990s to renovate and bring out all of the 
architectural beauty of the Thomas Jefferson Building. It was a 
magnificent project. The Main Reading Room was closed for 5 
years. And now 1.8 million visitors physically come into the 
Jefferson Building, and they all say this is the most beautiful 
building--some people agree--in Washington.
    Mr. Newhouse. That is what I tell everybody.
    Dr. Hayden. It is. And, however, they leave without getting 
the experience of connecting to the collections, those 
magnificent collections that the Library has, and also without 
an understanding that this is their Library as well and to get 
a chance to have that and be inspired, we hope, like so many 
other people have.
    And so the project has three parts: to make sure that the 
Library has a permanent exhibition space to exhibit the 
treasures, from the Gutenberg Bible, to the contents of Abraham 
Lincoln's pockets the night he was assassinated, to the 
original draft of the Declaration of Independence in Thomas 
Jefferson's hand with footnotes by Benjamin Franklin and John 
Adams; and a rotating collection that will showcase all of the 
things that the Library has, film, sound recording, all of 
these things. So that will be a major part, a treasures 
gallery, as we are calling it.
    Also, people walk into the wonderful Great Hall. They are 
fascinated by the beauty. And then they are not able to go into 
the magnificent Reading Room. And that will be the second part, 
to open up the Reading Room with acoustical and privacy 
protections for any researchers that might be in the room, and 
to get the idea across about Thomas Jefferson's library.
    So we are hoping we will be able to relocate select items 
from Thomas Jefferson's original 6,000 volume library, in that 
space in the Reading Room, and tell the story of the Library.
    And a part that is very exciting for a former children's 
librarian is to have an actual youth center, hands-on history, 
to engage young people--and we are talking very young all the 
way up to teenagers--in working with primary sources, to see 
Alexander Hamilton's last letter to his wife. They are engaged 
with the play. This is the time for them to actually see that, 
to test paper, to find out how you preserve documents, and also 
think about making history themselves.
    So those three areas would be the major focus. And then, of 
course, enhancing the gift shop and also having some cafe-type 
of experience as well so people can linger.
    So we are very excited about this opportunity.

                      VISITOR EXPERIENCE TIMELINE

    Mr. Yoder. Well, I think it is a wonderful vision and 
really connects the public in a way that you, as you laid out, 
haven't been connected in the past and makes the Library a much 
more tangible, usable asset.
    What are your estimates on the timeline, the cost? How many 
visitors do you expect you might see? How many do we get now? 
And sort of how do you view the numbers?
    Dr. Hayden. I mentioned the 1.8 million, and we are working 
very closely with the Architect of the Capitol, Mr. Ayers. His 
staff has been very involved as we have developed this. And we 
know that we will be working with them on the impact of 
additional visitors and flow and egress and things like that.
    So that is part of a master plan with an estimated 
timeline, that should be about 12 months. And that is the 
master plan for everything. $2 million is the estimate for that 
plan. And I think that is in the appropriated proposed language 
as well. The actual master plan should be available in June of 
2019.
    Mr. Yoder. When the project will be completed?
    Dr. Hayden. Everything. And this will include fundraising, 
that private-public partnership that I mentioned. So that will 
be going on as well.
    The entire project should be finished by May, June of 2023. 
And that would include the treasures gallery, the Reading Room, 
and the youth center. And we also think that 2023 is a 
wonderful timeline.
    [The information follows:]

            Visitor Experience Clarification for the Record

    The Visitor Experience design will be completed in 2020. The 
Visitor Experience project is expected to be designed, fabricated and 
completed in the 2023/2024 timeframe.

    Mr. Yoder. A great vision. All right. Thank you.
    Mr. Ryan.

                            FUNDING IMPACTS

    Mr. Ryan. Thank you, Mr. Chairman. I just got motivated to 
get reelected a couple more times to make sure I am here for 
all that.
    One of the issues with the upcoming fiscal year 2019 bill, 
other than the Visitor Experience, the bill proposes to give 
your salaries and expenses account a $6.8 million increase over 
last year, but $6.2 million less than the request.
    Can you share with us what that means for you and your 
operation?
    Dr. Hayden. And I want to rephrase to make sure that I 
answer correctly in terms of the impact of getting less. That 
would probably necessitate a hiring freeze, and we hope that we 
would not have to have any furloughs. And also reducing some 
programmatic aspects as well. But a hiring freeze would be.
    Mr. Ryan. And have you evaluated what programs would be 
reduced or eliminated?
    Dr. Hayden. We have thought about it. And in terms of 
actual programming, we wouldn't want things that affect the 
core mission. That is the preservation, conservation, basic 
reference work, CRS, and Copyright. So those mission-critical 
things, we would definitely look at.

                         CONGRESSIONAL DIALOGUE

    Mr. Ryan. In the interest of making sure all of our 
colleagues have an opportunity, Mr. Chairman, I yield back.
    Mr. Yoder. Mr. Amodei.
    Mr. Amodei. In the same interest as the ranking member, I 
yield back.
    Mr. Yoder. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you.
    Mr. Ryan. You have 15 minutes of questions you can ask.

                      LIBRARY'S YOUNG READERS ROOM

    Ms. Wasserman Schultz. I will only take 3 or 4 hours. No 
problem.
    I wanted to just ask you about the potential improvements 
and expansion of the young readers room. Is that part of the 
vision of the----
    Dr. Hayden. The visitor experience. And we want to thank 
you also, I know that have you been involved, the idea of 
having a place for young people to get inspired.
    Ms. Wasserman Schultz. Thank Jake and Rebecca Schultz.
    Dr. Hayden. I recently received a letter from an 8-year-
old, Adam Coffey from San Clemente, California, who expressed a 
little disappointment that there wasn't a young reader's card 
and definitely spaces for young people. And we know that there 
is an opportunity with the lack of significant investment now.
    Ms. Wasserman Schultz. So he was not impressed with what is 
there now?
    Dr. Hayden. Oh, he was impressed. We invited him in. He is 
going to be the first recipient of the young reader's card, 
with his approval.
    Ms. Wasserman Schultz. Oh, good.
    Dr. Hayden. So we are looking at that. But there is a need 
to supplement civics education throughout the country. When I 
have traveled, that is something that I am hearing, that people 
want to be able to encourage young people to get involved in 
history, make history themselves. So that focus on the youth 
center will have several areas based on age groups.
    Ms. Wasserman Schultz. That is great.

                            HANDS-ON HISTORY

    Dr. Hayden. And also an area for teachers. We have teaching 
with primary resources, so we will be able to supplement that 
as well.
    So it is very exciting. And when I mention it to people 
throughout the country, they are very excited about having 
screens that will allow young people to interact with curators 
and with preservation and conservation specialists in the 
Madison Building.
    Ms. Wasserman Schultz. Oh, wow.
    Dr. Hayden. So they may be able to talk to a conservator 
who is working on something and then preserve some paper 
themselves, invisible ink. We are trying all the things that 
will get them involved.
    Ms. Wasserman Schultz. So not to bore you, Mr. Chairman, 
but 14 years ago when I first came to Congress, twin 5-year-old 
little boy and girl who I gave birth to, wanted to do nothing 
more than to go across the street to the Library of Congress 
and check out a book, which was not possible.
    And there were no children's books at all in the Jefferson 
Building. I went to the stacks and found an annotated research 
fairy tale books, Aesop's fairy tales, and that didn't quite 
cut it for my 5-year-olds.
    And fast toward a few years later, and when I had a chance 
to talk to your predecessor, Dr. Billington, and now you are 
expanding on that dream, the young readers room was created. 
And Jake, Rebecca, and Shelby Schultz were the ribbon cutters 
for the opening of it. And that little boy and girl just 
finished their freshman year of college. So time flies.
    And thank you. It is really, I share the feelings of my 
colleagues, of how much love we have for the Library. And thank 
you and your colleagues for the incredible Library of Congress 
dinners that I know are underwritten, but also that require 
Herculean effort on the part of your staff to put on. And they 
are not only educational, but one of the few opportunities that 
I think we all have to sit and break bread together in a 
bipartisan way and learn something and get to know one another.
    So thank you very, very much.
    And now I have an actual, real, substantive question, on 
electronic media. I actually have two questions, and then I 
will be quiet.

            COPYRIGHT MANDATORY DEPOSIT RULEMAKING PROPOSAL

    You published a notice of proposed rulemaking that you 
would begin demanding e-books under your mandatory deposit rule 
on a request basis. And that is a long overdue step. I think it 
is phenomenal that you have moved in that direction, because 
you have authors and publishers now that create electronic-only 
books and self-publish.
    And so my question is a couple parts. How as Members of 
Congress can we help support the Library with the resources 
necessary to carry out that increased responsibility? And do 
you see the Library making an affirmative commitment in terms 
of making this a requirement in the future like it currently is 
for printed publications.
    Dr. Hayden. As Librarian of Congress, I am responsible for 
the administration of the copyright process and the efficiency. 
And IT modernization, of course, is going to be a major part of 
any future digital aspects of copyright deposit.
    And we are very pleased that Karyn Temple, who is the 
Acting Register, is involved with the policy, of course, and 
that she is here to be able to address the rulemaking directly.
    Ms. Temple. Good afternoon. Thank you.
    In terms of the rulemaking, yes, we did issue a rulemaking 
on behalf of the Library to begin potentially the collection of 
e-books. That rulemaking will be open until the end of May. We 
will receive comments from various stakeholders about how the 
collection of e-books actually should take place. And once we 
receive those comments, we will be able to draft a final rule, 
which will allow the Library for the first time to be able to 
collect through mandatory deposit electronic-only books.
    So that is something that I know that the Library is really 
supportive of given their interest in providing for access to 
digital material.
    Ms. Wasserman Schultz. Do you think you will expand that to 
audio books and podcasts as well eventually?
    Ms. Temple. So in 2016 we did issue a notice of inquiry on 
the Library's behalf asking about whether we should expand 
mandatory deposit to both e-books and sound recordings.
    We determined at this time, or rather the Library has 
determined at this time to restrict the current rulemaking just 
to e-books and not to expand to sound recordings. I don't think 
the Library will consider expanding to sound recordings until 
after we get comments from stakeholders about the e-books.
    Ms. Wasserman Schultz. The e-books.
    Ms. Temple. And then determine whether we have even the 
capacity to be able to accept e-books and sound recordings. And 
then, subsequently, I think that there will be at some point a 
sound recording NPRM, but that is not something that will 
probably happen in the near future.
    Ms. Wasserman Schultz. Mr. Chairman, I have two more 
questions. Do you want me to ask them now?
    Mr. Yoder. Sure.
    Ms. Wasserman Schultz. Okay.
    Dr. Hayden. And Mr. Sweeney also worked closely with Ms. 
Temple on that in terms of from the Library side.
    Ms. Wasserman Schultz. Thank you very much.
    Ms. Temple. Thank you.

                CONGRESSIONAL RESEARCH SERVICE WORKFORCE

    Ms. Wasserman Schultz. My other question is on the CRS 
workforce. It has decreased by approximately 13 percent in the 
last 8 years.
    Dr. Hayden. Yes.
    Ms. Wasserman Schultz. You have lost 92 FTEs, and 23 
percent of CRS staff will be eligible for retirement this year. 
I mean, we need to let that sink in for a moment.
    Given that CRS processes over 60,000 requests for custom 
research and that almost a quarter of CRS staff will be 
eligible for retirement this year, what steps are you taking to 
retain current subject matter experts and to recruit new 
qualified experts? And how can we support your efforts?
    Dr. Hayden. This fiscal year's request is for 20 additional 
FTEs, and those will be more senior analysts, economists, 
lawyers, who will give more depth to the CRS services. That is 
in addition to the eight junior positions that were requested 
last year.
    There is an active mentoring program that is going on right 
now, and they are very aware of the need for knowledge 
management. And in fact, IT modernization is helping in terms 
of the capturing of information and knowledge. It is an 
information knowledge system that CRS is working on as well.
    So that when that 27 percent that are eligible for 
retirement right now, that is concerning, because some of that 
experience is very difficult to transfer. But the technology 
and what CRS is working on in terms of technology is to have an 
information management program that people can basically 
transfer some of the knowledge that they are expert in and 
working on digitizing the files. A lot of the analysts have 
files that go back many years.
    Ms. Wasserman Schultz. You are not talking about shifting 
to not having a person who is a subject matter expert?
    Dr. Hayden. Oh, no. Oh, no. No. The strength of CRS is 
having the 24/7 access to an expert person.
    CRS is also looking, I mentioned, about the instant 
messaging, texting, other ways to make sure--Skyping--and 
really using technology so that they are available in different 
ways.
    So people are still the essence of it, though.

                            SUBJECT HEADINGS

    Ms. Wasserman Schultz. Thank you.
    And my last question is, we don't really have too many 
contentious issues in the Legs Branch, but we did have one a 
couple years ago with the card catalog, and the renaming of one 
of the catalog categories related to how we refer to 
immigrants.
    Dr. Hayden. Right.
    Ms. Wasserman Schultz. Or how we refer to what was at one 
point known as illegal aliens. And the Library had proposed 
modernizing the terminology, and there was an issue in this 
subcommittee that, let's say, slowed that process down. So 
where are we with that in the Library?
    Dr. Hayden. The Library has proposed additional subject 
headings for that particular term, and over 5,000 of these 
types of updating actions take place a year with the Library.
    Ms. Wasserman Schultz. Right.
    Dr. Hayden. There are all types of things. I was part of 
one in terms of African-American, Black, Negro, so I know that, 
in the 1970s.
    So what the Library has proposed, terms that will not 
conflict with the U.S. Code. That was another concern. 
``Unauthorized immigration'' is what was proposed.
    Ms. Wasserman Schultz. Okay.
    Dr. Hayden. The other older terms, and this is as with all 
the other terms that have been updated, I think that is the 
easiest, without getting too librarian-ish, updated, because 
this is cataloging, subject headings, things like that, will 
still be available as cross references to newer terms.
    So if you type in a term that has been updated, you will be 
referred possibly to another term. But this is a way that the 
Library uses. And the Library of Congress cataloguing is for 
all libraries, look to our cataloguing.
    So right now we are paused, waiting on direction, but that 
was the original proposal. The library has looked at 
alternatives.
    Ms. Wasserman Schultz. Mr. Chairman, I don't know if you 
were on the subcommittee when we dealt with this, but the 
Library over the years has phased out terms that are offensive 
or that fall out of use or are ultimately deemed no longer 
appropriate for modern communication. And that term was one of 
those, which, again, was along with thousands of updates that 
they proposed.
    And so as we move forward with this bill, if we could 
discuss possibly ensuring that we don't interfere with the 
Library's ability to be the professionals that they are and use 
their judgment as to what the appropriate search terms are. And 
it may be that they decide to keep it, since it is part of the 
Code and some people search that way.
    But that was not their original proposal. And so giving 
them the freedom that they should have, particularly under the 
First Amendment, I think is something that we need to not be 
obstacles to.
    And I yield back.

                     CROSS-REFERENCING TERMINOLOGY

    Dr. Hayden. And, Mark, I don't know if you want to, but in 
terms of the Library catalog, the terms are not taken out of 
the catalog. It is just, if you think about a--and I won't 
mention the major search engine--but when you type in a term, 
what comes up first.
    Ms. Wasserman Schultz. Right.
    Dr. Hayden. Or something like that. So it is adding 
additional terminology to the catalog.
    Mr. Sweeney. We continue to maintain cross references so 
people can discover works regardless of the terminology that 
they use. We never alter titles or anything like that or the 
text of an actual work.
    We did an extensive survey of opinions around the proposed 
``unauthorized immigration'' as well as ``noncitizens,'' and 
take into full consideration the terminology used in the U.S. 
Code, try to make it as consistent as possible.
    Ms. Wasserman Schultz. Thank you.
    Mr. Yoder. Mr. Newhouse.

                   CONGRESSIONAL DINNER APPRECIATION

    Mr. Newhouse. Welcome, Librarian Hayden. It is a pleasure 
to have you here. And thank you for bringing all your people 
here, Mr. Sweeney. I am not sure how far, all the way across 
the room, I guess, right? But welcome and thank you for taking 
the time.
    I, too, want to thank you for playing host to the dinners, 
the congressional dinners. Those are very worthwhile, and not 
only a good way to get us together in a bipartisan way, but to 
see the beautiful venue that you call your workspace.
    And I honestly do, every chance I get, tell the visitors 
that come to the Capitol that they need to go see the Library 
of Congress. It is the most beautiful building in Washington, 
D.C.
    So you mentioned that you got, I think, 93 million visitors 
to your website last year?
    Dr. Hayden. Yes.

                         ACCESSIBLE COLLECTIONS

    Mr. Newhouse. Which is amazing. And that new collections 
are coming online all the time.
    So I guess my question, what percentage of the Library's 
collection is accessible? And what kind of utilization do you 
foresee in the future with the resources that you are getting 
to accomplish that?
    Dr. Hayden. I am going to let Mark answer the question.
    Mr. Sweeney. I would like to say that, well, all the 
collections of Library of Congress are accessible in one way or 
another.
    Mr. Newhouse. Online?
    Mr. Sweeney. Not online necessarily.
    The exception, of course, would be the unprocessed 
collections that we have, which is estimated at about 28 
million items. And an item that can be counted as a book could 
be an individual item or an individual sheet of paper in a 
manuscript collection is an item.
    Mr. Newhouse. What is unprocessed?
    Mr. Sweeney. Unprocessed means that the material has been 
received by the Library but it hasn't been organized and we 
don't have an entry, either a finding aid or a catalog record 
that people can use to identify what part of the collection 
they want. So, unfortunately, that means we are not able to 
serve the collection in the way that we would ideally want it 
to be.
    Of course, on the spectrum of accessibility, at the highest 
level, of course, the item is digitized and is accessible 24/7 
online. In order for that to happen a work has to be in a 
rights status that permits us to make it accessible like that.
    So we have a very large collection, but a very, very high 
percentage of it is material that is not in the public domain 
yet or is rights-restricted in one way or another. An example 
would be that someone may have provided their papers, their 
manuscripts to the Library, but it may be under an embargo for 
a period of time.
    So we have a lot of work to do. There is a lot in the 
collection that we can digitize and make accessible. But we 
tend to focus on items that are unique. There are titles or 
works that are only held by the Library of Congress or not 
widely held so that we don't duplicate what other libraries 
might be able to digitize, and then those items that have 
little or no restriction on their use, so that we can make them 
as broadly accessible as possible.

                           INCREASING ACCESS

    Dr. Hayden. And this year's fiscal request has 40 FTEs to 
double the rate of the processing of those special collections.
    And I like to say, I mentioned Theodore Roosevelt and Susan 
B. Anthony. Just imagine all of these people behind us waiting. 
Their papers are there waiting to be put into a format that 
will allow you to not only look at them, but find them online. 
That is a process.
    Mr. Newhouse. So is it realistic to believe that at some 
point all the collections will be online?
    Dr. Hayden. We recently had an inspector general report 
that says that history never stops. So there is always going to 
be material not online. And for the next 50 to 100 years, we 
estimate that we will still be receiving things in paper format 
from historical, significant people and organizations like the 
NAACP, which is the largest archive, but it is not digitized.
    The 15 to 20 percent of things that are waiting to be 
processed will probably be the average. This request is to get 
us to that point, because we will always be in the near future, 
50 to 100 years, getting in those types of materials waiting to 
be processed.
    We are working on work-study programs, internships, citizen 
historian projects that will allow people from the public to 
help us in terms of this. But we really have to have dedicated 
staff to get that out.

                             CRS INQUIRIES

    Mr. Newhouse. Just one more question, if I could, Mr. 
Chairman, about the Congressional Research Service. It has 
proven to be an invaluable asset that I think most all of us 
use. And Ms. Wasserman Schultz recited some numbers that are 
very concerning in staff changes. Not that people can't retire, 
but we have to be able to continue.
    Has the number of requests for information increased over 
the last couple years? And what is the average turnaround time 
for offices that make requests to receive the requested 
information?
    Dr. Hayden. You mentioned that our staff members are here. 
And the head of CRS, Ms. Mazanec, is here, and I would let her 
address that directly.

                             CRS WORKFORCE

    Mr. Newhouse. And then I would ask also, how do you expect 
that will change when you add employees? I am trying to get, is 
it going to improve the timeliness if you can add more 
personnel? Thank you.
    Dr. Mazanec. Thank you for your question.
    Mr. Newhouse. Good to see you.
    Dr. Mazanec. Good to see you.
    The number of requests is pretty consistent, but the 
requests are all over the board, from purely informational 
requests that are a very quick answer to more in-depth 
analytical requests. So I can't even begin to figure out or 
calculate the average time it takes to respond.
    Mr. Newhouse. Because it is all over the board.
    Dr. Mazanec. It is all over the board.
    I think in recent years, as our staff numbers have come 
down, the analysts have worked with congressional staff to try 
to scope the request to be able to do what needs to be done in 
the timeframe that we are given. If we are given more time, we 
can produce a more highly analytical product.
    Then your other question was about additional staff or----
    Mr. Newhouse. Well, how that would impact that turnaround 
time, I guess.
    Dr. Mazanec. I think what we are trying to do, what I am 
trying to do, is bring on staff so that the senior analysts and 
attorneys have more time to focus on the analytical work, the 
highly analytical, sophisticated work that at least they don't 
feel they have enough time to do because they are answering a 
lot of requests.
    So some of the folks we are bringing on board, especially 
in last year's appropriation, fiscal year 2018, were more 
junior folks, 3- to 5-year NTEs, that would come in and 
hopefully unload the senior analysts so that they can do the 
more highly analytical work for Congress.
    Dr. Hayden. It is like a SWAT team, and so triage. And so 
you have the junior level fielding the more basic type of 
questions and then the others coming in on that.
    Mr. Newhouse. Good. Good. I appreciate that. And since 
freshman orientation, before I even knew what CRS stood for, 
you guys were right there being very helpful. And so I want to 
expression appreciation for that, too.
    Dr. Mazanec. Thank you. You are so kind. Thank you.
    Mr. Newhouse. Thank you, Mr. Chairman.
    Mr. Yoder. While we are on the subject of CRS, Mary, if you 
wanted to stay at the table.
    Dr. Hayden. And, Chairman, I must say, on a recent visit to 
CRS I noted an exceptionally large number of coffee machines.
    Mr. Yoder. Some late nights over there or what?
    Dr. Hayden. They are something.
    Mr. Yoder. A lot of caffeine.
    Dr. Hayden. A lot of energy.

                 PROGRESS ON MAKING CRS REPORTS PUBLIC

    Mr. Yoder. We will keep sending it over.
    I just wanted to ask a little bit of a follow-up on making 
the CRS reports public, and that process, and what that will 
eventually look like to the public, what the timeline is. If 
you could just update the committee on your work since that 
measure has passed and how you see it progressing.
    Dr. Mazanec. Sure. We have done it right away. We are 
working on it very aggressively. We have a working group that 
consists of CRS analysts and folks, and also staff from Bud 
Barton's office, OCIO, to do the technology piece.
    So we will be able to meet the statutory deadlines. It 
appears that the most feasible option, although I don't want to 
lock down into any definite plan at this point--we will get the 
plan to you as scheduled--is to use the Congress.gov website as 
the portal to go into and then have something on the website 
that would take you to another page for the CRS reports.
    We are starting with our classic R Series reports, the 
classic analytical reports. And as this evolves, we will be 
adding additional products.
    Did I answer your question?
    Mr. Yoder. I think so. I am trying to remember what the 
statutory timeline was.
    Dr. Mazanec. So we have to have a plan in 60 days.
    Mr. Yoder. Okay.
    Dr. Mazanec. And then after that we have--basically the 
drop dead date in September 2018.
    Mr. Yoder. To have it up and running?
    Dr. Mazanec. To have it up and running.
    Mr. Yoder. Okay.
    Dr. Hayden. And I just have to say that this subcommittee's 
investment, Congress' investment in IT is allowing us--the last 
2 years are allowing us to be much more capable of responding 
in a more timely fashion because everything is being 
centralized.
    Mr. Yoder. Right.
    Dr. Hayden. So Mr. Barton is here, and I want to just give 
him credit for helping us.

              NATIONAL LIBRARY SERVICE'S E-READER PROGRAM

    Mr. Yoder. Okay. Thank you.
    On the NLS e-reader program, in 2006 Congress authorized 
the NLS to provide e-readers for electronic braille. Since that 
time, NLS has been working on a pilot program to determine the 
specific time of e-reader technology it would be best to invest 
in.
    Could you update the committee on that pilot program and 
when NLS might be in a position to make a recommendation on the 
specific type of technology that Congress should invest in?
    Dr. Hayden. And Ms. Keninger is not here today. She was 
ill. But the experiment with the Perkins School, about 200 e-
readers, is yielding very good information about that, and they 
are tracking the usage of the new e-readers.
    And it is anticipated that in the fourth quarter of fiscal 
year 2018, the NLS pilot will purchase up to 2,000 braille e-
readers that will be distributed to eight of the network 
libraries. There are about 100 network libraries. So this will 
be the next pilot phase.
    And from the early feedback, the response has been very 
good, and we are very excited about this opportunity to make 
more braille e-readers available.
    Mr. Yoder. When do you think the request will come to 
Congress to expand and to invest in the actual program?
    Dr. Hayden. I will have to get back to you on that one in 
terms of the actual request that will be in. There are parts of 
the program in the testing in terms of working with different 
technology vendors in terms of producing the e-readers that 
will be used.
    So we know the features that we want, but we will also have 
to make sure that we have a vendor that can produce the 
quantity of about 30,000 e-readers needed. So that is a part we 
will be looking at. So we will come back to you on that.
    Mr. Yoder. All right. And then lastly, back to the 
Copyright Office
    Dr. Hayden. Yes.

                       COPYRIGHT IT MODERNIZATION

    Mr. Yoder. We are investing in technology of last year, and 
in next year's bill we will be adding additional resources for 
technology based upon your request.
    You know, we really want the Copyright Office to be 
successful and be efficient. And, of course, we have had public 
testimony in front of this committee in the past couple of 
years from outside organizations discussing how Patent and 
Trademark Office can turn around in 48 hours and it takes the 
Copyright Office 6 to 9 months and there are delays.
    And one of the things you said is, obviously, there are 
different things, but also you need technology, we need to 
invest in it if we want to improve it.
    Can you just give us a quick highlight of what you think 
the improvements will be and how they will actually affect the 
artists? Because we also hear from a lot of the artists who 
have frustrations as well, and they are counting on us to make 
reforms. And they are even asking us to do reforms, maybe, that 
even the Library doesn't agree with.
    So I want to know how you see this going in a way that we 
can assure the artists and those using this service that, 
``Hey, we are getting this right. Just give us some time to 
invest and fix this.''
    Dr. Hayden. And Ms. Temple has been wonderful during this 
time with the IT modernization and working with Mr. Barton, 
with Copyright. And it includes working on the backlog.
    This year's request is 15 more copyright examiners. That is 
to address part of the backlog. This goes with the 15 positions 
that were in last year's request. So there are about 30. You 
are getting to the level that Copyright had before. So these 
are the people who are determining what is eligible for 
copyright.
    Also, the IT modernization, we are past stabilizing and 
optimizing what we have to developing a new system similar to 
what people are used to with tax, filing automatically there.
    A lot of the backlog has to do with the process that is not 
automated like people are expecting in other parts of life 
where it stops you and makes you go back. If it is a paper-
based system, that is difficult. It takes time.
    So using technology to really modernize. And also the 
people that can help with the backlogs. I mentioned the 25 
percent reduction in the registration, the recordation. Think 
of car transfer of title. That is entirely paper-based and 
manual. So IT modernization is going to really help with 
recordation.

                       COPYRIGHT PROCESSING TIME

    Mr. Yoder. And as that backlog is resolved, do you see a 
typical turnaround time? Is there a way to estimate what that 
might become?
    Dr. Hayden. Ms. Temple might be able to give you what we 
hope. We are working on the development of the system.
    And, Karyn, do you want to just estimate?
    And this is with, as we move forward, with the system going 
totally----
    Ms. Temple. Yes. Obviously, we wouldn't actually be able to 
give you the specific time now. We would expect, though, that 
the time would be reduced significantly once we actually have a 
truly modernized system. It would go from the 7 to 9 months, 
for example, that we have for online filings that don't trigger 
correspondence to much less.
    Mr. Yoder. What does that look like? I know you can't say, 
``Look, we can put a guarantee in front of this committee that 
we will have it done in 10 days.'' But what would you think 
would be an appropriate turnaround time that would be the right 
speed, if you could get there?
    Ms. Temple. Well, I would say it would have to vary because 
it is going to depend on the complexity of the particular claim 
that we get into the office.
    And in terms of how long it actually takes us to fully 
process the claim, that is actually also really largely 
affected by the quality of the application that we get in, if 
we have to correspond with the user who is actually filling the 
claim.
    Mr. Yoder. I understand, because 7 to 9 months, as you can 
estimate now, with all these factors included.
    Ms. Temple. Right.
    Mr. Yoder. We are investing in all of this. We are adding 
personnel, we are adding dollars. And if your response is, 
well, it still might be 7 to 9 months, it could be less, we 
can't give you----
    Ms. Temple. No.
    Mr. Yoder. What do you think we could get to?
    Ms. Temple. Yes, I would be reluctant to give you a 
specific, ``We will be able to do it 24 hours.''
    Mr. Yoder. I understand.
    Ms. Temple. Because then you will hold us to it.
    Mr. Yoder. Right. Right. I understand. That is why I am 
asking the question.
    Ms. Temple. But I would say that we do expect a significant 
reduction from the 7 to 9 months. That is something that we 
think is beneficial to the overall copyright system as a whole.
    And so without saying a specific time that you would hold 
me to, I would expect that there will be a very significant 
reduction from that 7 months to something much less. And if we 
can get it down to weeks, of course, we will always be aiming 
for that.
    Mr. Yoder. Right. We are always going to be aiming to make 
it more efficient and quicker while doing our jobs and 
protecting artists, because that is part of the whole purpose. 
You want to make sure they are not stealing someone else's work 
in the process, right? It is about protecting the artists.
    Ms. Temple. Right. We want to make sure that the record, 
itself, is accurate to facilitate licensing in the system. So 
we don't want to do it so quickly that we are actually causing 
problems.
    Mr. Yoder. Speed is not the only factor, we understand 
that.
    Dr. Hayden. And patents are different from copyrights in 
terms of how they can be automated in that sense, too. And that 
has been something that we are really looking at. We are 
learning from the patent experience, but also taking in the 
unique----
    Mr. Yoder. Okay. Thank you for your testimony.
    Ms. Temple. Thank you.

                       Chairman's Closing Remarks

    Mr. Yoder. Mr. Ryan, good?
    Everybody good?
    All right. Well, Dr. Hayden, thank you.
    Dr. Hayden. Thank you.
    Mr. Yoder. And Mr. Sweeney and everyone who works hard for 
the Library. Thanks for attending today. And we look forward to 
a new visitor's experience and improved technology with the 
Copyright Office and so many other things you are doing to 
strengthen and preserve the great treasure that is the Library 
of Congress.
    Dr. Hayden. Well, thank you for your support.
    Mr. Yoder. Thanks for your good work.
    All right. With that, committee, we are going to recess for 
a minute in order to bring on our next hearing, which is with 
the House of Representatives.
    [Questions for the record follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    

                                         Wednesday, April 25, 2018.

                     U.S. HOUSE OF REPRESENTATIVES

                               WITNESSES

HON. KAREN L. HAAS, CLERK, HOUSE OF REPRESENTATIVES
HON. PAUL D. IRVING, SERGEANT AT ARMS, HOUSE OF REPRESENTATIVES
HON. PHILIP G. KIKO, CHIEF ADMINISTRATIVE OFFICER, HOUSE OF 
    REPRESENTATIVES

            Opening Statement of Hon. Kevin Yoder, Chairman

    Mr. Yoder. I call the hearing back to order.
    This afternoon, we will hear testimony from the officers of 
the House on the Fiscal Year 2019 budget justification for the 
House of Representatives. This is our ninth and final hearing 
on our Fiscal Year 2019 budget justifications, and I want to 
take a minute to thank my good friend and colleague Mr. Ryan, 
the Ranking Member; Members of the subcommittee; and staff for 
their hard work that goes into preparing for all these 
hearings.
    Going into this appropriations season, we felt it was 
important to expand the number of hearings the subcommittee 
held in an effort to hear directly from more agency heads, as 
well as other Members of Congress and outside witnesses. 
Although demanding on the schedules, I do think the additional 
hearings were valuable and were important towards our oversight 
responsibilities.
    Now, I would like to welcome the Officers of the House: the 
Honorable Karen Haas, Clerk of the House; the Honorable Paul 
Irving, Sergeant at Arms; and the Honorable Phil Kiko, Chief 
Administrative Officer.
    The fiscal year 2019 budget request for the House agencies 
is $1.257 billion, which is $57 million above currently enacted 
levels. Much of the work each of your offices do on a daily 
basis is behind the scenes and, when done seamlessly, often 
goes unnoticed.
    Collectively, you are responsible for the services that 
truly keep this place running: the IT network that allows us to 
communicate, the financial system that pays our bills and meets 
our payroll, the voting system that helps authenticate the 
legislative process, the issuance of IDs, and, more recently, 
several initiatives to keep our district offices safer, just to 
name a few.
    Without the services of the House officers, we could not 
carry out our constitutional duties as Members of Congress. And 
although the three of you probably like the fact that most of 
your operations are behind the scenes and go unnoticed, I want 
to take a moment to recognize the amazing work your 
organizations do and thank the dedicated staff in each of your 
organizations for the work they do on behalf of Members of 
Congress, our staff, the guests in the Capitol, constituents 
who come to see us. All are made more efficient and effective 
because of your work.
    I look forward to working with each of you on the 
challenges facing us in Fiscal Year 2019.
    And, with that, I would like to yield to the man from Ohio, 
Mr. Ryan, for his opening statement.

           Opening Statement of Hon. Tim Ryan, Ranking Member

    Mr. Ryan. Mr. Chairman, let me just echo your thanks, and 
let's get on with the hearing.
    But we appreciate it. And we saw you in action just today 
with a beautiful speech, and I think it shows the importance of 
how deep your work goes in connecting ourselves, our democracy, 
with the world and their leaders. So thank you for everything 
that you do.
    And I yield back, Mr. Chairman. Let's get into the nuts and 
bolts here.

                     Chairman Outlines Proceedings

    Mr. Yoder. Thank you, Mr. Ryan.
    Without any objection, the entire statements from each of 
you will be made part of the record. And I will ask each one of 
you, the Clerk, Sergeant at Arms, and Chief Administrative 
Officer, to summarize your remarks and highlight your efforts 
of the past year. And after opening statements, we will move to 
the questions and answers.
    So, with that, Ms. Haas, we will start with you.

                Clerk of the House Abbreviated Testimony

    Ms. Haas. Thank you.
    Chairman Yoder, Ranking Member Ryan, Members of the 
Subcommittee, I appreciate the opportunity to testify before 
you regarding the operations for the Office of the Clerk and 
our Fiscal Year 2019 Budget Request. Thank you for providing 
the resources and guidance to allow us to continue to carry out 
our duties and responsibilities for the legislative and 
institutional operations of the House.

                      CLERK PROJECTS AND PROGRAMS

    I would like to provide you with a brief update on current 
projects, along with upcoming activities. Testing continues on 
the new vote stations for the Electronic Voting System with a 
planned August installation. If all continues to go well, we 
will issue new voting cards when Members return from the August 
district work period.
    We continue to release updates to the alpha version of our 
new Clerk website. The site has a more robust vote search 
capability along with additional Member profile information. We 
anticipate a complete conversion to the new site for the 116th 
Congress.
    As of December 2017, we have completed the requirements 
under the new Comparative Print Rule, as required by House 
Rules. Today, the House Office of Legislative Counsel, in 
conjunction with the House Rules Committee, can display 
publicly changes to current law that will be made by a bill 
prior to House consideration.
    With the support of this Subcommittee, we were able to meet 
the condensed time schedule and are now finalizing requirements 
for Phase II of this project. Our eventual goal is to have a 
tool that can be easily used by Members and staff.
    We have purchased and configured equipment to transition to 
the Redstone Data Center as our backup data center later this 
year. With the support of the Chief Administrative Officer, we 
look forward to continuing our efforts to find further 
efficiencies in contracting and technology.
    Work continues on the space at GPO designated to receive 
House and Senate records later this year. Due to modifications 
from the original construction plans, the project is slightly 
behind schedule, but we do not anticipate any delay in 
processing records at the end of this Congress.
    Our curatorial team has been busy with exhibits in the 
Capitol and House Office Buildings highlighting the history and 
artifacts of the House. Next month, we will complete 
installation of an exhibit dedicated to the Congressional 
Baseball and Softball Games.
    None of this work would be possible without the highly 
professional men and women that work in the Office of the 
Clerk. They strive to provide innovative legislative services 
and support to the House while protecting the integrity and 
traditions of this institution.
    I would like to thank my fellow officers for their support 
as well as our many legislative partners. Together, we try to 
maintain a high level of service to Members, staff, and the 
public. Thank you for your support. I am happy to answer any 
questions.
    [The prepared statement follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Yoder. Thank you for your testimony.
    We will now turn to Mr. Irving, Sergeant at Arms.

                 Sergeant at Arms Abbreviated Testimony

    Mr. Irving. Good morning--or good afternoon, Chairman 
Yoder, Ranking Member Ryan, and members of the committee. I 
appreciate the opportunity to present the Office of the 
Sergeant at Arms Budget Request for Fiscal Year 2019.
    The expectations of House leadership and Members of 
Congress are very different from when the first Sergeant at 
Arms was elected in 1789. Modern security needs to protect 
Members of Congress have transformed the mission and character 
of the office.
    The events of last June, coupled with the unprecedented 
number of threats and threatening communications the Members 
have received within the last year, has required an increased 
level of safety and security in Washington, D.C., as well as in 
Members' districts. In response, we have enhanced the 
capability at the Capitol with the creation of an operations 
office and created and staffed and enhanced a district office 
security program.

                      ENHANCING SECURITY MEASURES

    I work closely with the Capitol Police Board to support the 
Capitol Police in its mission to protect and serve the Capitol 
community, proactively seeking to implement new security 
initiatives and to stay ahead of new and emerging threats. As 
noted, the increase in threats, both to the campus and to 
individual Members alike, has challenged us to deploy enhanced 
security measures and adjust our tactical response.
    Among other countermeasures, the Capitol Police Board has 
been working to identify options for exterior screening at the 
most heavily used entrances throughout the Capitol complex. 
This is a measure to address security concerns at key exterior 
checkpoints, points of entry, in order to identify and mitigate 
threats before they enter or reach the interior of our 
buildings.

                   SECURITY INITIATIVES AND PROJECTS

    With regard to security initiatives for Fiscal Year 2019, I 
am proposing the continuation of our district office security 
outreach program with Member offices. Thanks to this committee, 
we have the funding for the installation of security system 
equipment at one district office per Member, which includes a 
basic intrusion detection alarm system, duress buttons, and an 
intercom system.
    Upon request, we will also pay the monthly alarm system 
monitoring fees at district office locations. In addition to 
physical security enhancements, the District Security Service 
Center was established to serve as the primary point of contact 
for the coordination of all staff requests and issues.
    We have also expanded our law enforcement coordinator 
training to prepare district staff to effectively manage crowd 
control, coordinate security for events, and handle potentially 
threatening situations. These briefings serve to bolster the 
education already provided by the law enforcement coordinator 
program.
    On the Capitol complex, several projects have been 
completed thanks to our partnership with this committee. The 
successful transition to the O'Neill House Office Building 
resulted from continued coordination between the Capitol Police 
and the Architect to maintain, update, and integrate the 
O'Neill security systems, such as cameras, prox cards, and 
alarms, to be consistent with other House Office Buildings.
    We are also working on the expansion of the House Child 
Care Center and will continue to keep the committee advised of 
the screening and other security protocols as the Child Care 
Center expansion space is retrofitted.
    In addition to the successes of these projects and 
programs, the garage security enhancement project is on track, 
designed to move the entire Capitol complex closer to 100 
percent screening by bringing the House Office Buildings into 
the secure perimeter and in line with the Senate Office 
Buildings in the Capitol.
    Because of the enhanced support operations of the Sergeant 
at Arms, the Sergeant at Arms staff, and these new and ongoing 
initiatives, I am requesting a funding increase in FTE for 
several of my divisions. Employees of the Sergeant at Arms are 
our strongest asset and essential for the successful execution 
of these numerous special events, projects, and programs in the 
upcoming years.
    Thank you, once again, for the opportunity to appear before 
the committee. I want to assure you of my deep commitment and 
that of my entire office to remain vigilant and focused on 
security and preparedness, striving to adhere to the strict 
level of fiscal responsibility entrusted to us by the House of 
Representatives. As always, I will keep the committee informed 
of my activities. And I am happy to answer any questions you 
may have.
    [The prepared statement follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Yoder. And, last but not least, Mr. Kiko, the Chief 
Administrative Officer.

           Chief Administrative Officer Abbreviated Testimony

    Mr. Kiko. I don't mind being last. Good afternoon, Chairman 
Yoder, Ranking Member Ryan, and Members of the Subcommittee. I 
thank you for the opportunity to present the CAO's budget 
request.

                CHIEF ADMINISTRATIVE OFFICER INITIATIVES

    Since last year, the CAO has made significant progress with 
the initiatives it prioritized for Fiscal Year 2018. The 
organization has advanced major ongoing initiatives to improve 
the many services it provides.
    I would like to give a shout-out to our Office of Employee 
Assistance, as they were recently presented with the Medal of 
Merit by U.S. Capitol Police Chief Verderosa for their 
outstanding counseling service to Members of Congress and 
employees after the tragic shooting last June.
    The CAO is continuously looking for ways to adopt and 
expand cost-saving technology solutions for D.C. and district 
offices. For example, the CAO developed and hosts 76 percent of 
the nearly 500 Member and committee websites.
    Our popular online service tool, MyServiceRequest, has 
expanded to include 95 services and has grown from an average 
of 350 requests per month in 2014 to 2,500 requests per month 
last year.
    We are working on initiatives to improve our own business 
processes for financial services and asset management and on 
other projects, including the upcoming congressional transition 
and the Cannon Renewal Project.
    The House has asked the CAO to take on many new 
responsibilities like the implementation of the newly required 
workplace rights and responsibilities education, which provides 
in-person training for as many as 12,000 individuals through 
376 educational sessions in D.C. and 184 sessions in 92 
locations across the country, all before July 2.
    We have also been tasked with standing up a new House 
Office of Employee Advocacy, and we are also going to be doing 
a survey on this issue as well. All of these initiatives serve 
as the basis of the organizational budget request for Fiscal 
Year 2019, which is $152 million.

            CHIEF ADMINISTRATIVE OFFICER FY19 BUDGET REQUEST

    Seventy-seven percent of the requested increase is for 
nonpersonnel expenditures, including cybersecurity programs, 
annual maintenance, and licensing of contracts for the House, 
contractor support, equipment, and training.
    Twenty-two percent is for personnel and is requested to 
support cost-of-living adjustments and longevities for current 
staff and additional support for House information resources 
and the newly-formed business unit. Of the requested increase, 
$7.2 million, or 36 percent, is dedicated to cybersecurity.

                             CYBERSECURITY

    Cyber attacks against the House average 300 million to 500 
million each month. Between July and December of 2017, we 
blocked 9.4 billion unauthorized probes, scans, and connections 
from the House network, and this year, the CAO has deployed 
nearly 200,000 security patches for servers and workstations 
for Members. Every day, we need to employ the best security 
platforms because failure is not an option.

              CHIEF ADMINISTRATION OFFICER STRATEGIC PLAN

    I would like to highlight the continued implementation of 
our strategic plan. Since implementation was initiated, the CAO 
has undergone some major changes, most significant has been the 
creation of an entirely new business unit called the Customer 
Experience Center, or CEC.
    Based on our conversations at the beginning of this 
strategic planning process, focus groups with Member offices, 
and surveys, offices can find it difficult and frustrating to 
navigate the CAO's multitude of services. To be frank, when I 
first started, I spent most of my time putting out fires from 
dissatisfied Members, and that is unacceptable.
    We need to do better. The CAO needs to better understand 
the complexities and challenges of Member office operations and 
become experts in service delivery, not the other way around, 
which is why we created the CEC.

                       CUSTOMER EXPERIENCE CENTER

    The CEC is designed to help connect our customers with our 
technical, administrative, and operational experts to improve 
access to our services. Included in the CEC are Customer 
Advocates, full-time staff assigned to specific Member offices 
to facilitate services and remediate problems when they arise.
    Last fall, when we introduced our Advocates, they were well 
received, and we are in the process of expanding the program. I 
expect reliance on the advocates to grow exponentially when we 
expand the program to all Member offices in Fiscal Year 2018 
through the upcoming congressional transition. And they have 
been well received by our Members that were the subject of 
special elections this year.
    Thank you very much.
    [The prepared statement follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Yoder. Thanks to all three of you for your testimony. 
We will now move to questions and answers.

                               POSEY RULE

    I have a question for Ms. Haas to start out with. On the 
opening day of Congress, a new House rule was adopted, known as 
the Posey Rule, and it requires a Comparative Print of proposed 
amendments. This is something that, when I was in the Kansas 
legislature, every amendment would have a comparative print, 
and you were able to see sort of what was being changed, not 
just the changes.
    Your office plays a critical role in implementing this new 
requirement, and I know you had a December 2017 deadline to 
implement the first phase. How is the implementation going, and 
what are the next steps?
    Ms. Haas. So implementation is going well. We were able to 
meet that timeframe. And, currently, with work from House 
Legislative Counsel, working collaboratively with the Rules 
Committee, that information is available publicly prior to 
bills coming up on the House Floor. For example it is available 
on the Rules Committee website.
    Phase II, though, is to make this easier for Members and 
staff to use and not to have to have the professionals at Rules 
and Leg Counsel have to use the product.
    We are in Phase II of the requirements. We expect to have 
the requirements completed next month, and by the end of the 
month, we hope to have an RFQ out on the street to move forward 
with Phase II. So we are moving expeditiously, and we want to 
get to what you are used to from the State legislature.
    Mr. Yoder. And that will be accessible to the public? It 
already is on the Rules website?
    Ms. Haas. So the information is already available, correct.
    Mr. Yoder. Right.
    Ms. Haas. But the tool itself will be used for internal 
purposes for Members and staff to be able to run several 
different options.

                       GARAGE SECURITY INITIATIVE

    Mr. Yoder. Okay.
    All right. And then, Mr. Irving, the status of the garage 
security initiative, that is something we have talked about 
here, the changes that we are making to garage security.
    Mr. Irving. Yes, Mr. Chairman.
    Mr. Yoder. Would you update the committee on that, on the 
timetable?
    Mr. Irving. Indeed. It is moving along well in parallel 
course with the garage rehabilitation project. The largest 
portion of the garage security initiative, frankly, is the 
Rayburn. We have already got, you know, the Ford House Office 
Building.
    We have the East and West Undergrounds, what we used to 
call the HUGs, but the Cannon and Longworth Underground is 
done. We still have the Rayburn and then the Cannon. The 
Rayburn is the biggest chunk because of the size of the garage.
    We are on phase 2 of the garage rehabilitation, which has 
also built out many of the--what will be the secure--the 
vestibules for our magnetometers, X-rays, and other screening 
equipment. So we are on track.
    What was missing were the FTE, Capitol Police FTE, which, 
thank you to this committee, we now have those funded. We are 
about a year out. It takes about a year to recruit, hire, 
train, and get those boots on the ground.
    So we are at about a year away from implementation in at 
least an interim phase. We will be done with phase 2 moving 
into phase 3 of the rehabilitation project to continue the 
build-out of the other vestibules, but we should be on track to 
begin garage security in earnest probably around this time next 
year.
    Mr. Yoder. One of the points we have discussed on this 
before is how Members might be able to move through security 
through doors that are going to be closed under this 
initiative. I know Members will have concerns about, you know, 
a door they can go through now that takes them up to their 
office, and now they are going to have to go a different route. 
And we talked about giving them sort of key cards or something.
    Mr. Irving. Yes.
    Mr. Yoder. Is that still part of the process?
    Mr. Irving. Indeed. Members, as you know, they do not go 
through security and bypass security. So, at the entry points, 
the five main entry points, they will obviously not go through 
screening. And for those access points that we have closed down 
that may be closer to where they park, we will provide them 
prox cards so they can access those doors so they can get to 
where they need to go a little bit quicker.
    Mr. Yoder. Okay.

                          HOUSE FOOD SERVICES

    Mr. Kiko, I know that you did a study of food service 
feedback in the last 6 months or so, sort of getting 
information from customers, their pros and cons, what they like 
about the food service. Any of that information that will be 
useful to share with the committee?
    Mr. Kiko. We did a survey of all the employees. We got 
2,400 responses back. People wanted branded options, and they 
also wanted cafeteria-style food, and so we have moved forward 
on that. We have been trying to have more branded options. We 
have been working with the Architect. We have been working with 
the committee on moving forward.
    Au Bon Pain is going to be opening up in the Cannon 
Building. We have had some people that are now in the Longworth 
Building as well, Boar's Head and a couple of other ones. We 
have plans for more in the future, but we are trying to move 
very aggressively on that.
    Mr. Yoder. When does Au Bon Pain open up?
    Mr. Kiko. At the beginning--I think in January--of next 
year.
    Mr. Yoder. Okay. And Boar's Head already is in Longworth?
    Mr. Kiko. They are already there.
    Mr. Yoder. Okay.
    Mr. Kiko. There are long lines, you know. They are very 
popular.
    Mr. Yoder. Okay. And you already have a Subway in Rayburn?
    Mr. Kiko. Yes.
    Mr. Yoder. And there is the Dunkin' Donuts?
    Mr. Kiko. Yes.
    Mr. Yoder. And those are pretty popular as well?
    Mr. Kiko. Yes, they are. I think that is one of the largest 
Dunkin' Donuts in this area as far as volume of food.
    Mr. Yoder. We eat a lot of doughnuts here.
    All right. I will yield to my friend Mr. Ryan.

                         HOUSE CHILDCARE CENTER

    Mr. Ryan. Thank you, Mr. Chairman.
    I would like to talk a little bit about the House daycare 
center. We have been talking about parking. And one of the 
issues I am most concerned about over there is--we have toured 
it a couple times--is how we can best handle the influx of the 
expansion.
    Mr. Ayers referred to parallel or maybe slanted parking on 
one block, which obviously wouldn't be enough to address it. 
And I have since heard that maybe the front row of the big 
parking lot across the street might be reserved for daycare 
families. Can you give us the latest of what is happening over 
there?

                     HOUSE CHILDCARE CENTER PARKING

    Mr. Kiko. Well, I know the Sergeant at Arms--and you can 
talk to this too a little bit--was working on a study. And I 
know the Architect is working on this. I think there are 36 
spots right now. I just think that anything less than that is 
unacceptable.
    We need to have parking. We need to have even more parking 
for people to drop their kids off. I think we will find an 
acceptable solution for everybody. I don't really know what 
that is yet because we have a lot of different moving parts, 
but we will have to get this done. We can't have people walk 
too far or drop people off in a dangerous situation.
    But I do know, and we are looking at it. I am very involved 
in it. I know Paul is very involved in it. And we are going to 
grind it out until we find something that is acceptable, not 
just to get it done but to get an acceptable solution.
    Mr. Yoder. Yeah.
    Mr. Kiko. That is all I can say right now because we don't 
have everything totally worked out yet on the studies and 
everything.
    Mr. Irving. I will certainly echo what Phil said, and we 
are working very closely with the Committee on House 
Administration as well on identifying all the spots that we 
need. Since we control pretty much all the parking in the area, 
we should be able to figure it out, but we are certainly 
working on it. A work in progress, but I am confident, as Phil 
said, we will get to the spaces that we need.
    Mr. Ryan. Okay.

                          REDUCING FOOD WASTE

    Phil, before I move on, one of the things we have been 
talking about was food waste at the Capitol, and I think it is 
a significant number. And I know we have put language in recent 
bills talking about how are we going to reduce the food waste, 
and I want it to be more than just we are putting language in 
the bill talking about food waste. So can you talk to us about 
what we are doing?
    Mr. Kiko. Well, I will get back with the finer, specific 
points of what Sodexo is doing. I know that they are very, very 
involved in reducing food waste. They are very involved in 
portion control. For them, it is not beneficial from a profit 
and loss statement to have a lot of food waste.
    But I will get back with you. I know that they donate food 
to nonprofits as well, but it is done anonymously, and they 
don't want to take credit for it. But they do, and I will get a 
little more detail on all that and report back to you fairly 
fast.
    Mr. Ryan. Okay. That would be great. So the portion control 
is implemented, and then we go to Dunkin' Donuts and get the 
doughnuts. Story of our lives, isn't it?

                    SECURITY AT MULTI-MEMBER EVENTS

    Mr. Irving, we, obviously, had a tragic experience last 
year with a multi-Member event with the baseball practice. Can 
you talk to us a little bit about some of the changes maybe 
that you have made to address some of our concerns with multi-
Member events?
    Mr. Irving. Yes. We have instituted robust outreach to all 
Member offices, committees, leadership. Any time any Member or 
group of Members are going to go off campus, we want to know 
about it. We will conduct a survey. I work very closely with 
the Capitol Police, and I appreciate very much the Capitol 
Police. Chief Verderosa and Assistant Chief Sund have done a 
great job stepping up and providing us the manpower that we 
need to staff all of these off-campus events.
    As you know, there are many events that we did not staff at 
one time, but we are doing that now. So, as the survey goes 
out, we will determine the degree of manpower that we need, 
depending on the site and depending on the exposure, and 
provide the requisite level of Capitol Police support at all of 
those events.
    So that is a big change. We have streamlined the way 
Members can contact our office. They can do so via the 
HouseNet. I receive many letters from Members anyway usually 
when they are going to have something off campus.
    But we want to make it as easy as possible for those 
requests to come in and staff those. And I also send a team out 
from my office as well. So that has been a pretty big change in 
the level of support that we provide to Members off campus.

                        DISTRICT OFFICE SECURITY

    Mr. Ryan. And you mentioned security back in the district 
office. Can you just kind of go over that one more time----
    Mr. Irving. Yes.
    Mr. Ryan [continuing]. And maybe let us know how many 
offices have taken advantage of this at this point?
    Mr. Irving. Yes. No, thank you. It has been very 
successful. Many, many Members' offices have taken advantage. 
We have done--we started last summer, you know, after the 
events of June. And, again, I appreciated very much the support 
of the committee.
    We have done over 260 different Member offices. We have 
done a little over 350 individual offices. So some Members will 
have more than one office done. We are monitoring--at about 
440, 450 offices, we are monitoring. We have picked up the 
monitoring fee.
    Some Members had other services from other companies other 
than our main service provider. So it has been very successful. 
So we have about well over half the Members that are now, you 
know, involved in the program. We know we can do better. So we 
are just continuing our outreach.
    With the transition now coming on, it has slowed down a 
little bit, but we are expecting it to certainly pick up once 
we do the--you know, get into new Member orientation for the 
next Congress.
    Mr. Ryan. Okay. Thank you.

                            CENTRAL CALENDAR

    Quickly, Ms. Haas, we heard a pretty practical proposal. 
Under the Chairman's leadership, we have invited numerous 
groups to come in and talk to us about some ideas that they may 
have as to how we could maybe run our institution a little bit 
better. And they asked that we put together--one of the groups 
asked that we put together one central calendar for all House 
committee hearings and markups with all the relevant details on 
one website.
    Is that something that you have looked into, and do you 
think there is some reason why we wouldn't be able to do that? 
We think it would be good for our constituents to know. We 
already know, as I said last time, that all of the hearings are 
at the same time, but maybe it is important for the public to 
know exactly where they are.
    Ms. Haas. Absolutely.
    Mr. Ryan. So have you looked at this?
    Ms. Haas. The good news is we have already done that. The 
calendar does exist. It is available through our current 
website. It is also available through Congress.Gov. I think the 
bad news, and the fact that that question was asked, is that we 
are not doing a good enough job at making it easily available 
and making people aware of it.
    So the calendar is available. We created it a couple years 
back. It is on docs.house.gov. It is prominent on our new 
website, which will be fully effective in January, but we will 
work with the Library to make sure that it is easily accessible 
to the public.
    Mr. Ryan. Okay. So, if our committee schedules a hearing, 
you will immediately know about it and immediately put it on 
there?
    Ms. Haas. Correct. That is right.
    Mr. Ryan. Okay.
    Ms. Haas. It is on there now. This hearing is on there 
today.
    Mr. Ryan. You are famous, Mr. Chairman.
    All right. I yield back. Thank you.
    Mr. Yoder. Mr. Amodei.

                           SECURITY SCREENING

    Mr. Amodei. Thanks, Mr. Chairman.
    Of course, the bad news is the committee has got to tell 
you and us when they are going to have their hearings, right?
    Paul, I guess I need to talk with you and the chief 
offline, and it is kind of the same old subject, which is the 
screening to come into the buildings, as far as when you 
actually get there and somebody is putting you through the 
machine or they are wanding you or whatever, is okay. But it 
strikes me that we are in 110-year-old to 60-year-old buildings 
with vestibules that were made to do nothing other than walk 
through the door and walk into the building and so--and we have 
been doing that for a long time. And, obviously, we need to do 
that.
    But as you sit there, it is like--for a lot of these people 
that come to our offices, coming to the Nation's Capitol is a 
big deal. So, when you are queued up outside the building and 
on the sidewalk and if it is raining or whatever--it is hot or 
whatever it is--it is like coming and going out those doors a 
lot because--I mean, I don't need to worry about it, but you 
sense this frustration and this hostility, not with the actual 
screening process but--and it happens in all three buildings, 
because you know that I was on a jihad on, you know, Cannon is 
the third-class citizen of the buildings and all that other 
sort of stuff. But it is not even really about that anymore.
    And so it strikes me that as we are sitting here doing one 
building--and we have had discussions already in this committee 
about, you know, when is Longworth--and maybe Rayburn is in 
front of Longworth--it is like, hey, maybe part of that 
Architect of the Capitol thing is, how do we screen people in a 
way that just doesn't involve the way we have been doing it 
since before there were this many people and before we designed 
those buildings to just have people walk through the doors? 
Because--and this is--I am just saying, it is one of those 
things where you are like, well, you can add more lanes and you 
can do whatever, but it is like not in a lot of them because 
basically the space doesn't exist.
    So what I would like to do--and any other Member that wants 
to come--but it is like--and get the Architect of the Capitol 
too to say: Hey, we have been doing it this way for modern 
times, and, quite frankly, it is some days an awful experience 
just to wait to get screened. And then they come to your office 
or--well, I don't know if anybody comes to see Congressman 
Ryan, but anyhow, whoever's office--just wanted to see if you 
were listening down there, big guy.
    Mr. Ryan. Barely.
    Mr. Amodei. So, anyhow, I think we need to talk about that 
because, quite frankly, I know it is a source of some 
frustration for you guys too, but it is like, well, we kind of 
keep doing it. And so I think we need to start--and I don't 
know what the answer is.
    Mr. Irving. Yes. I made a passing reference of what we call 
the master plan. It is a security plan that was done a number 
of years ago that we are upgrading. And it is a collaborative 
effort of the Capitol Police Board, so it is the Senate 
Sergeant at Arms, the House Sergeant at Arms, and the 
Architect.
    And we are actually looking at proposing at some point 
the--and we are in the process of designing now--outside 
screening centers.
    Mr. Amodei. Super screening area?
    Mr. Irving. They would be screening centers. Those of us in 
the security business don't like screening inside buildings. We 
like screening to take place outside of the building. So this 
would help us with the paradigm that we would prefer, screening 
outside of the buildings, but also make it a far more 
pleasurable experience for those coming in out of the rain, out 
of the elements, maybe a seating area.
    I would have appointments desks there, so appointments 
could be served there. It would be a far better experience for 
everyone. The initial goal, as you know, way back for the 
Capitol Visitor Center was sort of to be that entrance, and it 
didn't necessarily turn out that way because of the locations 
of the various House and Senate Office Buildings.
    But having said that, I look forward to sitting down with 
you because we can show you some diagrams that we have already 
started to come up with to enhance the experience and make it 
better.
    Mr. Amodei. Thank you.
    I yield back, Mr. Chairman.
    Mr. Yoder. And as part of that, one of the proposals is to 
build a South Capitol door entrance, right, and to put that 
outside?
    Mr. Irving. Yes. In fact, there was one, a temporary 
structure at one time after 9/11 when the CVC opened that went 
away, thinking that most folks would come in via the CVC. But 
we would like to establish that once again, construct that 
again.
    So there would be just outside the--what is known as the 
south door on the House side of the Capitol would have its own 
separate structure which would be screening and, again, our 
appointments desk, waiting area, we feel would make the Capitol 
far more secure because we would take care of any issues, you 
know, outside of the Capitol before you get in.
    The Senate does have a structure now, but it is a small, 
temporary trailer I think that they do probably want to upgrade 
as well.
    Mr. Yoder. So the south door structure would look different 
than the Senate structure. How would it look?
    Mr. Irving. At some point, both would look the same.
    Mr. Yoder. But in terms of the current Senate structure 
that is a temporary trailer. That is not what your proposal is 
for the south door?
    Mr. Irving. No.
    Mr. Yoder. What does that look like?
    Mr. Irving. It would be, if you would imagine some of our 
kiosks that are stone, so they would more closely match the 
architecture of the building. And we have to work with the 
Architect to see if this is going to be a structure that is 
going to be a forever structure or something that will be a 
little more temporary. But certainly it would be more than just 
a trailer, than one of these--
    Mr. Yoder. And the idea is that if someone did have some 
sort of explosive device, they wouldn't be in the Capitol when 
they were getting screened, right? They would be outside.
    Mr. Irving. They would be outside.
    Mr. Yoder. And does that structure have some way to 
contain--is it built in a way----
    Mr. Irving. Yes.
    Mr. Yoder [continuing]. That might have--anticipate there 
could be a problem and have a structure that contains that?
    Mr. Irving. Yes. Not to get into some of the----
    Mr. Yoder. Sure.
    Mr. Irving [continuing]. Area that borders on classified--
--
    Mr. Yoder. Correct.
    Mr. Irving [continuing]. But, yes, it would be designed to 
withstand certain issues and certainly be far more protection 
than what we have now. We have instigated a number of 
countermeasures in the meantime by enhancing our presence 
outside with what we call Vapor Wake or PBIED K-9s that will 
detect certain explosives.
    So we do our best to put as many personnel, law enforcement 
personnel, Capitol Police, at those areas where people come 
into the buildings. But it would be better to have a separate 
structure outside for full screening.
    Mr. Yoder. The tragic shooting and killing of, was it two 
officers in, what was that, 1998. I wasn't here in Washington 
at that time. The shooter then was able to access the Capitol?
    Mr. Irving. Unfortunately, yes. Again, that was a classic 
example of someone who came into the building and was in the 
building, and we want to avoid that.
    Mr. Yoder. And that would be also preventable somewhat if 
the screening was happening outside?
    Mr. Irving. Yes, absolutely.
    Mr. Yoder. Okay.

                       HOUSE FLOOR VOTING SYSTEM

    Ms. Haas, the voting system that you spoke about----
    Ms. Haas. Yes, sir.
    Mr. Yoder [continuing]. I am sure lots of Members will have 
questions for me and Mr. Ryan about that if, you know, it 
happens and they don't like parts of it. So I just want to make 
sure I understand. So all of the voting boxes on the floor will 
be replaced?
    Ms. Haas. Correct.
    Mr. Yoder. And they are being replaced with boxes that look 
similar but have modern technology?
    Ms. Haas. That is exactly right.
    Mr. Yoder. One piece of that is there will be a little 
digital readout that will tell you what your vote is?
    Ms. Haas. Well, there is going to be--a screen.
    Mr. Yoder. Screen, uh-huh.
    Ms. Haas. At this point right now, the screen is very 
small, and when you put your card in, your name will come up. 
So, initially, that is what it is going to have.
    Mr. Yoder. So you know you have your right card.
    Ms. Haas. Correct. And it has some basic things in there. 
It will restate what your vote is after you voted. So it is 
another way for you to check your vote.
    As you may recall, this new system will allow visually 
impaired Members to submit their votes, if we have any folks 
that are visually impaired, it has technology for that built 
into the new cards that we are going to be distributing. So 
those are the real changes.
    From an operational standpoint as a Member, you are going 
to see very little difference on the screens.
    Mr. Yoder. And what is the benefit to the institution to do 
this?
    Ms. Haas. Sure. So, first of all, the current boxes are 
more than 20 years old. We are moving from what was a custom 
technology to a technology that is more commercially available. 
We will be able to support the systems ourselves.
    I mentioned the display. They are going to have--they are 
new LED. So everything is really modernized in the new voting 
boxes. But the biggest----
    Mr. Yoder. The voting board will work the same? The 
functionality is the same?
    Ms. Haas. No changes to the board at all; that is right.
    Mr. Yoder. How much is this costing us?
    Ms. Haas. The whole--do you know, Bob?
    Mr. Reeves. It is a little over $300,000.
    Mr. Yoder. Over $300,000. And will the cards look any 
different?
    Ms. Haas. The cards will look the same. The new cards that 
we are going to distribute right after the August break, the 
one change is we have put a Capitol Dome on there just so you 
will be able to know the difference from the earlier card 
provided at the beginning of this Congress. But if you try to 
use your old cards, they will not work in the new system. So we 
will be aggressively communicating to Member offices over the 
August break.
    Mr. Yoder. Will we need like a training session for certain 
Members--
    Ms. Haas. No.
    Mr. Yoder [continuing]. To be able to explain to them how 
to use this, or are they going to be able to--old dog, new 
tricks kind of issue here. But you think we will be okay?
    Ms. Haas. I think you will find it very simple.
    The other thing is, during the April break, we did bring 
out the 50 boxes, and we tested them on the floor, and 
everything is continuing to go well.
    Mr. Yoder. And there will be more boxes, right, than we 
have now?
    Ms. Haas. That is correct. We will have two additional 
boxes on each side where Leadership designated where those 
boxes should go.
    Mr. Yoder. Got it. Okay.
    Mr. Ryan. Did you say earlier you are going to do a 
baseball/softball display?
    Ms. Haas. That is right. Yes, sir.
    Mr. Ryan. So the chairman and I would just like to 
recommend for that display the picture over here----
    Ms. Haas. Okay.
    Mr. Yoder [continuing]. Of two of the finest athletes that 
ever played the game.
    Ms. Haas. We will take that under consideration.
    Mr. Yoder. What we still don't know is whether you caught 
that ball, right?
    Mr. Ryan. All I know is I couldn't walk the next morning.

                       Chairman's Closing Remarks

    Mr. Yoder. And, with that, the subcommittee is adjourned. 
We will reconvene at 1:30 tomorrow when we will meet for our 
subcommittee markup for fiscal year 2019 Legislative Branch 
Appropriations bill.
    With that, thank you, all three, for your work and for your 
team and look forward to a great rest of your year.
    [Questions for the record follow:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                               I N D E X

                              ----------                             


                      United States Capitol Police

                                                                   Page
Ammunition and Weapons Replacement Budget........................    21
Event Security...................................................    13
Increases in Overtime............................................    23
Metro Safety, K-9 Budget and Retirement Waiver...................    16
Opening Remarks of Chairman Yoder................................     1
Opening Remarks of Ranking Member Ryan...........................    12
Opening Statement of Chief Matthew R. Verderosa..................     3
Partnerships with Local Law Enforcement..........................    14
Prescreening Strategy............................................    25
Retirement Age Waiver............................................    12
Safety Measures at District Offices..............................    18
Screening Technology Advancements................................    15
Testimony of Chief Matthew R. Verderosa..........................     5
Training, Backfilling Attrition and Retirement...................    20
.................................................................

                      Government Publishing Office

Building Space at GPO............................................    45
Changes to Title 44..............................................    44
GPO and Passports................................................    47
GPO's Budget Request.............................................    27
GPO's Data Centers...............................................    46
GPO's Online Information System..................................    48
Impact on Transparency...........................................    44
Modernization of the GPO.........................................    43
.................................................................

                     Architect of the Capitol (AOC)

Cannon House Office Building Renewal.............................    67
Capitol Visitor Center Tunnel Repair.............................    73
Chairman Remarks.................................................    59
Child Care Center................................................    67
Cyber Security...................................................    70
Elevator Signage.................................................    74
Energy Reduction.................................................    69
House Hi
storic Buildings Revitalization Trust Fund........................   75
House Recycling Program 



Lead in Water Testing............................................    74
Legislative Language.............................................    71
Members Representational Allowances..............................    73
Parking..........................................................    69
Prepared Statement of Stephen T. Ayers...........................    62
Questions for the Record.........................................    79
    AOC/CAO Service Consolidation................................    82
    Baby Changing Stations.......................................    82
    Child Care Center............................................    79
    Congressional Accountability Act Settlements.................    80
    Data Center..................................................    81
    Energy and Sustainability Program............................    83
    O'Neill Building.............................................    85
    Rayburn Garage Renovation....................................    85
    Restoration and Renovation of the Cannon House Office 
      Building...................................................    84
    Tree Accident................................................    79
    Victory Gardens..............................................    83
Ranking Member Remarks...........................................    60
Summary Statement of Stephen T. Ayers............................    60
Tour of U.S. Capitol Grounds.....................................    78
Tree Management..................................................    77
.................................................................

                          Office of Compliance

ADA Inspections of Member Offices................................   233
Attorney Need....................................................   232
Case File Security...............................................   240
Confidentiality and Informing Members of Staff Conduct...........   241
Confidentiality and Statute......................................   233
I.T. Needs.......................................................   231
Library of Congress Costs........................................   232
Library Visitor Safety...........................................   238
Opening Statement................................................   216
OSH Recommendations..............................................   238
Questions for the Record.........................................   247
Reform Implementation and Transition.............................   236
Settlement Payments..............................................   236
Training.........................................................   230
Training Demands.................................................   240
Training Development.............................................   239
Travel...........................................................   231
Witness..........................................................   215
Workplace Climate................................................   229
Workplace Rights Poster..........................................   231

                      Congressional Budget Office

Impacts of HealthCare Prevention.................................   266
Outlook of Economic Forecasts....................................   267
Prioritization of Cost Estimates.................................   264
Questions for the Record.........................................   272
Scoring on Preventative Healthcare Bills.........................   269
Statement of Chairman Yoder & Ranking Member Ryan................   253
Statement of Dr. Keith Hall, Director (CBO)......................   254
The Prepared Statement...........................................   257

                 U.S. Government Accountability Office

Accomplishments..................................................   277
Cyber Security...................................................   321
Disaster Assistance..............................................   320
Duplication and Cost Savings.....................................   318
Electronic Docketing Protest System..............................   314
GAO Testimony--Fiscal Year 2019 Budget Request...................   278
Healthcare.......................................................   311
High Risk List...................................................   315
INTEL............................................................   310
Medicare and Medicaid............................................   307
Opening..........................................................   275
Opening Statement................................................   276
Questions for the Record.........................................   313
Statement Continued..............................................   305
Statement from Congressman Newhouse..............................   324
Technology Assessment............................................   311
Technology Assessment............................................   313
Veterans Affairs.................................................   308
Work Initiated by the Comptroller General........................   313

                          Library of Congress

Accessible Collections...........................................   353
Chairman Yoder's Closing Remarks.................................   359
Congressional Dialogue...........................................   348
Congressional Dinner Appreciation................................   352
Copyright Mandatory Deposit Rulemaking Proposal..................   349
Copyright Office:
    Copyright IT Modernization...................................   357
    Copyright Processing Time....................................   357
Cross-Referencing Terminology....................................   352
Congressional Research Service:
    CRS Inquiries................................................   354
    CRS Workforce................................................   354
    Congressional Research Service Workforce.....................   350
    Progress on Making CRS Reports Public........................   355
Funding Impacts..................................................   347
Hands-on History.................................................   349
Increasing Access................................................   354
Library's Young Readers Room.....................................   348
National Library Service's E-Reader Program......................   356
Opening Statements:
    Chairman Yoder...............................................   325
    Ranking Member Ryan..........................................   325
    Librarian of Congress........................................   326
Questions for the Record from Chairman Yoder:
    Visitor Experience...........................................   360
    Civil Society................................................   361
    CRS Reports..................................................   362
    GAO Recommendations..........................................   362
Primary Computing Facility.......................................   362
    E-Reader Investment..........................................   363
Subject Headings.................................................   351
Visitor's Experience.............................................   346
Visitor's Experience Timeline....................................   347
Visitor's Experience Clarification for the Record................   347
Written Statements:
    Librarian of Congress........................................   329
    Director, Congressional Research Service.....................   333
    Acting Register of Copyrights................................   338

                     U.S. House of Representatives

Central Calendar.................................................   405
Chairman Outlines Proceedings....................................   366
Chairman's Closing Remarks.......................................   409
Chief Administrative Officer Abbreviated Testimony...............   387
Chief Administrative Officer FY19 Budget Request.................   387
Chief Administrative Officer Initiatives.........................   387
Chief Administrative Officer Strategic Plan......................   388
Clerk of the House Abbreviated Testimony.........................   366
Clerk Projects and Programs......................................   366
Customer Experience Center.......................................   388
Cybersecurity....................................................   388
District Office Security.........................................   404
Enhancing Security Measures......................................   379
Garage Security Initiative.......................................   401
House Childcare Center...........................................   403
House Childcare Center Parking...................................   403
House Floor Voting System........................................   408
House Food Services..............................................   402
Opening Statement of Hon. Kevin Yoder, Chairman..................   365
Opening Statement of Hon. Tim Ryan, Ranking Member...............   366
Posey Rule.......................................................   401
Prepared Statements for the Record...............................   424
Questions for the Chief Administrative Officer...................   410
Questions for the Clerk..........................................   417
Questions for the Sergeant at Arms...............................   420
Reducing Food Waste..............................................   403
Security at Multi-Member Events..................................   404
Security Initiatives and Projects................................   379
Security Screening...............................................   405
Sergeant at Arms Abbreviated Testimony...........................   379
Statement of E. Wade Ballou, Jr., Legislative Counsel, U.S. House 
  of Representatives.............................................   425
Statement of Hon. Karen Haas, Clerk, U.S. House of 
  Representatives................................................   368
Statement of Hon. Paul Irving, Sergeant at Arms, U.S. House of 
  Representatives................................................   381
Statement of Hon. Philip Kiko, Chief Administrative Officer, U.S. 
  House of Representatives.......................................   389
Statement of Michael Ptasienski, Inspector General, U.S. House of 
  Representatives................................................   445
Statement of Ralph Seep, Law Revision Counsel, U.S. House of 
  Representatives................................................   437
Statement of Thomas Hungar, General Counsel, U.S. House of 
  Representatives................................................   442

                                  <all>
</pre></body></html>
